<html>
<title> - DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 1998</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Publishing Office]


<DOC>
 
                 DEPARTMENT OF THE INTERIOR AND RELATED
                    AGENCIES APPROPRIATIONS FOR 1998

=======================================================================

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                              FIRST SESSION
                                ________

   SUBCOMMITTEE ON THE DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES

                      RALPH REGULA, Ohio, Chairman

JOSEPH M. McDADE, Pennsylvania         SIDNEY R. YATES, Illinois   
JIM KOLBE, Arizona                     JOHN P. MURTHA, Pennsylvania
JOE SKEEN, New Mexico                  NORMAN D. DICKS, Washington 
CHARLES H. TAYLOR, North Carolina      DAVID E. SKAGGS, Colorado   
GEORGE R. NETHERCUTT, Jr., Washington  JAMES P. MORAN, Virginia    
DAN MILLER, Florida                                                
ZACH WAMP, Tennessee                                               
                                                                   
NOTE: Under Committee Rules, Mr. Livingston, as Chairman of the Full 
 Committee, and Mr. Obey, as Ranking Minority Member of the Full 
 Committee, are authorized to sit as Members of all Subcommittees.

Deborah Weatherly, Loretta Beaumont, Joel Kaplan, and Christopher Topik,
                            Staff Assistants

                                ________

                                 PART 6
                                                                   Page
Public Witnesses for Indian Programs..............................     1
   Additional Testimony...........................................   416


                                ________

         Printed for the use of the Committee on Appropriations

                                ________

                     U.S. GOVERNMENT PRINTING OFFICE

40-073 O                    WASHINGTON : 1997

------------------------------------------------------------------------
             For sale by the U.S. Government Printing Office            
        Superintendent of Documents, Congressional Sales Office,        
                          Washington, DC 20402                          
                           ISBN 0-16-054933-7                           



                       COMMITTEE ON APPROPRIATIONS                      

                   BOB LIVINGSTON, Louisiana, Chairman                  

JOSEPH M. McDADE, Pennsylvania         DAVID R. OBEY, Wisconsin            
C. W. BILL YOUNG, Florida              SIDNEY R. YATES, Illinois           
RALPH REGULA, Ohio                     LOUIS STOKES, Ohio                  
JERRY LEWIS, California                JOHN P. MURTHA, Pennsylvania        
JOHN EDWARD PORTER, Illinois           NORMAN D. DICKS, Washington         
HAROLD ROGERS, Kentucky                MARTIN OLAV SABO, Minnesota         
JOE SKEEN, New Mexico                  JULIAN C. DIXON, California         
FRANK R. WOLF, Virginia                VIC FAZIO, California               
TOM DeLAY, Texas                       W. G. (BILL) HEFNER, North Carolina 
JIM KOLBE, Arizona                     STENY H. HOYER, Maryland            
RON PACKARD, California                ALAN B. MOLLOHAN, West Virginia     
SONNY CALLAHAN, Alabama                MARCY KAPTUR, Ohio                  
JAMES T. WALSH, New York               DAVID E. SKAGGS, Colorado           
CHARLES H. TAYLOR, North Carolina      NANCY PELOSI, California            
DAVID L. HOBSON, Ohio                  PETER J. VISCLOSKY, Indiana         
ERNEST J. ISTOOK, Jr., Oklahoma        THOMAS M. FOGLIETTA, Pennsylvania   
HENRY BONILLA, Texas                   ESTEBAN EDWARD TORRES, California   
JOE KNOLLENBERG, Michigan              NITA M. LOWEY, New York             
DAN MILLER, Florida                    JOSE E. SERRANO, New York           
JAY DICKEY, Arkansas                   ROSA L. DeLAURO, Connecticut        
JACK KINGSTON, Georgia                 JAMES P. MORAN, Virginia            
MIKE PARKER, Mississippi               JOHN W. OLVER, Massachusetts        
RODNEY P. FRELINGHUYSEN, New Jersey    ED PASTOR, Arizona                  
ROGER F. WICKER, Mississippi           CARRIE P. MEEK, Florida             
MICHAEL P. FORBES, New York            DAVID E. PRICE, North Carolina      
GEORGE R. NETHERCUTT, Jr., Washington  CHET EDWARDS, Texas                 
MARK W. NEUMANN, Wisconsin             
RANDY ``DUKE'' CUNNINGHAM, California  
TODD TIAHRT, Kansas                    
ZACH WAMP, Tennessee                   
TOM LATHAM, Iowa                       
ANNE M. NORTHUP, Kentucky              
ROBERT B. ADERHOLT, Alabama            

                 James W. Dyer, Clerk and Staff Director


DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 1998

                              ----------                              

                                           Thursday, March 6, 1997.

 TESTIMONY OF MEMBERS OF CONGRESS AND OTHER INTERESTED INDIVIDUALS AND 
                             ORGANIZATIONS

                        BUREAU OF INDIAN AFFAIRS

                         INDIAN HEALTH SERVICE

                                WITNESS

KEITH TINNO, SHOSHONE-BANNOCK TRIBES

    Mr. Regula [presiding]. Good morning. Nice to see all of 
you. We are going to get started because we have a long list of 
witnesses today. The testimony that each of you have written 
will be made part of the record. You will have five minutes. 
I'll give you a warning if you run over time. We simply have to 
stay to the five minute rule because otherwise someone else 
will get cheated out of their time. We'll try to keep moving. 
We have a lot to cover.
    Our first witness today will be the Shoshone-Bannock 
Tribes, Keith Tinno. Mr. Tinno.
    Mr. Tinno. Good morning, Mr. Chairman.
    Mr. Regula. Good morning.
    Mr. Tinno. My name is Keith Tinno. I am the chairman for 
the Shoshone-Bannock Tribes in southeast Idaho. I come here 
before you today as a representative of my government to speak 
with you and your committee Members, more or less requesting 
for the 1998 appropriation request.
    I will begin with the educational funding request in the 
amount of $450,000. While the past's trend on educational 
funding point downward, the number of Indian students 
desperately needing educational funding, the funding request 
needs to increase. We have over 1,400 children from grades 
kindergarten through 12th grade in our local area, both on and 
off the reservation. We will desperately need a level of 
funding that will enable us to address the problem issues of 
the children for education purposes and also for the community 
to maintain the proposed BIA funding request of $467 million 
for the school operation to ensure that our newly completed 
Sho-Ban High School can provide adequate textbooks, curriculum 
for the students as enrollment continues to grow each year.
    For our fish and wildlife department, we are requesting 
funding of $311,023. We have a wildlife refuge that is larger 
than any other wildlife refuge in the State of Idaho. Yet we 
receive a comparative fraction of the State's allocation. The 
only source of funding is through the Bureau of Indian Affairs. 
We have an official role as protectors and managers of 
migratory birds and wildlife, but without adequate funding, we 
will witness the diminishment of those creatures our Creator 
put on mother Earth here. We have suffered a huge cut in 
funding in this line item over the last two years, and request 
for that funding.
    Our next request is for vocational rehabilitation funding. 
We are requesting the amount of $369,360. More or less our 
reservation and like many others over the years have been 
ravaged by problems with drug addiction, fetal alcohol 
syndrome, and numerous other social ills. In order to provide a 
comprehensive vocational rehabilitation program for our tribal 
members, a substantial increase in funding is needed, and funds 
to help treat, prevent, prepare our people for gainful 
employment and a constructive place in today's society.
    For our tribal court system, we are requesting 
$2,259,208.34. Congressional appropriations are of vital 
importance to the basic function of our tribal courts. The 
funds authorized for the basic functions of the Tribal Court, 
the BIA specifically for Indian programs is under the Tribal 
Court Justice Act are necessary and justified to the maximum 
limits, notwithstanding the fact that our 1998 proposal covers 
only the bare minimum for basic operations. Approval of our 
request would provide strong evidence of the commitment of the 
Federal Government to uphold their trust responsibility. 
Approval of this funding would support the trust responsibility 
as well as restore and strengthen the overall legal system of 
the Tribes.
    For economic development funding, $200,000. Our potential 
growth of economic development arena is unlimited. We have the 
land, the water, and the people.
    Mr. Regula. You have one minute.
    Mr. Tinno. And we wish not to remain ever dependent on 
Congress, but more or less to develop our economic development.
    Home improvement program, requesting $729,000. We have 
several tribal members that didn't receive adequate funding to 
repair their homes, so they are without water and electricity 
and the necessary sanitation.
    Mr. Regula. Thank you very much.
    Mr. Tinno. Thank you.
    [The information follows:]


[Pages 3 - 7--The official Committee record contains additional material here.]




                                           Thursday, March 6, 1997.

                        BUREAU OF INDIAN AFFAIRS

                         INDIAN HEALTH SERVICE

                               WITNESSES

MIKE FOX, INTERTRIBAL BISON COOPERATIVE
MARK HECKERT, INTERTRIBAL BISON COOPERATIVE
LOUIS LaROSE, INTERTRIBAL BISON COOPERATIVE

    Mr. Regula. We'll take one more witness, then we'll have to 
go vote.
    Mr. Fox. Good morning, Mr. Chairman.
    Mr. Regula. Good morning.
    Mr. Fox. My name is Mike Fox. With me today is Mark 
Heckert, Executive Director, and Louis LaRose from the 
Winnebago Tribe of Nebraska.
    Mr. Regula. Okay.
    Mr. Fox. As I said, I am Mike Fox, president of the 
InterTribal Bison Cooperative and Buffalo Manager of the Fort 
Belknap Buffalo Project. I thank you for the opportunity to 
present testimony before the House Subcommittee on Interior and 
Related Agencies at this hearing concerning the President's 
budget. The ITBC requests $6.5 million in funding for Fiscal 
Year 1998.
    The ITBC is comprised of 37 American Indian Tribes in 16 
States, dedicated to the restoration of buffalo to Indian 
people for economic development, cultural enrichment, and 
environmental restoration. The restoration of buffalo is 
acknowledged to be a key to a sustainable future for Indian 
people. The ITBC is the conduit for the creation of a 
successful lasting buffalo industry in Indian country.
    The goal of the ITBC is restoration of buffalo in Indian 
lands for development of buffalo herds and related economic 
development projects. The long range goal of the ITBC is for 
Tribal herds to reach a point of economic self-sufficiency and 
further, to become an economic development tool through the 
sale of buffalo meat and by-products such as heads, hides, 
skulls and horns. Buffalo may be the only feasible natural 
resource of the grasslands of the great plains.
    The ITBC has been very successful. In 1991, there were 
seven Indian tribes raising buffalo. Those seven tribes had a 
total of 1,500 animals with little or no economic activity. By 
1997, after only five years of operation through the support 
and technical assistance of the ITBC, over 30 tribes have 
initiated or expanded the bison management programs. There are 
over 8,000 animals managed by these tribes. Most importantly, 
over 200 jobs have been created directly or indirectly through 
the development of this industry. In terms of product, these 
tribal programs have taken the first steps towards becoming 
self-sufficient and profitable operations.
    Mr. Regula. I would like to ask you a quick question rather 
than have you read all this.
    Mr. Fox. Sure.
    Mr. Regula. How many tribes are in the co-op?
    Mr. Fox. We have 37 tribes in 16 States.
    Mr. Regula. And each of the 37 is raising buffalo?
    Mr. Fox. Thirty of the 37 are currently raising.
    Mr. Regula. Eventually the others will be involved too?
    Mr. Fox. Absolutely.
    Mr. Regula. Do you use a central marketing approach or do 
they each market on their own?
    Mr. Fox. Currently all the herds are in development except 
for about five.
    Mr. Regula. So you really aren't ready to market to some 
extent yet?
    Mr. Fox. No. But we are already working towards business by 
a cooperative marketing for the buffalo.
    Mr. Regula. The slaughtering is done on the reservation or 
is there a central slaughtering house?
    Mr. Fox. It is done locally at this point. We're looking at 
a possible slaughter where we can cooperative market the meat.
    Mr. Regula. So this is a new organization in a sense to 
promote the development of buffalo herds in each of the tribes 
as an economic program?
    Mr. Fox. Yes.
    Mr. Regula. And to market the products, hides, meat, et 
cetera.
    Mr. Fox. Right.
    Mr. Regula. And I presume you will share breeding stock?
    Mr. Fox. That's one of our major operations right now, is 
sharing breeding stock.
    Mr. Regula. You're going to have to move your bulls around 
because otherwise you get inbreeding.
    Mr. Fox. Absolutely.
    Mr. Regula. Do you want to comment?
    Mr. Heckert. Yes. I was just going to say it's ironic that 
we're in the process now of trying to build up these herds, 
while at the same time the State of Montana and the U.S. 
Government has just reached the point of slaughtering 1,000 
buffalo in Yellowstone National Park. We are trying to work 
with the Government both----
    Mr. Regula. Is that because of brucellosis?
    Mr. Heckert. Yes. There's a possible threat of brucellosis. 
We proposed a plan that would take care of that problem, as 
well as getting the clean buffalo out.
    Mr. Regula. What do you need, some money to do this? Is 
that what you are asking for?
    Mr. Fox. Part of our request is $2 million for the facility 
to remove and help eradicate the brucellosis from the 
Yellowstone bison.
    Mr. Regula. Has this received any money? Oh, yes we 
provided $638,000 last year.
    Mr. Heckert. It was specifically for tribal projects.
    Mr. Regula. And you want $6.5.
    Mr. Heckert. Million.
    Mr. Regula. Million, yes. Well it's not likely we'll have 
that kind of money, but we'll take a look at your request.
    Mr. Heckert. We do have the concurrence of the National 
Park Service, Department of Interior in the State of Montana.
    Mr. Regula. They support your program?
    Mr. Heckert. Yes. They do.
    Mr. Regula. Okay. Well, thank you very much for coming.
    [The information follows:]

[Pages 10 - 13--The official Committee record contains additional material here.]


    Mr. Regula. We'll suspend the committee long enough to go 
and vote.
    [Recess.]
                              ----------                              

                                           Thursday, March 6, 1997.

                        BUREAU OF INDIAN AFFAIRS

                         INDIAN HEALTH SERVICE

                               WITNESSES

JOHN KIBBLE, SAULT STE. MARIE TRIBE
RUSSELL J. VIZINA, SAULT STE. MARIE TRIBE

    Mr. Regula. Okay, Sault Ste. Marie Tribe, Mr. Bouschor.
    Mr. Kibble. Good morning, Mr. Chairman, and Members of the 
committee. My name is John Kibble. This is Russell Vizina, our 
health director. On behalf of the Sault Ste. Marie Tribe of 
Chippewa Indians, I want to thank you for this opportunity to 
appear before you to discuss our Fiscal Year 1998 
appropriations concerns.
    The Sault Ste. Marie Tribe of Chippewa Indians is the 
largest federally-recognized tribe in Michigan. The tribe is 
dedicated to achieving true self-determination and self-
governance. Over the past few years, we have opened schools, 
built health centers, established a tribal court system, and 
worked to restore and enhance our economy and our land base. 
While much has been done, considerably more is needed to enable 
us to fulfill the promise of self-determination policy. We urge 
this committee and Congress to reaffirm its commitment to 
providing funding sufficient to enable tribes to maintain basic 
core services funded the BIA and IHS.
    Mr. Vinzina. Thank you. I would like to introduce or look 
at health care. We have two major concerns in health care. One 
is the lack of contract health care funding. We have 10,000 
tribal members. We don't have an in-patient facility. Our 
contract health care budget is approximately $1.3 million. So 
basically we can't even take care of emergency care with that 
amount of money. We buy about less than 100 days of in-patient 
care and hopefully some emergency out-patient care, but that's 
about it.
    So we're not asking for a specific amount of 
appropriations, but we want an overall increase in contract 
health care appropriations.
    Mr. Regula. You get this money through BIA?
    Mr. Vinzina. No. Through the Indian Health Service.
    Mr. Regula. Oh, the Indian Health Service. This is not a 
line item though, is it?
    Mr. Vinzina. Contract health care dollars is a line item.
    Mr. Regula. Well I know, but in gross, but not in your 
particular case.
    Mr. Vinzina. No. We have a self-governance contract.
    Mr. Regula. You are just saying you would like to see more 
money in the account?
    Mr. Vinzina. Right.
    Mr. Regula. So they in turn could theoretically give you 
more.
    Mr. Vinzina. That's correct.
    Mr. Regula. Okay. Well thank you for your testimony. We'll 
see what we have available.
    Mr. Vinzina. The other concern on cuts in health care is 
that we're a self-governance tribe. We're very supportive of 
that process. We want permanent self-governance legislation. 
But the handicap is a lack of contract support dollars. This is 
our third year of being a compacted tribe and we haven't 
received any dollars for contract support costs yet.
    Mr. Regula. So all your health care services are delivered 
to the tribe via this contract with what is it, an HMO you have 
contracted with?
    Mr. Vinzina. No. We do our own. We have four out-patient 
facilities.
    Mr. Regula. Okay. You have about a minute left.
    Mr. Kibble. Mr. Chairman, on the bureau side, the program 
is funded by tribal priority allocations within the bureau, are 
at the heart and soul of tribal governments. They include 
police protection, education, social services, tribal courts 
and other government functions. TPA is vitally important to 
Indian people and communities. Cuts in TPA would have 
devastating impacts on crime, education, and tribal justice 
systems. We urge the committee to increase funding for TPA, 
supporting at least the administration's modest requested 
increase.
    The tribe has recently entered into a self-governance 
compact with BIA. Again, we are concerned that full funding for 
self-governance is not being provided. With respect to the BIA, 
no central office tribal shares are being made available as was 
required by language included in this year's Appropriations 
Act. We ask the committee to revisit this issue and to require 
that BIA self-governance compact include central----
    Mr. Regula. Okay. We'll take a look at it. We have your 
testimony for the record. Thank you for coming.
    [The information follows:]

[Pages 16 - 19--The official Committee record contains additional material here.]


                                           Thursday, March 6, 1997.

                        BUREAU OF INDIAN AFFAIRS

                         INDIAN HEALTH SERVICE

                               WITNESSES

FERRELL SECAKUKU, HOPI TRIBE
CLAYTON HONYUMPTEWA, HOPI TRIBE

    Mr. Regula. The Hopi Tribe. Mr. Secakuku, is that right?
    Mr. Secakuku. That's correct. Thank you, Mr. Chairman Blue 
Spruce, and members. You are aware that you are the Honorary 
Hopi.
    Mr. Regula. I know. Oh, yes.
    Mr. Secakuku. Your name is Blue Spruce.
    Mr. Regula. That's correct.
    Mr. Secakuku. My name is Ferrell Secakuku.
    Mr. Regula. I like Blue Spruce better, frankly.
    Mr. Secakuku. I am the chairman of the Hopi Tribe and I 
appreciate being here to testify before you and your committee. 
The first one on our request is the Hopi Health Care Center. We 
are requesting for an amount of $34.5 million. Of that is 
$26.997 million will be for the construction of the new 
facility, and $7.503 million for medical and telecommunications 
equipment from the Indian Health Service.
    We were very encouraged that the President has submitted 
and recommended into the budget to the Congress as part of line 
item, and we would like your support. This will be a three-year 
phased program. Hopefully by the year 2000, we'll have the 
construction completed. We have done the planning and design 
and the construction information should be forthcoming by April 
1997.
    So with this funding, we would move right into the 
construction phase to make that into a reality, which was 
promised to us back in 1980 with the amendment to the 1974 
Settlement Act as part of the rendering to us by Congress to 
give up our land so that the medical people can live under----
    Mr. Regula. As part of that settlement.
    Mr. Secakuku. Yes, right. The other is that the 
implementation of the Hopi Land Settlement Act of 1996 with the 
United States Government, in that we also have an accommodation 
agreement with the Navajo families on the Hopi partition lands. 
In this request, we are asking the Congress for $2,356,000 from 
the Department of the Interior, Bureau of Indian Affairs. As 
you will remember that about the end of September, we went 
through the congressional hearings and the legislation and all 
of that. It fortunately was passed. On October 11, President 
Clinton signed the bill. Since then, we need to begin 
implementation.
    Mr. Regula. As soon as possible.
    Mr. Secakuku. As part of settlement agreement with the 
Federal Government, we are requesting to getting to the 
implementation, which will be greatly needed because we need 
to--once we take jurisdiction of our lands, it is going to take 
a lot of money to begin the management, begin the 
infrastructure, improvement of the roads, especially in the law 
enforcement area where we need to increase because it's going 
to be 1.6 million acres of land that the Hopi Tribe will be 
maintaining. So we are asking that Congress support our request 
for $2.3 million.
    The third one is a technical assistance for planning and 
design of infrastructure for the Hopi residents of the former 
Bennett Freeze area. In 1992, Judge Carroll has made a decision 
in the 1934 Boundary Bill, and set aside 60,518 acres of land 
to the Hopi Tribe. For the last 30 years, this land has been 
imposed by a freeze, where there's no commercial development, 
no housing, not any kind of development has come out there.
    Mr. Regula. Can you summarize? We're getting out of time 
here.
    Mr. Secakuku. Okay. I would like to request that you 
support them.
    Also we ask that the increase in IHS formula be supported, 
and also the TPA increase in funding be supported. With that, I 
appreciate your time.
    Mr. Regula. Well thank you for coming. I'm sorry we don't 
have more time. It's just that we're on a really tight schedule 
here. We'll look at all the testimony.
    Mr. Secakuku. Thank you.
    [The information follows:]

[Pages 22 - 25--The official Committee record contains additional material here.]


                                           Thursday, March 6, 1997.

                        BUREAU OF INDIAN AFFAIRS

                         INDIAN HEALTH SERVICE

                                WITNESS

TOM MAULSON, GREAT LAKES FISH AND WILDLIFE COMMISSION

    Mr. Regula. Great Lakes Fish and Wildlife Commission. Mr. 
Schlender.
    Mr. Maulson. How are you doing there, Mr. Chairman?
    Mr. Regula. Good.
    Mr. Maulson. This ain't Mr. Schlender. This is Mr. Maulson, 
tribal chair Lac du Flambeau Band, and also chairman of the 
Great Lakes Fish and Wildlife Commission. With the time 
restraints, Hopi is asking for a check. Maybe I should ask 
that. It will only take five minutes.
    Mr. Regula. A check?
    Mr. Maulson. Correct.
    Mr. Regula. I can give you a check. They won't cash it, but 
they can try.
    Mr. Maulson. Make it out for $2,493,000.
    Mr. Regula. Whatever amount.
    Mr. Maulson. Okay. Well anyway, Mr. Chairman, the Great 
Lakes Fish and Wildlife Commission and 11 tribes want to thank 
you for supporting, in Congress supporting last year's, I 
believe it was 1996-97 appropriations. The commission is asking 
that the Congress support and your committee support the 1998 
base figure of $3,493,000 basis, comprised of $3,236,000 for 
rights protection, $83,000 plus for restoring self governance, 
$174,000 reprogram for the Commission of Wisconsin joint 
assessment. It's an opportunity for us to sort of bring up our 
commission in the midwest in reference to the good job that 
we're doing for all peoples, not just Indian people. Your 
committee needs to know that. It's really working well in 
Wisconsin and in Minnesota.
    As you know, treaty rights are starting to be implemented. 
The commission is starting to be involved in that. So we're 
requesting a small increase of roughly--I believe we're asking 
for $18,000 to establish a tribal registration station, 
requesting $42,000 plus for a tribal court system. We are 
requesting $34,000 plus for expanding fishery assessment within 
the treaty rights in Minnesota. We're hoping that you look at 
this favorably and make that some of your priorities in 
reference to making sure that all peoples protect resources, as 
the commission has done in the past.
    Mr. Regula. Okay. Thank you for the information. This, 
along with many other requests will be considered.
    Mr. Maulson. We thank you.
    [The information follows:]

[Pages 27 - 30--The official Committee record contains additional material here.]


                                           Thursday, March 6, 1997.

                        BUREAU OF INDIAN AFFAIRS

                         INDIAN HEALTH SERVICES

                               WITNESSES

JOSEPH BULFER, SOUTHERN INDIAN HEALTH COUNCIL, INC.
ROBERT BROWN, SOUTHERN INDIAN HEALTH COUNCIL, INC.

    Mr. Regula. Southern Indian Health Council. Mr. Bulfer, is 
that right?
    Mr. Bulfer. Good morning, Mr. Chairman.
    Mr. Regula. Good morning.
    Mr. Bulfer. I have Chairman Brown from Southern Indian 
Health Council Board of Directors. On the other side, we have 
Joe Bulfer, executive director.
    Mr. Regula. I understand you represent five tribes?
    Mr. Bulfer. No, we do not. It's seven.
    Mr. Regula. Seven. Located where?
    Mr. Bulfer. In San Diego County, on the east side of San 
Diego County.
    Mr. Regula. Where's that?
    Mr. Bulfer. San Diego County, you know where would be 
Alpine on the east. I don't know if you are familiar with the 
area or not.
    Mr. Regula. No. I don't think so.
    Mr. Bulfer. Okay.
    Mr. Brown. It's eastern San Diego County.
    Mr. Regula. Oh, okay.
    Mr. Brown. It's probably about 100 square miles.
    Mr. Regula. So it would be east of San Diego?
    Mr. Brown. Yes.
    Mr. Bulfer. We invite you to go there sometime.
    Mr. Regula. Well I was there for the convention. Go ahead.
    Mr. Brown. We have several topics here. We have a handout. 
I've got five minutes to go through them.
    Mr. Regula. Summarize it, please.
    Mr. Brown. I think the things that I wanted to talk about 
more importantly are first of all, we're not asking for 
additional monies here. What we are looking for is for monies 
to be placed appropriately and for continued support in various 
programs that are being funded. We realize that there's an 
under-funding. I think you are acutely aware of that for the 
last 10 years, testifying before Chairman Yates as well as 
yourself now.
    The first issue that we have on the item is a regional 
youth treatment center. What we have in the letter, the 
information that you have is we have in 1996, you know, 
California is quite different from the other programs. There is 
not an in-patient facility for health care. There is also not 
an in-patient facility for youth, for alcohol, substance abuse. 
It's pretty much the number one problem that we have out there.
    In 1986, we were able to push through some legislation to 
create two youth regional treatment centers. Indian Health 
Services was directed to do that. Indian Health Services has 
not been able to make this happen for a number of reasons which 
we don't really have time to go into right now. But basically 
it hasn't happened.
    Southern Indian Health Council has decided to push forward 
and acquire Federal funding to build the construction of the 
facility itself. What we are looking for is in the 1986 Act, 
there is $1.3 million which was allocated to substance abuse 
funding. We are asking the individual tribes as well as the 
California Indian Health Service, but we are also asking for 
your support to have $700,000 of that allocated to Southern 
Indian Health Council so we can operate the facility at no cost 
to Indian people. That's important so that Indian people can 
gain equal access without an ability to pay. So that's really 
what we're looking for, is support for that, $700,000, plus in 
the first year $200,000 of start-up costs. So that's what we 
have asked for, number one is your support for that.
    If there was a way that you could get a letter out to 
Indian Health Services saying that we support this, since you 
have been unable for the last 11 years to get his mandated 
substance abuse center going, we support this, and Dr. 
Trujillo, would you please get this thing funded.
    The second item we have on here is the BIA Federal Trust 
responsibilities. Because we are so remotely located and we 
have an eight-acre site, we try to expand and create as many 
services as possible for Indian people. What we have found is 
we are running out of land, so we bought a one-acre parcel next 
to it. That one-acre parcel is only 50-feet wide at any given 
point. We have been trying for the last four years to go to the 
bureau and try to get the bureau to put it in Federal Trust.
    I am sure you are aware that as long as it's not gaming 
related, that the Federal Trust transfer should occur without a 
problem. We have spent thousands and thousands of dollars 
coming back here basically dealing with the area office which 
is really the problem.
    Mr. Regula. The BIA?
    Mr. Brown. Yes. The BIA. They are being totally non-
responsive. We have just received a letter from the BIA telling 
us that now they want us to put an easement on it. Well there's 
a public road right in front of both ours and the site, our 
facility and the site that we have just purchased for one acre 
several years ago. There is no need for an easement. There is a 
public road which goes in front of both places.
    Mr. Regula. Oh.
    Mr. Brown. This is ridiculous. This needs to be stopped. If 
there's any way the Appropriations Committee could help us, we 
appreciate it.
    To go over the other items pretty quick, FQHC, the 
federally qualified health center. That's a concept I think you 
are familiar with. It's basically for rural programs. It helps 
us substantially. It's really supplemental type money for 
MedicAid type patients on Indian land. That's very important to 
us. It enables us to recover costs so that we can continue to 
provide services to our people.
    We support the continued FQHC funding mechanism. There's 
talk on the Hill right now of ending FQHC. We do not want that 
to happen. Not only are Indian programs going to suffer, but 
non-Indian programs are going to suffer as well.
    Mr. Regula. I think that is an authorizing issue.
    Mr. Brown. Yes.
    Mr. Regula. You have about a minute left.
    Mr. Brown. Okay. Another item is Indian Health Services 
inequity in funding payments and formulas. If a program has a 
new--if you want to start a new program, the formulas that are 
in place right now are set so that new programs do not receive 
increased funding as the years go by. So you are sort of in a 
catch-22 situation. There's no way you can start a new service 
if you haven't already been reimbursed. So what programs like 
ours have to do is we start the service and fully fund it 
ourselves. We need assistance. We need IHS to revise their 
formula so that new programs, expanded services are integrated 
into that formula.
    Another item, BIA minimum base funding level for tribal 
governments. It's important for tribal governments to receive a 
minimum of base level funding of $160,000. Right now, tribes 
are getting $10,000 to $20,000. That is not enough hardly to 
operate your heating and lighting. So we are looking for 
support for the subcommittee so that tribes can get on their 
feet and start helping programs, especially programs, to get 
people in the health system.
    The last comment I have is on the temporary assistance to 
needy families, welfare reform. The problem we have here is 
we've got, I'm sure you are aware that this is a new program.
    Mr. Regula. Right.
    Mr. Brown. The biggest problem that we see there is tribes 
have the ability now to contract for this. The problem with 
that is they can't contract for it and make it successful 
unless money is also infused in for economic development. That 
is missing. Until that is something that's dealt with, we're 
not going to be able to see this be a successful government 
program.
    Mr. Regula. Okay. Well we'll take a look at all these 
things. Thanks for coming.
    Mr. Brown. Thank you very much.
    [The information follows:]

[Pages 34 - 37--The official Committee record contains additional material here.]


                                           Thursday, March 6, 1997.

                        BUREAU OF INDIAN AFFAIRS

                         INDIAN HEALTH SERVICE

                                WITNESS

JAIME PINKHAM, INTERTRIBAL TIMBER COUNCIL

    Mr. Regula. Intertribal Timber Council, Mr. Pinkham.
    Mr. Pinkham. Thank you, Mr. Chairman. Good morning. I am 
Jaime Pinkham, president of the Intertribal Timber Council. I 
appreciate the opportunity to comment on the Bureau of Indian 
Affairs proposed Fiscal Year 1998 forestry budget.
    Mr. Chairman, the bureau's forest management planning 
capability is rapidly evaporating. Sharp reductions in BIA 
staff expertise and sufficient funding and escalating of course 
management planning requirements are stripping the bureau of 
what limited forestry planning dollars it once had.
    In Fiscal Year 1993, more than 80 percent of the Indian 
reservations were in compliance with the planning requirements. 
However, as of September of last Fiscal Year, according to the 
most recently available information, compliance has fallen to 
62 percent. Worse yet, because much of that land was 
concentrated on the larger forested reservations on a 
reservation by reservation basis, only 36 percent of the 
forested reservations had current plans in place at that time.
    Since then, the situation has certainly declined even 
further. Since 1995, BIA forestry personnel needed for the 
development of management plans has been cut in half. Area 
forestry personnel has fallen from about 25 to 15. Then central 
office personnel has fallen from 19 to eight. It is important 
to understand that because most of the 83 reservations with 
commercial forests are not large enough and have limited 
forestry staff. The task of developing and implementing these 
management plans has fallen on the necessity of these 15 area 
personnel spread throughout the bureau's 12 areas, and on the 
five central office staff in the Branch of Forest Resource 
Planning.
    Quite simply, it's beyond any realistic expectation that so 
few personnel----
    Mr. Regula. What you want to do is beef up the staff to 
serve these areas?
    Mr. Pinkham. Yes. To provide for the planning that's so 
vital to Indian forest resources, to protect the health and 
welfare of forest resources. It begins with an intensive 
planning effort.
    Mr. Regula. Where is this generally located? Which State?
    Mr. Pinkham. Actually, throughout the United States that 
serve all Indian reservations.
    Mr. Regula. So they have access to a central point for 
professional guidance?
    Mr. Pinkham. Right. And the Bureau of Indian Affairs at the 
Central Office levels of the Branch of Forest Resource Planning 
in Colorado or from the various area offices.
    Mr. Regula. And you are saying the funding is inadequate to 
staff it properly?
    Mr. Pinkham. That is correct.
    Mr. Regula. And you would like to see us increase the 
funding?
    Mr. Pinkham. That's exactly right.
    Mr. Regula. Okay.
    Mr. Pinkham. And the request would need to beef up the area 
forestry staff, add four more foresters, about $300,000, and to 
add to the Central Office forestry staff, $150,000 for two 
additional foresters.
    The forest planning difficulties are compounded by 
insufficient forest management inventorying planning funds. 
Since its inception in 1985, this program has increased only by 
$300,000, while inflation expanded forest planning requirements 
have substantially eroded its capability. The program also 
funds a special one-time project, the renewal of management 
plans which occurs every 10 years on forested reservations. 
That supports such things as remote sensing, the inventory, and 
environmental assessments.
    The lack of environmental assessments can stop forestry 
activity in its track. Yet 30 percent of the larger category 
one tribal forests are without current EAs, and smaller 
category two forests as of 1995 are close to 75 percent without 
EAs. Insufficient EAs and plans have already shut down, for 
example, the Navajo Nation's forest for the past several years. 
Without increased resources, many other tribal forests may face 
the same consequence.
    Mr. Regula. Rather than read all that, let me ask you a 
couple questions.
    Mr. Pinkham. Sure.
    Mr. Regula. Do most of the tribes that you are representing 
sell some timber?
    Mr. Pinkham. Yes, sir.
    Mr. Regula. So that the management becomes important in 
terms of their ability to grow and produce this resource for 
future sales. Is that right?
    Mr. Pinkham. That's exactly right, to provide for the 
health and the productivity of the forest lands.
    Mr. Regula. And who markets it? Does the tribe market their 
own timber?
    Mr. Pinkham. It varies from reservation to reservation. 
Some tribes will market their own, have their own enterprises. 
Some sell on a basis directly to the mills. Also the Bureau of 
Indian Affairs administers the programs with the tribes with 
contracted programs.
    Mr. Regula. Okay. Thank you for bringing this to our 
attention.
    Mr. Pinkham. Thank you.
    [The information follows:]

[Pages 40 - 43--The official Committee record contains additional material here.]


                                            Thursday, March 6, 1997

                        BUREAU OF INDIAN AFFAIRS

                         INDIAN HEALTH SERVICE

                                WITNESS

LEONARD LORRETTO, PUEBLO OF JEMEZ

    Mr. Regula. Pueblo of Jemez. Mr. Padilla, the governor. Is 
there anyone here?
    Mr. Lorretto. I just want to make a correction. It's not 
Randolf Padilla. It's Leonard Lorretto, the governor.
    Mr. Regula. Oh. Randolf Padilla?
    Mr. Lorretto. No. That's not. I am Leonard Loretta.
    Mr. Regula. You are the governor.
    Mr. Lorretto. Yes.
    Mr. Regula. Okay.
    Mr. Lorretto. Good morning, Mr. Chairman.
    Mr. Regula. Good morning.
    Mr. Lorretto. My name is Leonard Lorretto from the Pueblo 
of Jemez in New Mexico. I want to thank you for the opportunity 
to testify before the committee, sharing the Pueblo Jemez. We 
are a small poor tribe in New Mexico. Irrigation and farming is 
kind of our number one thing since prehistoric times. In the 
past, you have funded phase I and II in our irrigation 
construction.
    Mr. Regula. Yes.
    Mr. Lorretto. But the phase III was never funded. We have 
got about half way in the remaining part. Low construction 
funds, so we're requesting $3 million for construction funds to 
finish the project.
    Mr. Regula. This is all in your testimony here I see.
    Mr. Lorretto. Yes.
    Mr. Regula. What do you grow or what do you produce?
    Mr. Lorretto. Corn.
    Mr. Regula. Corn?
    Mr. Lorretto. Corn, chili, squash, beans.
    Mr. Regula. Do you market some of this or is it for just 
your own?
    Mr. Lorretto. Some, we market some, and for our own use.
    Mr. Regula. But largely for your own consumption?
    Mr. Lorretto. Yes.
    Mr. Regula. How many acres do you have that are presently 
irrigated?
    Mr. Lorretto. Presently we irrigate about close to 1,000. 
We need almost double that.
    Mr. Regula. To speed the track?
    Mr. Lorretto. The southern part of our reservation, we 
can't get the water. We need concrete lined ditches.
    Mr. Regula. How many members are in the tribe?
    Mr. Lorretto. Three thousand.
    Mr. Regula. So you are producing food for 3,000 people?
    Mr. Lorretto. Just about.
    Mr. Regula. And your acreage that's irrigated is inadequate 
to meet the tribal needs, is that correct?
    Mr. Lorretto. Yes.
    Mr. Regula. So you would like to get additional funding to 
expand the ditches for purposes of irrigation?
    Mr. Lorretto. Yes, sir. We need $3 million to complete the 
project.
    Another problem we have in Jemez is our asthma. It's like 
our number one thing next to our juvenile problem. Recent 
studies have been made in asthma among kids and our elderly, 
are increasing at a----
    Mr. Regula. What do you attribute that to? What do you 
think causes it?
    Mr. Lorretto. We are trying to put a study with the 
University of New Mexico to find out what the problem is. So we 
request $100,000.
    Mr. Regula. Are there air quality problems or do you think 
it's genetics?
    Mr. Lorretto. We're beginning to think so, so we're putting 
in air monitors in the reservation on the north, central and 
the southern part.
    Our juvenile justice department, we were funded by the 
Department of Justice, and then the funding ended and then 
we've got no place to go now with our juveniles. So we request 
another $126,000 to keep the program going. It was going so 
well. We were using the tribal members to counsel the kids.
    Then another thing is our water rights. I'm sure you heard 
about the United States v. Abousleman.
    Mr. Regula. Yes.
    Mr. Lorretto. It was going so well. Now another thing, no 
funding. Now we're headed towards using our own tribal people 
since we know what the problem is. We request $300,000 to keep 
the program going. We are now, we're at the point where our 
tribal people are negotiating with the non-Indian associations 
who are sitting at the table, saying that last year New Mexico 
had the worst drought. We all got together and we started like 
a rotation schedule, where the non-Indians will use it for a 
couple days, and then the rest of the Indians will use it 
downstream, because we didn't have enough water.
    So we need, the Pueblo of Jemez needs, $300,000 so we can 
start utilizing our own people to negotiate with people from 
the outside.
    Mr. Regula. Okay, well, we'll take this into consideration. 
Thank you for coming.
    Mr. Lorretto. Thank you.
    Mr. Regula. Mr. Moran, if you have any questions at any 
time----
    Mr. Moran. No, so far, I support everything you say and 
think, Mr. Chairman, although that buffalo project I found 
particularly exciting.
    Mr. Regula. Sounds interesting, yes.
    [The information follows:]

[Pages 46 - 49--The official Committee record contains additional material here.]


                                           Thursday, March 6, 1997.

                        BUREAU OF INDIAN AFFAIRS

                         INDIAN HEALTH SERVICE

                                WITNESS

CALEB SHIELDS, ASSINIBOINE AND SIOUX TRIBES

    Mr. Regula. Assiniboine--is that right?
    Mr. Shields. Assiniboine.
    Mr. Regula. Assiniboine and Sioux Tribes, Mr. Shields.
    Mr. Shields. Thank you, Mr. Chairman and members of the 
committee.
    Mr. Chairman, TPA, or the Tribal Priorities Allocation 
system, is intended to give tribes more flexibility in the 
allocation of those funds. As we see it, the administration has 
requested an increase of $46 million for the programs under 
TPA. Essentially, this would only cover or restore funding to 
the Fiscal Year 1995 levels. While we support this restoration, 
it would still fall far short of allowing the Ft. Peck Tribes 
to meet the needs of our people in key areas, including law 
enforcement, education, welfare assistance, and housing. We 
urge the committee to do all it can to increase TPA above the 
level requested by the President.
    On the last page of the testimony, I have an attachment, a 
chart, that shows--the left column is for the Bureau of Indian 
Affairs, the agency and the programs we contract, and on the 
right column is the Indian Health Service and those programs 
that we contract. If those are totaled up, the current levels 
of funding that we have in Ft. Peck now, and those under BIA 
and our contract programs, is around $6.5 million. An adequate 
budget would be just about twice that amount. That's how we 
have ``de-gressed'' over the years with reductions.
    Also, the Indian Health Service column over there, we have 
around $14.5 million, and $17 million would be an adequate 
budget just to provide the services that are needed. So really 
even though tribes, many tribes, are contracting their self-
governance, some tribes are not contracting at all. In any 
case, most all the tribes are experiencing levels below the 
1995 level of funding.
    We have real shortfalls in law enforcement on our 
reservation. It's a large reservation, 600,000 square miles, 2 
million acres. For coverage, we only have 18 police officers 
compared to--the reservation's 100 miles long and 45 wide. 
That's a lot of territory to cover.
    Mr. Regula. It surely is.
    Mr. Shields. We need additional law enforcement funds.
    Also, in the area of education, the President requested $30 
million for scholarships, but, unfortunately, the current level 
provides scholarships to only 60 percent of students; the other 
40 percent have to wait or get on a waiting list. So that's 
another area that needs additional funds.
    Mr. Regula. You have about one minute left.
    Mr. Shields. Yes, and, also, we have--what's not covered in 
the President's budget--or the budget request is only $17 
million for JOM. This is, again, it represents a $7 million cut 
from the 1995 level of funding. So actually about $24 million 
is needed in JOM.
    The rest of the testimony, Mr. Chairman, covers the welfare 
assistance, private school, a detention facility, tribal 
colleges, our Indian health concerns. So we have those all.
    Mr. Regula. We appreciate your bringing them to our 
attention. Thank you.
    Mr. Shields. Thank you.
    [The information follows:]

[Pages 52 - 55--The official Committee record contains additional material here.]


                                           Thursday, March 6, 1997.

                        BUREAU OF INDIAN AFFAIRS

                         INDIAN HEALTH SERVICE

                                WITNESS

FERDINAND MANTINEAU, FOND DU LAC BAND OF LAKE SUPERIOR CHIPPEWA

    Mr. Regula. Fond du Lac Band of Chippewa Indians, Mr. 
Peacock, chairman.
    Mr. Mantineau. Hello, Mr. Chairman, my name is Ferdinand 
Mantineau, and I'm resource manager and director for the Fond 
du Lac Reservation. I'd like to thank you on behalf of the Fond 
du Lac Band for this opportunity to present this testimony.
    We're here to urge the committee's continued support for 
tribal programs which are important to the lives of Indian 
people. We seek your support specifically for our natural 
resources and forestry initiatives and the Fond du Lac Ojibwe 
School on the reservation.
    The Fond du Lac Reservation is one of six Chippewa bands of 
the Minnesota Chippewa Tribe. The reservation was established 
by the Treaty of 1854 with the United States Government. It 
encompasses approximately 100,000 acres, and there are 
currently----
    Mr. Regula. This is in Wisconsin?
    Mr. Mantineau. Minnesota. And there are approximately 3,500 
enrolled members.
    Our message is this: there continues to be a substantial 
unmet need in health, education, and protection and management 
of natural resources. Any reductions in funding, no matter how 
small, for Indian country or Indian programs would be severe 
and have adverse impacts on our people. While BIA may not be as 
efficient or as accountable as it should be, that is no reason 
to reduce Federal funding in ways that will harm Indian people. 
The relatively small amount of Federal funds that actually 
reaches tribes to serves the needs of Indian people must be 
preserved.
    We have on-reservation needs. The loss of our wild rice 
lakes and wildlife habitat and the decline of our forests, and 
biodiversity, are a great concern to the Band, and we seek an 
additional $270,000 for natural resources and forestry programs 
to enable us to address these needs.
    Mr. Regula. We'll look at your needs. I'm curious, what is 
your economy? Where do most of the people work or how do they 
support themselves?
    Mr. Mantineau. The reservation currently employs about 
1,200 people, and there's--of course, we're located next to 
Duluth and to the city of Cloquet itself. There's a lot of 
factory, wood products factories that are in the area.
    Mr. Regula. So a lot of your people work off the 
reservation then?
    Mr. Mantineau. Yes, they work within the community, the 
greater community itself.
    Mr. Regula. What do you do for health facilities? Do you 
have your own?
    Mr. Mantineau. We have our own clinic, our own IHS clinic. 
The reservation built the initial clinic with some payback from 
IHS, and the second one was built, I believe, with tribal 
gaming funds.
    Mr. Regula. Do you have some gaming on your reservation?
    Mr. Mantineau. Yes, we do. Yes.
    Mr. Regula. And what do you do, draw on the city 
populations around?
    Mr. Mantineau. Well, there's probably about 500,000 people 
within a 25-mile----
    Mr. Regula. Do you do pretty well with it?
    Mr. Mantineau. Well, it does okay to meet some of the needs 
of the reservation.
    Mr. Regula. Do you have a contract with some group to 
operate it?
    Mr. Mantineau. No.
    Mr. Regula. You do it yourself?
    Mr. Mantineau. No, the tribe operates it itself, yes.
    Mr. Regula. And you plow back any profits you get into the 
tribal needs?
    Mr. Mantineau. About 60 percent of the profits are put back 
into the needs of the tribe itself. The tribe has scholarship 
funds that come from the Bureau and from other agencies, and 
then they put money into that program. They put money into the 
health programs, into the natural resource programs, and things 
like that. So, yes, a lot of money is put back into the----
    Mr. Regula. Okay, well, thank you for coming.
    Mr. Mantineau. Well, thank you.
    [The information follows:]

[Pages 58 - 60--The official Committee record contains additional material here.]


                                           Thursday, March 6, 1997.

                        BUREAU OF INDIAN AFFAIRS

                         INDIAN HEALTH SERVICE

                               WITNESSES

TOM MAULSON, LAC DU FLAMBEAU BAND OF LAKE SUPERIOR CHIPPEWA INDIANS
LARRY J. WAWRONOWICZ, LAC DU FLAMBEAU BAND OF LAKE SUPERIOR CHIPPEWA 
    INDIANS

    Mr. Regula. Lac du Flambeau Band of Chippewa.
    Mr. Maulson. You're getting good at that.
    Mr. Regula. Yes. [Laughter.]
    Mr. Maulson. Mr. Chairman, both these tribes have had some 
problems with near-by residents who are not particularly 
sympathetic to their fishing and all. I know you've encountered 
a fair amount of discrimination.
    Mr. Regula. They may want to speak to that. So you're 
wearing two hats today; is that it?
    Mr. Maulson. I'll do it once again; I've got a second shot 
at it. [Laughter.]
    Mr. Regula. Okay.
    Mr. Maulson. Good morning, Mr. Chairman, committee. Thank 
you for this opportunity.
    I want to introduce my supporter here of our natural 
resource department on our reservation.
    I'm not going to go through this. You all can read it, but 
we're only expanding on the basic needs, what the other nations 
are having out there about with Indian health and obligations 
to us as Native people. Like you say, discrimination against 
Indian people in reference to treaty rights is an essential 
part of our life. These are, once again, God-given things to us 
as Indian people. I want to thank you for that, though.
    And I'm going to turn this over to my natural resources 
person because he can identify some of the good things that 
we're doing for not only Indian people on my reservation, but 
for non-Indian people also that come to Wisconsin, and we're 
trying to be good neighbors.
    Mr. Regula. Do you have non-Indians that use your land for 
hunting, fishing, that type of thing?
    Mr. Maulson. Ninety-five percent.
    Mr. Regula. Do you charge them?
    Mr. Maulson. No, we don't, not at this time, but we plan to 
do it.
    Mr. Regula. Why don't you? Yes, I'm saying I think you 
should.
    Mr. Maulson. Well, we need your support.
    Mr. Regula. Well, do they have to get a license from the 
State?
    Mr. Wawronowicz. Yes. The way the system works now, sir, is 
that individuals utilizing the fisheries resource on our 
reservation would require a State license, and the revenues 
generated from those State licenses would go back to the State 
for fisheries management objectives.
    Mr. Regula. Do they help you with your management then, 
stocking, etc?
    Mr. Wawronowicz. No, not even that.
    Mr. Regula. But they collect the money?
    Mr. Wawronowicz. Correct. So, currently, what we're doing--
--
    Mr. Moran. That's the problem, Mr. Chairman, and I would 
hope we could maybe weigh-in on the side of right here.
    Mr. Regula. Yes, I'm trying to think how we could remedy 
that.
    Mr. Wawronowicz. Mr. Chairman, we have some additional 
information that supports a lot of our testimony.
    Mr. Regula. Do you have the same thing in hunting?
    Mr. Wawronowicz. Hunting is a little bit different because 
we are a checkerboard reservation, and non-Indians can utilize 
the hunting resources on their land, and they would require a 
State license, but a deer or bear doesn't know boundaries 
between----
    Mr. Regula. Yes, right. You have non-tribal lands that are 
mixed in with yours?
    Mr. Wawronowicz. Correct.
    Mr. Regula. So it is a little more difficult to control 
that in terms of hunting.
    Mr. Wawronowicz. Hunting--well, water resources; there's a 
lot of jurisdictional gray areas that we have some problems 
with.
    Mr. Regula. Are you involved in providing support services, 
for example, motels, restaurants, or anything like that, for 
the out-of-state or out-of-community hunters and fishermen?
    Mr. Wawronowicz. The tourism industry in Wisconsin, 
especially in Vilace County, the county that we live in, is a 
million dollar business--I mean millions of dollars.
    Mr. Maulson. A billion dollars.
    Mr. Wawronowicz. Yes.
    Mr. Regula. And you're not involved in it then?
    Mr. Wawronowicz. Not at this time, no.
    Mr. Regula. It's done by others.
    Mr. Wawronowicz. But we do, because we provide an excellent 
fishing experience--we have 158 lakes on our reservation, 
20,000 acres of water, 34 miles of creeks, rivers, and streams, 
and people from all over the country come to visit.
    Mr. Regula. But you can't receive revenue from that?
    Mr. Maulson. Mr. Chairman, this year we're hoping to work 
out an agreement with the State of Wisconsin in reference to 
allowing the sports anglers in the upper third of Wisconsin in 
treaty rights areas, where we hunt and fish, especially fish, 
to allow them a three-bag limit, where we're looking at getting 
a reciprocal agreement with a fishing license on our 
reservation for allowing that to happen. It's in its infant 
stage at this time.
    Mr. Regula. So you're negotiating with the State?
    Mr. Maulson. Yes, we are.
    Mr. Regula. But your own people do not have to get a 
license?
    Mr. Maulson. No, we don't.
    Mr. Regula. And you get nothing back out of the license 
fees?
    Mr. Maulson. We haven't received an iota, a dime, from the 
State of Wisconsin in years and years, and this is why we keep 
coming back to this committee right here.
    Mr. Regula. And they don't provide management services for 
you?
    Mr. Maulson. None whatsoever.
    Mr. Wawronowicz. All our management dollars, since we're a 
638 tribe and the tribe decided to manage it--we have a tribal 
fish hatchery that raises millions of fry fingerlings a year to 
stock the waters----
    Mr. Regula. Fingerlings that go into these lakes, which 
make them attractive, but you have no return revenue from that?
    Mr. Maulson. That's right. We even offered to stock off-
reservation lakes because of loss of power, if you want to call 
it, by the State of Wisconsin. They're reluctant to allow us to 
do that. Hopefully, we can make some agreements later.
    Mr. Regula. Does the Federal Fish and Wildlife Service help 
you in any way?
    Mr. Wawronowicz. We have some memorandums of understanding 
with the U.S. Fish and Wildlife Service, especially in the 
waterfowl enhancement areas, but in our program, we have the 
circle of flight program which we request dollars to--it's a 
wetland and waterfowl enhancement program that helps 32 tribes 
of the Great Lakes region.
    Mr. Regula. Are you in a flyway?
    Mr. Wawronowicz. The Mississippi flyway, we're in that 
flyway.
    Mr. Regula. So you get migratory birds dropping in?
    Mr. Wawronowicz. Right, and what we produce helps everybody 
up and down the flyway.
    Mr. Regula. Yes.
    Mr. Wawronowicz. And the other thing is, we're restoring 
wetlands and keeping our wetlands intact. The important thing 
here to remember is that wetlands stop water. So it reduces 
flooding. You have the emergency response of FEMA to flooding 
areas. We're trying to do everything we can to restore those 
wetlands and to protect the wetlands that we have.
    Mr. Regula. You've got about a minute. Mr. Moran.
    Mr. Moran. Do you think Governor Tausen would be responsive 
to the concept of reciprocity between the Federal and State 
governments, and I agree with the implication of the chairman 
that this seems to be inappropriate and unfair. It's a one-way 
street in terms of the State. But I would ask, why you can't 
develop more business, though, so that you can take advantage, 
in the same way that the people who are discriminating against 
you are taking advantage of the people coming to the area.
    Mr. Maulson. Well, I think, Mr. Moran, in reference to that 
question, I think you could understand where we, as Indians, 
were coming from. We weren't--way back then we were not 
afforded the opportunity to become entrepreneurials like the 
non-Indian people today. I think it's going to take us some 
time to be that, and I think a lot of Indian nations are 
struggling in that particular effort to do that. It's great, 
and I appreciate it, and I hear a lot of cry from Indian 
nations here, and those types of requests, and by authorizing 
those requests, I think we can eventually make that happen. You 
people can do that if you put the pen to the paper, and we 
appreciate that. Instead of always continuously coming here 
looking at decreases, that means now start to increase in those 
obligations to us as Indian people out there because we were on 
your side when you all came here first, you know. [Laughter.]
    Mr. Regula. Yes.
    Mr. Moran. We understand that.
    You've got some people going into business, though, through 
these----
    Mr. Maulson. Yes, and this is where the education comes in, 
you know, where our young people are starting to want to--I 
hate to say, ``want to be like white people,'' but they are 
starting to do that because they're starting to see where 
business is good. Instead of working from a tribal perspective 
or from government dollars, they're starting to feel good about 
making their own dollars out there. If we could make that 
happen here, and give them that push on our reservations, I 
think we could go a long ways.
    Mr. Moran. Well, getting your fair share is good, 
certainly.
    Mr. Maulson. Thank you.
    Mr. Moran. You don't have to emulate everything about white 
people, either. [Laughter.]
    Mr. Maulson. We know that, you know, you say that about 
Indians sometimes, and we've got to get back once in a while.
    Mr. Regula. The dollar bill's green. [Laughter.]
    Mr. Maulson. It has no color bearing.
    Mr. Regula. That's right; that's true.
    Mr. Wawronowicz. To capitalize on the tourism industry, the 
natural resource department runs a 72-pad campground which is 
on one of the premiere lakes.
    Mr. Regula. Okay, so you are--okay.
    Mr. Maulson. We'll work in that direction with you. Thank 
you, Mr. Chairman.
    Mr. Regula. You're running out of time.
    Mr. Maulson. All right, thanks.
    [The information follows:]

[Pages 65 - 68--The official Committee record contains additional material here.]


                                           Thursday, March 6, 1997.

                         INDIAN HEALTH SERVICE

                                WITNESS

DAVID WHISTON, AMERICAN DENTAL ASSOCIATION

    Mr. Regula. American Dental Association, Dr. Whiston. 
Doctor, thanks for coming.
    Dr. Whiston. Thank you, Mr. Chairman. Regards from Don 
Dempke.
    Mr. Regula. Oh, yes, okay.
    Dr. Whiston. It's a pleasure for the American Dental 
Association to appear before your committee again. My name's 
Dave Whiston. I'm from Arlington, Virginia, and I represent the 
association as president-elect. The association certainly is 
here to support initiatives designed to enhance the oral health 
status of a truly vulnerable Native American population.
    Our awareness of the magnitude of the problem was certainly 
heightened in 1994. We went to South Dakota and did some site 
visits on reservations there, and two glaring things struck us 
at that time. No. 1, the enormous gap between the oral health 
status of Native Americans and the health status of the general 
population; then, second, the real inability of the IHS, due to 
funding problems, to meaningfully address that gap.
    Since 1994, unfortunately, the problem has worsened. The 
patient visits, the patient service, since that time has 
decreased 18 percent. So now the annual utilization for dental 
services of the Native American population is less than 25 
percent a year. It's a significant drop, significant problems.
    Mr. Regula. We have been adding funds the last two years 
for the programs.
    Dr. Whiston. Right, and, again, the IHS has made 
considerable improvement, but still the gap is significant, and 
primarily a complex problem, obviously; potential solutions 
mainly based on funding issues. Briefly, I'll highlight four of 
those.
    In the past four years, we've seen a 60 percent reduction 
in area and staff headquarters dental personnel. It starts with 
dentists recruit and retention. We're unable to recruit and 
retain dentists because of salary structure. A graduating 
dentist in the private sector or other public sectors can make 
approximately twice what the IHS entry-level dentist can. The 
pay parity package, as you know, passed the Congress last year. 
Unfortunately, the funding is in question, and $5 million will 
be necessary to fund the uniformed services parts of the IHS to 
take advantage of the pay parity measure to recruit and retain 
dentists, and really to enhance the access via that measure.
    The other reason: a loan repayment program, there are only 
18 dentists now in the IHS loan repayment program, over 50 on 
the waiting list, and we would respectfully request a $1 
million supplement, so the IHS could hire an additional 12 to 
14 dentists. That would increase access tremendously, if they 
could do that.
    On the private side, the contract health care system--and I 
think here we can talk about what's happened with the 
financing--but it's evolved into a $375 million program, but in 
the past decade, from 1987 to 1997, the dental segment has only 
stayed at $10 and $12 million. So we'd like to see targeted 
there at least $20 million out of that global $375 million.
    Mr. Regula. Question: do you get any Indians--out of the 
tribes who go and become dentists and come back to the 
reservation?
    Dr. Whiston. The Native American applicant pool is 
extremely small. The leader of the Public Health Service for 
years was Dr. George Glispers, and certainly he was a role 
model for that group, but the applicant pool is small. We're 
actively trying to recruit Native Americans to dental students, 
though.
    Mr. Regula. Mr. Moran.
    Mr. Moran. I'm going to support this, Mr. Chairman, for 
that. We're losing an opportunity when we've got this backlog 
of people that are very much needed. So that million bucks I 
would hope we can find room for.
    Dr. Whiston. Thank you.
    Mr. Regula. Thank you.
    Dr. Whiston. May I make one final point?
    Mr. Regula. Yes, sure.
    Dr. Whiston. You've supported us terrifically in the past 
year about mobile dental health units. Unfortunately, it's not 
been funded, the $1 million that you carved out last year, Mr. 
Chairman, and we appreciated that very much. Mobile units that 
could go from reservation to reservation would greatly enhance 
access. And so we, again, appreciate your support on that and 
appreciate this opportunity.
    Mr. Regula. Okay, thank you.
    Dr. Whiston. Thank you very much.
    [The information follows:]

[Pages 71 - 78--The official Committee record contains additional material here.]


                                           Thursday, March 6, 1997.

                        BUREAU OF INDIAN AFFAIRS

                               WITNESSES

OLIVER WARD, MAKAH TRIBE
HUBERT MARKISHTUM, MAKAH TRIBE
JULIE JOHNSON, MAKAH TRIBE

    Mr. Regula. The Makah Tribe.
    Mr. Wamp [presiding]. Thank you. Proceed.
    Mr. Markishtum. Good morning, members of the committee. I 
want to thank you for the opportunity to testify on this very 
important matter. My name is Hubert Markishtum. I'm chairman of 
the Makah Tribe located in Neah Bay, Washington.
    As Congress has made a renewed effort to balance the budget 
over the past few years, everyone has had to face cuts in 
general funding. However, Indians have had to suffer a 
disproportionate share of the cuts. Fiscal Year 1996 was 
extremely severe. While increases have occurred, they have not 
balanced out the cuts of the past.
    For example, Tribal Priority Allocation has decreased by 
nearly $100 million in 1996. Not only has this cut not been 
made up, but the inflation of service at the local level has 
made it even more difficult to provide services with these 
Federal cutbacks.
    Our tribe alone has suffered a $2 million decrease over the 
last few years, which has forced the tribal council to make 
major cuts in services and personnel vital to the running of 
our tribe. We ask the committee to support the President's 
request of $1.7 million for the BIA for Fiscal Year 1998. It is 
an increase over Fiscal Year 1997 that may seem generous, but 
in light of the cuts in Fiscal Year 1996, it is only minimally 
sufficient.
    We request that the committee increase funding for tribal 
courts and law enforcement services within the Tribal Priority 
Allocation. The Makah caseload continues to increase in civil, 
criminal, and juvenile cases. Four hundred and thirty-nine 
cases were adjudicated in 1996. We ask for a special earmark of 
$500,000 for the construction of a desperately-needed juvenile 
and adult correction facility and that $150,000 be added to our 
base funding in TPA. This facility would not pass non-tribal 
facilities regulations, let alone our own.
    Our tribe opposes a transfer of tribal natural resources 
trust management of the Interior Department to the Special 
Trustee's proposed American Indian Trust and Development 
Administration. Tribes have not been given enough time to 
review a plan that proposes so many sweeping changes.
    Indian Health Service is another area that has suffered 
disproportionate cuts in the budget over the past few years. In 
1996, IHS absorbed $70 million in mandatory cost, inflationary 
and population growth costs, and in 1997, absorbed $50 million 
more in the same area. It is critical that mandatory costs 
increase and the IHS be fully funded. We ask the committee to 
support the President's request of $2.1 billion for Indian 
Health Services. This funding is vital to provide services to a 
people who suffered the highest levels of chronic diseases, 
infant mortality, suicide, and substance abuse, and the lowest 
life expectancy in the United States.
    We also support the Lummi self-government education 
program. This program provides technical assistance not only to 
the Lummis, but over 200 tribal and Indian organizations.
    Thank you for consideration of these matters. It is an 
honor to present this to you.
    Mr. Wamp. Thank you to the Makah, and as I understand it, 
we have provided increases here in the Indian Health Services 
for each of the last two Fiscal Years. Of course, this request 
would be a further increase; correct?
    Mr. Markishtum. Right, yes.
    Ms. Julie Johnson. On behalf of the Northwest Portland 
Health Board, we have a budget analysis of the 1998 budget we'd 
like to provide to you.
    Mr. Wamp. We'll submit it for the record, Ma'am.
    Ms. Julie Johnson. And the gentleman on the end has a copy.
    Mr. Wamp. Thank you for appearing today.
    Mr. Markishtum. Thank you.
    [The information follows:]

[Pages 81 - 84--The official Committee record contains additional material here.]


                                           Thursday, March 6, 1997.

                         INDIAN HEALTH SERVICE

                                WITNESS

JEFFREY AKAKA, M.D., AMERICAN PSYCHIATRIC ASSOCIATION

    Mr. Wamp. The American Psychiatric Association, Dr. Jeffrey 
Akaka. Dr. Akaka, have a seat and proceed, sir.
    Mr. Akaka. Good morning, Mr. Chairman and Mr. Moran. I am 
here on behalf of the American Psychiatric Association, a 
medical specialist society representing more than 40,000 
psychiatrists nationwide.
    At the outset, I'd like to thank you and Mr. Moran for your 
past support in the nondiscriminatory coverage efforts that 
have been brought before Congress.
    I'm the chair of the American Psychiatric Association's 
Committee on American Indian, Alaska Native and Native Hawaiian 
Psychiatrists. I am a Native Hawaiian. As such, I am a 
descendent of aboriginal people who occupied and exercised 
sovereignty of islands that now constitute part of the United 
States.
    Twenty years ago, a friend of mine, a fellow Native 
American, was killed by suicide. She did not commit suicide as 
if she were a villain committing her own body's murder, but 
rather it was the depression that killed her. It's seduced her 
to an overwhelming, irresistible offer of hope for peace, the 
end of pain, the absence of suffering, but my friend didn't die 
that way. For days she lingered in excruciating pain as the 
poison she took feasted on her flesh.
    The loss of my friend did not have to happen. Overwhelming 
depression can be relieved. Depression is a beast which can be 
tamed, put to rest, its victims healed and rejuvenated. Severe 
depression, like schizophrenia and maniac depression, are real 
medical menaces. When reliably diagnosed, treatment works and 
the treatment is cost-effective. The brain, the physical home 
of the mind, is the most important organ, the most important 
asset of the human body and of the entire human race. When it 
contains the right mix of chemical messages, molecules with 
names like adrenalin, serotonin, dopamine, it allows us to do 
the work we do--to form partnerships and guide the next 
generation.
    Without the right mix, problems develop--hearing voices 
that others don't hear, as in schizophrenia or substance abuse; 
seeing things that others don't see, as in severe post-
traumatic stress disorder, the tragic aftermath not only of 
combat veterans, but of women and children who are the victims 
of physical and sexual abuse; problems like trouble breathing 
and a pounding heart, as in panic disorder, which can look like 
heart disease, but just like real heart attacks, severe mental 
illnesses, substance abuse, and domestic violence kill.
    Nationally, 1 out of every 100 people die of suicide due to 
one of the above causes. Among American Indians and Alaskan 
Natives, these trends are even more acute. The suicide rate's 
twice the national average. Several years ago in Jicarilla, an 
Apache tribe in New Mexico, suicide and suicide attempts within 
the tribe had reached over 22 times the national average.
    The alcoholism mortality rate is six times the national 
average, and women who drink while pregnant can dramatically 
increase the risk of birth defects due to fetal alcohol 
syndrome.
    Nationally, 1 out of 200 substantiated cases of child abuse 
and neglect occur, but in IHS residential treatment centers 
child sexual abuse for females range up to 90 percent. A recent 
study showed that the death rates of Indian women in New Mexico 
from domestic violence was two-and-a-half times higher than in 
the New Mexico general population. Mr. Chairman, this must 
stop.
    The IHS has initiated a multitude of programs in research, 
as well as in direct services, to more effectively heal those 
suffering from substance abuse and its aftermath. The Model 
Suicide Prevention Program now in place at the Jicarilla Apache 
tribe has reduced its formerly extremely high suicide rate down 
to nearly zero. We can do this. We've got treatment that works, 
but funding for the diagnosis and cost-effective treatment for 
mental illness and social services are grossly inadequate.
    Mr. Chairman, the American Indian and Alaskan Native people 
need your leadership to appropriate the necessary funds to take 
other appropriate actions to ensure adequate delivery of health 
care, particularly for those who suffer from mental illness and 
substance abuse, so that the tragedies of abuse and fetal 
alcohol syndrome children and tragedies of suicide like that of 
my friend can be prevented.
    Thank you, Mr. Chairman.
    Mr. Wamp. Thank you, Dr. Akaka, for your testimony today. 
You've made it very simple and plain, easy for us to 
understand.
    I want to recognize the presence of Mr. Moran of Virginia. 
Would you have anything to add at this point, Mr. Moran?
    Mr. Moran. I don't, Zack, but I think we know ultimately 
why the Native American population suffers from such 
psychiatric problems, and we have only to look at the people we 
see in the mirror every day to understand what gave rise to it. 
So I think we have some responsibility to address it, and I 
hope this committee will.
    Thank you for your testimony.
    Mr. Wamp. Thank you, Mr. Akaka.
    Mr. Akaka. Thank you.
    [The information follows:]

[Pages 87 - 93--The official Committee record contains additional material here.]


                                           Thursday, March 6, 1997.

                        BUREAU OF INDIAN AFFAIRS

                         INDIAN HEALTH SERVICE

                            INDIAN EDUCATION

                               WITNESSES

LORENE WILLIS, NATIONAL INDIAN EDUCATION ASSOCIATION
LORRAINE EDMO, NATIONAL INDIAN EDUCATION ASSOCIATION

    Mr. Wamp. The next witness is the National Indian Education 
Association, Lorene Willis, with the Jicarilla Apache Tribe. I 
think I said that right.
    Ms. Willis. Mr. Chairman, no, it's Jicarilla.
    Mr. Wamp. Jicarilla.
    Ms. Willis. That 22 percent you just heard was from my 
tribe, Jicarilla.
    Mr. Wamp. Yes, I'm new; you can tell.
    Proceed, please.
    Ms. Willis. My name is Lorene Willis, and I'm a member of 
the Apache Tribe. I'm the president of the National Indian 
Education Association. With me is Lorraine Edmo. She's the 
executive director of our organization.
    I'd like to talk a little bit about NIEA. It as the oldest 
and largest Indian education organization in the Nation and 
represents over 3,000 members. We deal with issues that relate 
to Indian education across the Nation.
    The testimony that you have before you will deal with all 
the increases and all the support that we would like for Indian 
education, a proclamation for all the appropriations to the 
Department of the Indian. One is the Tribal Priority 
Allocation, the higher education scholarship Johnson-O'Malley 
programs that are under the Interior; the ISEP formula, which 
is below average as far as weighted student unit compared to 
the average; the family and child education, student 
transportation. In my testimony you'll have all this list of 
increases that we are requesting, but I'd like to go through 
some of the facts about Indian education to give you 
justification for why we think we need these increases.
    The 1990 Census showed that the poverty rate for the 
American Indian and Alaskan Native is nearly twice the national 
average; 31 percent of Indians live below the poverty level 
compared to 13 percent of the total population. Nearly 38 
percent of Indian children above five were living below the 
poverty level in 1990 compared with 11 percent of the non-
minority children. The National Assessment of Education Program 
in 1994 showed that over 50 percent of American Indian fourth 
graders scored below the basic level in reading proficiency 
compared to 42 percent of all students. The American Indian 
students have the highest dropout rate of any racial or ethnic 
group with lowest high school completion and college attendance 
rates of any minority group. As of 1990, only 66 percent 
American Indians aged 25 years or older were high school 
graduates compared to 78 percent of the general population.
    Some of the other initiatives that we'd like to support is 
President Clinton, who's proposed school construction of over 
$5 billion to provide school construction and renovation for 
the schools across the Nation. We're also supporting the 
Interior Secretary, Bruce Babbitt, who has asked for 10 percent 
setaside for the BIA-funded schools rather than 1 percent, 
which is being considered by the legislative sponsors.
    Some of the things that I'd like to talk about, too, are 
some of the successes that we've had, because we believe that 
education is the means for bringing a lot of the Native 
Americans into the mainstream. The tribally-controlled colleges 
are ones who have utilized education as far as educating our 
children. I'm also the chairman of the Southwestern Indian 
Polytechnic Institute, SIPI, in Albuquerque, New Mexico, and 
we've been real successful with developing these agreements 
with the community there in Albuquerque. So we feel that 
education is the means for providing a means or a tool for our 
tribal people to become better successful in dealing with a lot 
of issues.
    Another thing that I want to mention with the suicide rate 
looking to the Apache, we had a suicide two months ago, a young 
boy who was about 19 years of age. So we still have that 
problem in reality.
    Do you want to say something?
    Ms. Edmo. Well, I just wanted to also ask for support for 
the graduate scholarship area. In the last couple of years, the 
funding for Indian graduate education has dropped by almost $10 
million, and I think this is unconscionable because we have an 
unmet need at the graduate center of at least $10 million that 
was recorded this year for Indian graduate student aid, as well 
as $2 million that was cut from the Indian Health Service 
scholarship funding last year and another $3 million from the 
Office of Indian Ed. Fellowship Program. So I just wanted to 
put in a word for the need for graduate education for American 
Indian and Alaskan Native people.
    Mr. Wamp. Thank you.
    The chairman has left me hanging, and I've got about two 
minutes left in this vote. So I'm going to recess for just five 
minutes, and the chairman will be right back. Please hang with 
us.
    Ms. Willis. Thank you.
    [Recess.]
    [The information follows:]

[Pages 96 - 101--The official Committee record contains additional material here.]


                                           Thursday, March 6, 1997.

                        BUREAU OF INDIAN AFFAIRS

                         INDIAN HEALTH SERVICE

                               WITNESSES

PRESTON McCABE, PINON COMMUNITY SCHOOL BOARD
RENITA NEZ, PINON COMMUNITY SCHOOL
ROBERT BEN, PINON COMMUNITY SCHOOL BOARD

    Mr. Wamp. Okay, we're reconvened with Pinon Community 
School Board, Preston McCabe.
    And thank you for your tolerance. We had three votes, not 
one, but we should be through for a while. So we can make quite 
a bit of progress here.
    Welcome. Thank you. Proceed.
    Mr. McCabe. Good morning, Mr. Chairman. My name is Preston 
McCabe, and I'm the chapter president of Pinon. I'm also on the 
Pinon Community School Board, who presents this statement to 
you this morning.
    In my statement I have the clinic for Pinon Community. 
Well, our community, Pinon and seven other chapters within the 
Navajo Nation, has not had a facility that is capable of 
meeting the needs of the people there in the community, as well 
as surrounding communities also. Infrastructure developments in 
our areas have been halted due to the land dispute between the 
Hopi Nation and the Navajo Nation. You know, the boundaries 
were drawn and everything. Another problem we've run into is 
lack of funding in the area of infrastructure development. So 
you wonder how much longer are we going to wait again.
    So the clinic that we have planned in the community is not 
a luxurious one. It would only provide full-time basic and 
medical emergency services, but what we have now is called a 
health station. It's operated three days out of a week and it 
only provides minimal nursing support, a pharmacy, some lab 
work, and dental services. The nearest location with a doctor 
is 50 miles away in Chinle. For the other chapters that are 
west of us, it's even further away from them.
    The first formal approval of the Pinon health clinic came 
in 1992 when the IHS approved the justification document, and, 
you know, most of the plans have been done. The site selection 
and everything has been done, but the money will be exhausted 
this summer. Unless Congress provides funding to at least 
complete the design stage--the IHS tells us that we need $31.7 
million to finish the design as well as the construction 
phase--this will increase every year, especially when we have 
to halt the design stage again this summer if we run out of 
money.
    We request that Congress commit to fund this this year--
this is a much-needed clinic--or at least provide us with the 
$873,000 to complete the design stage, so that we can put the 
project online for funding, to receive funding.
    We also have other concerns also, like in the ISEP formula. 
You know, the ever-increasing cost of increase is one of the 
problems that we experience out on the reservation. The budget 
that was proposed by the President and BIA, we hope that this 
committee would not be satisfied with it because it's not 
enough money to keep up with enrollment, as well as the need of 
the school there.
    And the Pinon Community School further suggests this 
committee re-examine the ISEP formula, which was set up by 
Congress where it could be visited periodically, and that has 
not been done yet. So we need to kind of bring that to the 
attention of this committee, so that they could kind of give 
directions to the Bureau to re-examine that ISEP formula.
    And, also, we also ask--in our transportation department, 
we also for many years had this program which was always 
underfunded. In comparing this, what we get, and also with what 
the public school gives out for their buses, the public 
schools' bus, what they put out is $2.95 and what we get is 
$1.65--or $1.35 is what we get for ours, $1.60 actually.
    You know, this is some of the things that will be occurring 
again this year. The moratorium on GSA on bus rentals, that 
also will be relieved this year. Also, the other thing that's 
in there is that the roads out on the reservation, the 
maintenance part is not there. Then there is a lot of wear and 
tear on our vehicles. We need to bring some common sense in 
comparing the public school rate as well as to the BIA rates 
for transportation costs. I think that needs to be compared and 
bring some sensibility into it.
    We also have a concern as far as the administration costs. 
The biggest concern we have is the fund that was there is 
insufficient to accommodate the things that will be going on 
this year within the Bureau, like schools' scoring grant and 
contract, and a lot of it impacts us when we're already on the 
program. We have to kind of bring that also to the attention 
and have you ask the BIA to give you full details and 
information on each school that will be impacting us that are 
already on the program. This is what we'd like to make a 
request of this committee to have the Bureau provide that.
    We also have another concern on the facility operation and 
maintenance. With the new schools and all that that are coming 
into play now, there will be new square footage added, and 
that's going to require some more money to maintain these 
facilities. Three point one is what it's going to need to 
address this, and so far it's underfunded again. The funds that 
we get is forever getting lower and lower in these areas also, 
and we have a concern for it because we have a new facility.
    Also, what's the use of building a new facility and you're 
not even providing enough funds to maintain these facilities? 
That's our concern because we do have that our warranty runs 
out next year, one-year warranty. So that's really why we have 
that concern also.
    We also would like to say that we appreciate the time for 
you letting us--and appreciate what you have done, the 
committee's support, and we hope that you continue to support 
us again.
    With me I have Mr. Robert Ben, who's a member of the school 
board, and I have our student body president here, who would 
like to be given a few seconds to say a few words.
    Mr. Wamp. Okay, briefly, very briefly.
    Ms. Nez. I just want to say thank you for supporting us and 
building our new school and dormitory, and we hope that you 
continue supporting us in the future.
    Mr. Wamp. Well, we thank you for your request and your 
presence here today, all three of you. Obviously, it's a great 
challenge that we face. Both the administration and the 
Congress have a real uphill battle to fund these requests. So 
we thank you for your presence here today and wish you the very 
best, and we'll do all that we can. But, again, it's a great 
challenge for us, so thank you for your presentation.
    Mr. McCabe. Thank you.
    [The information follows:]

[Pages 105 - 108--The official Committee record contains additional material here.]


                                           Thursday, March 6, 1997.

                         INDIAN HEALTH SERVICE

                                WITNESS

VIRGIL MURPHY, STOCKBRIDGE-MUNSEE COMMUNITY BAND OF MOHICAN INDIANS

    Mr. Wamp. The next witness will be Stockbridge-Munsee 
Community Band of Mohican Indians, Virgil Murphy, chairman.
    Mr. Murphy. Good morning, Mr. Chairman and members of the 
subcommittee.
    Mr. Wamp. Good morning.
    Mr. Murphy. I am Virgil Murphy, chairman of the 
Stockbridge-Munsee Band of Mohicans, and the Stockbridge-Munsee 
Tribe appreciates this opportunity to present our request for 
funding in the Fiscal Year of 1998 for the Indian Health 
Service.
    We have two requests. We request that this subcommittee 
provide Fiscal Year 1998 funding for two priority projects. The 
first one is for $3.6 million for a new waste water treatment 
facility in the Stockbridge-Munsee community, and $2.8 million 
for a new health facility. These two funding requests have been 
determined by the Stockbridge council to be of highest 
importance, and we respectfully request this subcommittee's 
consideration of it.
    So let me give you a brief word on the background on the 
Stockbridge-Munsee Tribe. We were once located in the 
northeastern part of the States. We were located in 
Stockbridge, Massachusetts, from thence we get our name, but we 
are originally Mohican. We were moved out of Stockbridge, 
Massachusetts into New York, where we had our reservation. We 
were moved out of New York into Indiana. Then we were moved 
from Indiana into Wisconsin, and now we are on our second 
reservation in the State of Wisconsin.
    We have approximately 46,000 acres of land, and our 
membership is 1,600. Approximately 800 live up on the 
reservation. We have a small successful casino and bingo 
operation which employ about 550 people, and the gaming 
proceeds that we have there are used to supplement funding for 
a number of tribal governmental programs.
    We know that the funding that the President has put in for 
this Fiscal Year is $2.2 million for the Indian Health Service 
sanitation facilities, but at the same time when we look at it, 
the total level of need in the Indian Health Service area, 
which includes Wisconsin, Michigan, Minnesota, and Indiana, was 
more than $27 million last year. The amount provided by 
allocation to the Bemidji area was only slightly more than $1 
million.
    So one of the reasons why I'm asking for this, on the last 
reservation, land that we were allocated was a barren chunk of 
land which was all cut-over, and there is no land that's any 
good for anything. It's not any good for farming. It's rocks; 
90 percent of it is not perkable, and so we are there and most 
of our homes all have private sanitary facilities and some of 
them have this mound system, which is very, very expensive. In 
the very near future, some of them are going to be of no use 
whatsoever because of the land not being perkable.
    We would like to get a new sanitary facility in there, if 
it's at all possible, because we're looking ahead to someday 
putting in a--save a part of our land where we can get some 
businesses coming in, but you can't get businesses if you don't 
have sanitation or a sewage department.
    So we ask that Congress, on top of the $2.2 million, 
provide $3.6 million to the Indian Health Service to fund a 
waste water treatment facility and sewage collection for 
Stockbridge. The tribe currently has a three-cell lagoon 
system, community water and waste water system, which was built 
in 1973, and it's beginning to show some wear. Last year, in 
1996, they gave us some money to repair it, but it's not 
feasible for us to use it. In fact, it's only used for about 30 
of our homes, and now we feel within the next few years we're 
going to have to build at least 50 or 60 new homes.
    Therefore, the tribe requests $3.6 million in the Fiscal 
Year 1998 funding to construct a master waste water treatment 
facility which will service an existing 80 residential 
dwellings with a regional area, service area, tribal offices, 
our health clinic and casino. In addition, the new facility 
would service the contemplated new housing development and 
other commercial developments, including a planned hotel.
    Our second request is for $2.8 million in Fiscal Year 1998 
funding for a new health clinic and wellness center. We have 
one now, but it's small and very inadequate. It was small to 
begin with. We put two additions on there. Now the roof is 
beginning to leak and it's getting in sad shape.
    I would just like to add this; it isn't in here, but I'd 
just like to add this here: we were one of the first people or 
the first tribes in the State of Wisconsin to have a clinic, 
which was operated out of a small building, and we had 
contacted some doctors in Milwaukee and Chicago, and they used 
to fly in and land in a little airplane at an airbase--or not 
an airbase, just a farmer's field. They would come there and 
they would work on the tribe for nothing. So we originally 
started and then we got this small clinic. Now it's not 
economically-efficient anymore. So we would like to have that. 
So we are asking the Congress to provide funding in Fiscal Year 
1998, so that we may begin construction of this new facility.
    Thank you very much for the opportunity of presenting this 
Fiscal Year 1998 funding request of the Stockbridge-Munsee Band 
of Indians.
    Mr. Wamp. Thank you, Mr. Murphy. Your testimony seems to be 
straightforward and we understand it. We appreciate your 
attendance here today. Also, though, it obviously is a great 
challenge that's going to be very difficult for us to 
accommodate, but we appreciate your persistence and your 
presentation before us today. Thank you for being here.
    [The information follows:]

[Pages 111 - 114--The official Committee record contains additional material here.]


                                           Thursday, March 6, 1997.

                        BUREAU OF INDIAN AFFAIRS

                         INDIAN HEALTH SERVICE

                                WITNESS

BRUCE WYNNE, SPOKANE TRIBE OF INDIANS

    Mr. Wamp. The next witness will be the Spokane Tribe of 
Indians, Bruce Wynne, chairman. Mr. Wynne.
    Mr. Wynne. Well, thank you, Mr. Chairman.
    Mr. Regula [presiding]. Thank you for coming.
    Mr. Wynne. My name is Bruce Wynne. I'm the chairman of the 
Spokane Tribe. We're a tribe of approximately 2,150 Indians in 
northeastern Washington. We have a reservation, approximately 
156,000 acres. We do appreciate the opportunity to come before 
the committee to testify this morning. We thank you for your 
concerns.
    We have three primary areas of concern. First is the Bureau 
of Indian Affairs, and that's primarily Tribal Priority 
Allocations, the Indian Health Service, and certain policy 
issues that we do want to discuss this morning. They're not 
necessarily appropriations issues, but they are going to come 
before the Appropriations Committee in the future. We are very 
concerned about them.
    In the Bureau of Indian Affairs, we are just asking for 
some increases in scholarships and fire protection and tribal 
courts. It's $40,000 for scholarships, $40,000 for fire 
protection, and $115,900 for an increase in tribal courts. Part 
of the problem with tribal courts, the authorization for the 
increase in tribal courts, is because there has never been an 
allocation for the upgrading of the tribal court system, and 
that is really the basis for our building a new structure, 
since all we're doing is sovereignty issues. So we really do 
need to increase the allocation for tribal courts.
    I should state that we do understand that there is a budget 
problem and you do have to meet with the requirements. So we 
appreciate that and we offer our assistance anywhere we can in 
trying to assist you with that.
    Mr. Regula. We'll do the best we can.
    Mr. Wynne. Okay, thank you. We appreciate that.
    In the Indian Health Service, the tribe is asking for about 
approximately $550,000 for a modular unit to assist us with our 
clinic because our clinic is dilapidated and old, and it's been 
primarily built with trailers, and they're not even modular 
units. They're primarily trailers that we've added onto the 
existing building that was way too small.
    We've had an increased patient load last year of 3,000 
people from 14,000 to 17,000 visitations in a year. We have 
spoken with Mr. Nethercutt on this issue, and Mr. Nethercutt is 
going to offer us some assistance and to try to get a modular 
unit. It's the most economic way to go in trying to increase 
your abilities within the clinic. So we're asking for that.
    We're also supporting entirely the Northwest Portland 
Indian Health Board testimony that they will be submitting. 
Unfortunately, they did not get on the speaker list, but they 
are going to submit testimony. So we are supporting that 
entirely.
    I think probably the most important issues I'll be talking 
about today are the policy issues. Policy issues are primarily 
in the trust fund management reform. There is a process that's 
going forward with the trust fund management reform and be 
moving from the Bureau of Indian Affairs, the IAM account and 
the management of dollars. The problem that we really do have 
with that is they are extending that to further remove from the 
Bureau of Indian Affairs the resource management areas, and we 
have a very large concern with that because the Bureau of 
Indian Affairs has proved in the past that they cannot manage 
money, but they have proved in the past that they can manage 
resources. The primary reason for that is because the tribes 
have taken the initiative to structure so that resource 
management occurs. Our experience in the past has been if the 
tribes step forward and start developing how these things are 
supposed to be managed, then it comes out right, and those are 
very good right now. We still do not think they should be 
messed with right now. So on April 15 I think Mr. Homer is 
going to come to give a proposal, and we appreciate the efforts 
and terms of management money, but we do not appreciate the 
efforts and terms of resource management.
    The Northwest Pacific Energy System, of course, is being--
--
    Mr. Regula. You have about one minute left.
    Mr. Wynne. The Pacific Northwest Energy System, which is 
primarily Bonneville Power Administration, of course, is under 
the deregulation process. We're supposed to be part of the 
governance of the river, and we have been excluded from that, 
on the State's process for the steering committee and the 
steering committee report, and we feel like the tribes do have 
to have a part in the governance of their river.
    Mr. Regula. Are you in Mr. Nethercutt's district?
    Mr. Wynne. Yes.
    Mr. Regula. So you'll be in touch with him?
    Mr. Wynne. Yes.
    Mr. Regula. And he's a member of the subcommittee.
    Mr. Wynne. Yes.
    Mr. Regula. Okay.
    Mr. Wynne. I do appreciate the chance to come in here and 
testify today. Thank you very much.
    Mr. Regula. Thank you very much.
    [The information follows:]

[Pages 117 - 120--The official Committee record contains additional material here.]


                                           Thursday, March 6, 1997.

                        BUREAU OF INDIAN AFFAIRS

                         INDIAN HEALTH SERVICE

                                WITNESS

MERVIN WRIGHT, JR., PYRAMID LAKE PAIUTE TRIBE

    Mr. Regula. The Pyramid Lake Paiute Tribe, Mr. Wright.
    Mr. Wright. Good morning, Mr. Chairman.
    Mr. Regula. Good morning.
    Mr. Wright. Members of the committee, my name is Marvin 
Wright, Jr. I'm the tribal chairman for the Pyramid Lake Paiute 
Tribe of Nevada.
    I would like you guys to take a look at the written 
testimony that's been submitted, and I'd like to just summarize 
some of those points here this morning.
    Mr. Regula. Yes, we will.
    Mr. Wright. I think, first of all, with respect to the TPA 
funding that the administration has submitted in their budget, 
we definitely support the amount that's being proposed and also 
would encourage and request that not only the House, but the 
Senate, take into account the increase that's being requested 
by a number of tribes that are before these subcommittees.
    First off, we have areas of priorities of our high school 
construction, education, water rights settlement, resource 
management, Indian Health Service, environmental cleanup, law 
enforcement, and cultural preservation. With respect to the 
high school construction, we would request that Congress 
unfreeze the construction list that has been in effect now. 
This would go in conjunction with the President's request for 
the $5 billion for school construction. We also agree with the 
Secretary of the Interior's request that 10 percent of that be 
set aside for tribal schools. Definitely it would add to the 
benefit of unfreezing the construction list, as well as 
providing the schools that are needed on Indian reservations.
    We do have a request for $6 million that we would require 
for an agreement that was reached in northern Nevada with 
respect to water quality. Six million would be used to purchase 
water rights from willing sellers of a nearby irrigation 
district, which happens to be the first constructed reclamation 
project in the United States, the Newlands Reclamation Project. 
The project itself has caused serious environmental damage to 
Pyramid Lake. It has caused two fish species in Pyramid Lake to 
be listed as endangered and threatened. We are looking at ways 
to recover the habitats, but this is one way that we would like 
to add flows in the river, as well as additional amounts of 
water, water supplies reaching Pyramid Lake.
    The water resources management contract, we're asking for 
$500,000 to help in the administration and management of these 
resources. Definitely we have the capability to utilize the 638 
contract to administer the functions of the technical 
requirements to meet the needs of the reservation, as well as 
the in-stream flows and habitat requirements.
    We do have a request for $300,000 for cultural 
preservation. We are currently involved with a serious issue in 
Nevada with respect to the 9,415-year-old set of remains that 
were found back that were dug up in 1940. They sat in a museum 
for 50 years. The BLM is responsible for the contract for that 
State museum, whereby the museum is now claiming that this 
individual is Caucasoid. They're making reference that he 
possibly could be Japanese. Obviously, from the tribal 
standpoint, you know, we absolutely disagree with that 
position. There's another issue up in the Columbia River Basin 
that's very similar to this situation, and we need this type of 
assistance to help us organize and deal with these issues.
    Just in closing--I guess I'm getting close to my time 
limit--I would like a couple of policy issues to be taken into 
consideration; that is, BIA reorganization and a serious look 
at IHS and the inequities in IHS.
    Mr. Regula. We're planning to do that, although the 
authorizing committee needs to address these problems more than 
we do.
    Mr. Wright. Just in the effect of IHS, I just want to share 
a comparison of what we deal with on our reservation. We serve 
about 1,300 patients with the contract health service. Well, 
these individuals that are in the area, director positions, as 
well as the commissioned officers here in Rockville, Maryland, 
they receive about $30,000 less than what we get to serve those 
1,300 patients. So that tells you and it shows you the inequity 
of the IHS.
    Mr. Regula. Yes.
    Mr. Wright. So, with that, again, I would just, in closing, 
just want you to recognize our support for the National Indian 
Education testimony in the areas of the scholarships that 
they're requesting from the committee.
    Mr. Regula. Thank you very much.
    Mr. Wright. Yes.
    Mr. Regula. We'll take your statement and concerns.
    [The information follows:]

[Pages 123 - 126--The official Committee record contains additional material here.]


                                           Thursday, March 6, 1997.

                        BUREAU OF INDIAN AFFAIRS

                         INDIAN HEALTH SERVICE

                                WITNESS

SAMUEL N. PENNEY, NEZ PERCE TRIBAL EXECUTIVE COMMITTEE

    Mr. Regula. Nez Perce Tribal Executive Committee, Mr. 
Penney, the chairman. Welcome.
    Mr. Penney. Thank you. Good afternoon, Mr. Chairman. My 
name is Sam Penney. I'm chairman of the Nez Perce Tribe 
Executive Committee. We have five areas that I'll go over very 
quickly.
    First is regarding a cadastral survey station, a wolf 
recovery program, the Snake River Basin adjudication on our 
water rights, our IHS clinic, and I have a submitted a copy of 
the report of the Northwest Portland Area Indian Health Board 
for the record.
    First of all, Mr. Chairman, the Nez Perce Tribe, in 
conjunction with the Bureau of Land Management, would like to 
establish a cadastral survey station on the Nez Perce 
Reservation. A definition of a cadastral survey is that it, in 
general, creates, re-establishes, marks, and finds boundaries 
of tracts of land. What we have found over the years is that 
the original surveys were made late in the 1800s and early 
1900s. Some of the old monuments are now missing or are very 
hard to find, and this survey would help us in that manner, 
because we are encountering problems with property disputes 
among the residents----
    Mr. Regula. Okay, I understand that one.
    Mr. Penney. Okay, the second one is the wolf recovery 
program. The Nez Perce Tribe is leading wolf recovery in the 
State of Idaho. I believe it is the first time throughout the 
country that tribe has led an effort on ESA recovery. We're 
badly underfunded. For example, region 6 of the U.S. Fish and 
Wildlife Service, they get upwards to--in Fiscal Year 1995 they 
got $600,000; in Fiscal Year 1996 they got $400,000. 
Yellowstone National Park has wolves in a 2 million-acre area. 
The Nez Perce Tribe monitors an area over 50 million acres, 
but, yet, we're only funded at $143,000. None of that money 
appropriated from Congress from region 6; it comes from all 
existing dollars from region 1 of the Fish and Wildlife 
Service. So there is a need for us to actually carry that out 
to adequate funding.
    Also, over the years we've had some studies done regarding 
an Indian Health Service joint venture project in which the 
tribe would contribute construction of a facility. We have 
found that under the current authorities of the Indian Health 
Service that we would probably never get on a new construction 
list under IHS. So we're looking at innovative ways to 
construct a new facility. We request that we be included in the 
IHS joint venture authorization.
    I would like to point out, Mr. Chairman, on the last issue, 
we did talk to Senator Craig about the cadastral survey and 
wolf recovery. He was generally supportive.
    Mr. Regula. Okay.
    Mr. Penney. Our last issue is the Snake River Basin 
adjudication which was commenced by the State of Idaho in 1987. 
We're currently under negotiations, but the trial court judge 
has stated that he cannot impede the State indefinitely. So we 
work with the Native American Rights Fund out of Boulder, 
Colorado, which assists us with this. So we'd like 
consideration for funds, for Fiscal Year 1998, at least 
$710,000. What that does is it goes through the BIA Water 
Resources and Protection Fund.
    Mr. Regula. We'll take your requests under consideration.
    A question: are you in northern or southern Idaho?
    Mr. Penney. North-central Idaho.
    Mr. Regula. I was reading that they have some real 
pollution problems from old silver mines. Is that up in your 
area?
    Mr. Penney. That's further up north near the Coeur d'Alene 
Reservation.
    Mr. Regula. Yes, it's the lake at Coeur d'Alene; it's a 
problem. That doesn't affect you?
    Mr. Penney. No, it's not the Nez Perce.
    Mr. Regula. Okay.
    Mr. Penney. But, under adjudication, it's very important 
that we be able to--we've been making progress with the 
negotiations, but it's getting very critical and we do need the 
funding to assist us.
    Mr. Regula. Thank you very much for coming.
    [The information follows:]

[Pages 129 - 132--The official Committee record contains additional material here.]


                                           Thursday, March 6, 1997.

                        BUREAU OF INDIAN AFFAIRS

                         INDIAN HEALTH SERVICE

                         NATIONAL PARK SERVICE

                               WITNESSES

FRANCES G. CHARLES, LOWER ELWHA S'KLALLAM TRIBE
RUSSELL N. HEPFER, LOWER ELWHA S'KLALLAM TRIBE

    Mr. Regula. Lower Elwha S'Klallam Tribe, Mr. Charles--no, 
it's Frances Charles, chairwoman.
    Ms. Charles. For the record, it's Frances Charles, 
chairwoman of the Lower Elwha S'Klallam Tribe, and, also, I 
have council member Russ Hepfer that is present with me.
    Mr. Regula. Is this in the State of Washington?
    Ms. Charles. This is in the State of Washington.
    Mr. Regula. Okay.
    Ms. Charles. Right across from Victoria.
    Good afternoon, Mr. Chairman and members of the committee 
here present today. I am Frances Charles, chairwoman of the 
Lower Elwha S'Klallam Tribe, and I am here today to make some 
several requests on behalf of my tribes as well as several 
others.
    We ask the Congress to restore the previous year's 
reduction in the tribal government funding. Reductions have 
left our youth programs, our elder programs, and other tribal 
programs, including scholarships, underfunded, as it has for 
several years. As things now stand, we can barely cover the 
spring quarter; there will be virtually nothing for the summer 
quarter. With welfare reform a reality, we must be able to 
provide education and training for our Indian people.
    We also support the administration request for Indian 
Health Service for Fiscal Year 1998. The requested increase 
will only provide the same level of services has this year. It 
is not an increase. We also support the Portland Area Northwest 
Indian Health Board testimony.
    The main issue that brings me here today, though, is the 
Elwha River restoration. The tribe has been involved in a 
multi-government settlement for years, which was intended to 
reverse the continuing damage caused by two hydroelectric dams 
upstream from the reservation. The river's remaining fisheries 
are in rapid decline because of the dams.
    Mr. Regula. Do the dams impede the flow? Is this what 
causes your problem?
    Mr. Hepfer. They impede the migration of the supply.
    Mr. Regula. Of the salmon? Yes, okay.
    Ms. Charles. Again, the dams are also causing erosion and 
flooding on the reservation, the shorelines, and the pollution 
on the reservation waters, which we have homes on the 
reservation, and now there are future problems of existing 
homes, salt water erosion into the fresh water; the flow is no 
longer there like it used to be. We're land-locked, so we 
cannot get any more homes within our reservation boundary.
    The settlement----
    Mr. Regula. Is the salt water coming in from the Pacific?
    Ms. Charles. What it's doing is it's having a beach erosion 
due to the dams being in place, and it's not clearing the 
sediment from up above to continue on with the replenishment 
aspects of it, keeping it in place. Now what it's doing is 
threatening homes that are being processed through with the 
erosion from salt water with the drinking water aspects of it. 
But, again, the sediment is now in doubt on the Elwha.
    Last September, Congress amended the Elwha Act by providing 
for the State removal of the dams after negotiating a binding 
agreement. The changes were made in the Elwha Act without the 
participation of the tribe. We feel that our government-to-
government relationship with the United States was not honored.
    We request that treaty rights protection funds to 
consummate the tribe's position within the Elwha River 
restoration proceedings and request $405,000 to implement the 
initial phases of the Elwha chum salmon recovery program as 
outlined in the Elwha River EIS, and a $100,000 for the salmon 
habitat improvement, building upon the work began in 1996.
    In fisheries, we request that $350,000, as one of the four 
Point No Point Treaty tribes, for shellfish implementations, in 
complying with the provisions of the Federal court decision.
    Finally, we request that the Congress fund the President's 
request of $25 million to complete the purchase of the two dams 
and approval of the $83 million in the future years' budget to 
complete the dam removal.
    And, again, we thank you for the opportunity to be present 
here today.
    Mr. Regula. Thank you.
    [The information follows:]

[Pages 135 - 138--The official Committee record contains additional material here.]


                                           Thursday, March 6, 1997.

                        BUREAU OF INDIAN AFFAIRS

                         INDIAN HEALTH SERVICE

                                WITNESS

PEARL CAPOEMAN-BALLER, QUINAULT INDIAN NATION

    Mr. Regula. Quinault Indian Nation, Pearl Capoeman-Baller. 
Pearl, I'll let you tell us your name. [Laughter.]
    Ms. Capoeman-Baller. Good morning. My name is Pearl 
Capoeman-Baller. I would like to thank you for the opportunity 
to present the Quinault Nation's recommendations for the Fiscal 
Year 1998----
    Mr. Regula. Where are you? In what State?
    Ms. Capoeman-Baller. Washington State, right on the coast 
of Washington.
    I would like to summarize our major concerns. First, I ask 
that as you consider the information presented here today, that 
you keep in mind the strengthened Federal-tribal relationship 
which we have developed over the past 30 years. This 
relationship has been strengthened by Congress' commitment to 
the fundamental principles of the trust relationship which 
exists and is assured to tribes. I ask, as you make these very 
difficult decisions today, that you not lose sight of this 
founding principle.
    Similar to Congress' efforts in making government more 
effective, so, too, as the Quinault Nation, but in doing so 
we've faced a difficult task of trying to prioritize what are 
the most vital programs and necessary programs to Quinault 
Nation, and we try to do that without jeopardizing the 
programs, the services, and the needs of our people. But when 
we look at budget reductions, we see the overall impact of what 
happens to those programs and needs, and any budget reductions 
impact our programs and our people. So we ask that you take 
that into consideration and the impact that it has on our long-
term planning and the efforts that we're trying to achieve with 
our economics and our self-sufficiency. It's critical to that.
    The Quinault Nation would like to take a minute to applaud 
Congress' efforts in imposing a strategic planning process in 
all Federal agencies. The Nation agrees that this is a 
necessary element for the future. However, when you look at the 
strategic planning that has taken place, we ask that you 
consider tribal input, especially when you consider the Office 
of the Trustee and all the hearings that are going on and the 
tribal concerns that are being addressed in that. That's 
critical to the tribe's future.
    One of the issues, I think if you were to ask me, ``What is 
one of the biggest concerns and issues that you face as a 
tribal leader,'' I would have to say that one of the most 
compelling concerns that we face within the next few years is 
our ability to meet the goals and objectives of the Personal 
Responsibility and Work Opportunity Act of 1996. The nation has 
been involved on a State level, a local level. We've worked 
with other tribes in trying to make sure that we understand 
what impacts that is going to have on our people and all Indian 
people across the Nation. I think that for the Quinault Nation, 
if we are going to meet the goals of what's outlined in that 
act, we need training for our people; we need higher education; 
we need child care development, because without all those 
components, we're not going to be effective in achieving that. 
That's a critical point for the Quinault Nation, and I think 
the governor from the State of Washington will submit a letter 
supporting our issues along this line.
    I want to mention that we believe that during the last two 
Fiscal Years the IHS has absorbed nearly $120 million in 
mandatory inflationary and growth costs. These costs can no 
longer be absorbed without detrimentally affecting direct 
health care to Indian people. I think that's a critical issue 
that all tribes are facing. During Fiscal Year 1998, it's 
critical that all mandatory cost increases in the IHS be fully 
funded, including the mandatory pay increases, population 
growth, and the medical inflationary costs.
    We are also requesting that the M&O funding be increased to 
$77.7 million for maintenance and repair. Unfortunately, 
because maintenance and repair has not kept up with 
construction of new IHS facilities, our medical facilities are 
in jeopardy.
    So I would also like to quickly support the Northwest 
Indian Fish Commission, the Northwest Tribal Courts 
Association, the Northwest Portland Area Indian Health Board, 
and, more importantly, the Quinault Nation needs are----we are 
requesting $300,000 for start-up costs because of the Native 
American Repatriation Act. We need to house our items that 
could be returned to us, and we need a safe and secure place, 
which we don't have.
    Mr. Regula. Okay, thank you. How large is your tribe?
    Ms. Capoeman-Baller. How large is it? We have close to 
3,000 tribal members.
    Mr. Regula. Do they work off-reservation?
    Ms. Capoeman-Baller. Predominantly on-reservation. We're a 
self-governance tribe.
    Mr. Regula. In agriculture?
    Ms. Capoeman-Baller. Pardon me?
    Mr. Regula. Mostly in agriculture?
    Ms. Capoeman-Baller. No, no, fisheries, fisheries and 
forestry, and both of those are very declining resources.
    Mr. Regula. Yes. Okay, thank you very much.
    Ms. Capoeman-Baller. Real quickly, I want to add--I mean, I 
couldn't go home without mentioning our elders; they would 
disown me. We have a dire need for an assisted-living program 
for our tribal elders, and we are asking for $250,000 in 
initial funding and $150,000 on a recurring basis to establish 
an elders-assisted program for our elders.
    With that, thank you very much.
    Mr. Regula. What age do you become an elder in your tribe?
    Ms. Capoeman-Baller. Well, I feel like I'm an elder, but 
I'm not going to tell you my age. [Laughter.]
    It's 60--not my age; it's the elder age. [Laughter.]
    Mr. Regula. You're not an elder, I'll take your word; you 
don't look like one, anyway. [Laughter.]
    Thank you.
    [The information follows:]

[Pages 141 - 144--The official Committee record contains additional material here.]


                                           Thursday, March 6, 1997.

                        BUREAU OF INDIAN AFFAIRS

                         INDIAN HEALTH SERVICE

                               WITNESSES

ROBERT F. VALENCIA, PASCUA YAQUI INDIAN TRIBE
RUBEN HOWARD, PASCUA YAQUI INDIAN TRIBE

    Mr. Regula. Pascua Yaqui Tribe of Arizona, Mr. Valencia.
    Mr. Valencia. Good afternoon, Chairman Regula and 
Representative Yates and members of the subcommittee. It's a 
great honor to speak before the Committee on Appropriations, 
knowing that our fellow Arizonan, Representative Jim Kolbe, 
sits on the same committee. I am pleased to offer my testimony 
regarding the President's budget request for Fiscal Year 1998, 
the Indian programs and services.
    My name is Benito Valencia, and I am the chairman of the 
Pascua Yaqui Indian Tribe. With me is Ruben Howard, the 
executive director of the health department of the Pascua Yaqui 
Tribe.
    Mr. Regula. How large is your tribe?
    Mr. Valencia. We're approximately right now at 10,000, near 
10,000 membership. We're located in Tucson, Arizona.
    Before I begin my testimony, I would like to submit my 
comments for the record and acknowledge that the tribe concurs 
with the comments submitted to the Senate Committee on Indian 
Affairs by President Ron Haun of the National Congress of 
American Indians on February 26, 1997, concerning the proposed 
Fiscal Year 1998 budget.
    As I will explain in more detail, Fiscal Year 1998 funding 
request to this subcommittee for the Pascua Yaqui Tribe 
includes: sufficient funding for the Indian Health Service to 
provide health services to all our eligible tribal members 
under our HMO arrangements, estimated by IHS to be $10.7 
million in Fiscal Year 1998, and $200,000 through the Bureau of 
Indian Affairs to conduct seven critical studies that were 
authorized by the Congress in Public Law 103-357 in 1994.
    As you may be aware, the Pascua Yaqui Tribe, through 
congressional enactment of Public Law 103-357, was authorized 
to open tribal enrollment until October of 1997. The tribe's 
population is expected to grow to approximately 14,000 
tribally-enrolled members. This fact makes us one of the 
largest tribes in this country.
    Having said this, however, we remain one of the most 
severely underfunded tribes. Let me illustrate this point with 
the following information concerning the Pascua Yaqui Tribe's 
health care funding crisis:
    We are asking for your support and assistance in resolving 
a crisis situation regarding our future health care. As of 
today, we do not know what type of health care services we will 
be receiving and who will be providing these health services 
after May 31st of this year. Since the time when we received 
Federal recognition, the Pascua Yaqui Tribe has received health 
care services through a prepaid contract with a private HMO 
provider, but when Indian Health Services approached the tribe 
about participating in the HMO program in the early eighties, 
our tribal leaders expressed concerns with the uncertainty of 
funding for the future trial members and the potential of 
changing providers every three years. They reluctantly agreed 
to this arrangement. In retrospect, the concerns of our tribal 
leaders expressed then have become a reality.
    On December 13, 1996, Indian Health Service advised us that 
they were no longer going to be able to continue funding the 
HMO program after the current contract expires on May 31st of 
this year. Based on their financial projections, the Indian 
Health Service estimated that they need an additional $2 
million in Fiscal Year 1998 to fund the program just for the 
4,400 tribal members currently enrolled in the HMO and cap the 
enrollment in the HMO at 4,500. But we are----
    Mr. Regula. You've got one minute left.
    Mr. Valencia. Okay.
    Mr. Regula. So you'll have to summarize.
    Mr. Valencia. Okay. Therefore, an additional $4.7 million 
will be needed to fund the HMO program for the new tribal 
members. The Indian Health Service has provided us with 
financial information that outlines how much funding it will 
take to provide direct service to our current population and 
new tribal members. Using their resources requirement formula, 
they estimate the cost for providing direct health services is 
at $16 million compared to the $4 million currently allocated 
to the HMO or the $10.7 million needed to fund the HMO for all 
our tribal members.
    Mr. Chairman, the second important issue of the tribe is 
the appropriation of funds for the purpose of conducting seven 
critical studies that were authorized by Congress in Public Law 
103-357 in 1994. Because of the tribe's open enrollment, the 
studies were needed to adequately prepare for the expanded 
population. There's eight items that were in that.
    Mr. Regula. Yes, we'll look at your statement.
    Mr. Valencia. Take a look at that?
    Mr. Regula. Yes.
    Mr. Valencia. Okay. To date, only the genealogy study was 
funded by the Bureau of Indian Affairs in 1996.
    Mr. Regula. Okay, your testimony is in the record.
    Mr. Valencia. Okay. We are requesting $200,000 for Fiscal 
Year 1998 to commence studies on the expansion of the tribal 
land base, water allotment planning, additional water 
acquisition, NAFTA economic developments, and the tribe is 
prepared to provide matching funds of $50,000.
    Thank you.
    Mr. Regula. Okay, thank you. Thank you for coming.
    [The information follows:]

[Pages 147 - 149--The official Committee record contains additional material here.]


                                           Thursday, March 6, 1997.

                            INDIAN PROGRAMS

                                WITNESS

JOHN R. McCOY, THE TULALIP TRIBES
    Mr. Regula. The Tulalip Tribes, Mr. McCoy.
    We're going to suspend for about two minutes here.
    [Recess.]
    Mr. Regula. All right.
    Mr. McCoy. Good afternoon, Chairman Regula. I am John 
McCoy, the executive director of government affairs for the 
Tulalip Tribes of Washington State. We're located north of 
Seattle. We have approximately 3,100 tribal members, of which 
over half live on the reservation.
    There are a number of issues. Each one that gave testimony 
before me--all have valid programs and they all need funding, 
and we realize that you can't fund everything.
    Mr. Regula. No.
    Mr. McCoy. But some of our issues are the same: judicial 
and law enforcement, and later there will be testimony from the 
Northwest Intertribal Court System. They'll be requesting 
approximately $150,000. The Tulalip Tribes is a user of that 
system and wholeheartedly supports their request for those 
funds.
    Education--as you know, there's never enough money for 
education or health. Those are programs that we continually 
fight and just can never seem to get enough money.
    Fishing, shellfish--so we have all those issues that need 
to be addressed and worked out. So when the Northwest Indian 
Fisheries Commission--I know what they're going to say; we 
support what they say.
    So the list just grows, sir. So that's where Tulalip is, 
and we're supporting all those requests from NIEA and the 
others.
    Mr. Regula. Very good, thank you.
    [The information follows:]

[Pages 151 - 152--The official Committee record contains additional material here.]


                                           Thursday, March 6, 1997.

                            INDIAN PROGRAMS

                               WITNESSES

ROLAND E. JOHNSON, PUEBLO OF LAGUNA
FRANK CERNO, PUEBLO OF LAGUNA
VIRGIL SIOW, PUEBLO OF LAGUNA
    Mr. Regula. Pueblo of Laguna, Mr. Johnson, governor.
    Mr. Roland Johnson. Mr. Chairman, good afternoon. Thank you 
very much for the opportunity to present testimony on behalf of 
the Pueblo of Laguna. With me today are a couple of council 
members: Frank Cerno, to my right, and Mr. Virgil Siow.
    Mr. Regula. Where are you located?
    Mr. Roland Johnson. We're located in central western New 
Mexico.
    Mr. Regula. Okay. How large is your tribe?
    Mr. Roland Johnson. Our tribal membership is 7,446, of whom 
approximately 4,100 reside on the reservation itself.
    Also in the room is Mr. Gilbert Sanchez, who is the 
superintendent of our tribal department of education.
    I've submitted my testimony for the record, and I'll just 
try to summarize the contents of our request.
    Mr. Regula. It will be appreciated.
    Mr. Roland Johnson. Last year I called to the committee's 
attention a situation which occurred back in 1988 as a result 
of a very severe rainstorm that occurred at Laguna, and it 
resulted in the need to basically drain a couple of irrigation 
structures, reservoirs. We have, since then, sought to pursue 
funding for reconstruction of the reservoirs. Included in this 
year's President's budget is an amount of $1.1 million.
    Mr. Regula. Are these created by dams?
    Mr. Roland Johnson. Right, these are reservoir structures.
    Mr. Regula. Yes, earthen dams?
    Mr. Roland Johnson. Earthen dams, that's right.
    Mr. Regula. Okay.
    Mr. Roland Johnson. Right, and so, as I point out, included 
in this year's presidential budget is the amount of $1.1 
million which we hope will be preserved.
    Laguna has also prided itself in the efforts that it's made 
to try to address the needs of our elderly people. We have a 
variety of programs, all designed to benefit the elderly. We 
own and operate our own 52-bed nursing home. We have home 
health services. We have the home-assisted live-in program. We 
have an adult daycare program, and we also have the regular 
Meals-on-Wheels program for our elderly.
    For years now we have been attempting to try to get the 
Indian Health Service to participate with us in financing the 
cost of operating these services for the elderly people, and 
they've maintained all along that they are in the business of 
providing for elder care health care. And so we again would ask 
that this committee take action to compel IHS to become 
involved, and it's my understanding that in the President's 
budget there is an amount of, I believe it's, $500,000 that IHS 
has requested for elder care. We'd like to see an increase in 
appropriations for that particular line item by about $600,000, 
which we hope can be earmarked for the Pueblo of Laguna.
    Also, we are one of the tribes that was directly impacted 
by legislation that Congress passed back a number of years ago 
requiring the Department to undertake an effort to try to 
reconcile its trust fund accounts. You're probably aware of the 
results of the efforts by Arthur Andersen and Company to try to 
conduct an audit. In fact, there was not an audit that was 
conducted or at least there was not a process that took place 
which conformed to standard accounting principles, and as a 
result of it, we find ourselves in a situation today where we 
are being asked by the Department to engage in settlement 
negotiations, but we are without the kind of information it is 
that we feel that we need in order to make an informed decision 
as to what that level of settlement should be. We feel very 
strongly that there is a need to undertake a formal audit of 
our records and our accounts, and for that reason we're asking 
for an appropriation of $450,000 to aid us in that particular 
effort.
    One of our needs at Laguna also includes the need for a new 
adult and juvenile detention and rehabilitation center. 
Currently, our facility that we use is one that was constructed 
over 30 years ago. It doesn't conform to the standards because 
the standards back then weren't appropriate to what they are 
today. So because of an increase in the numbers of 
incarcerations that have occurred, we certainly need a new 
facility.
    As an example, in 1995, the number of incarcerations that 
we had was 647. In 1996, that figure jumped to 1,645. I believe 
sincerely that much of that increase is due to the fact that we 
have certainly made some improvements in our law enforcement 
program.
    The last item on our list of needs is a request for 
additional funding for irrigation construction and irrigation 
O&M activities. The Pueblo of Laguna, like all of the pueblos, 
are traditionally farmers, and it is a way of life for our 
people and we have a constant need for rehabilitating and 
developing new irrigation systems, irrigation canals.
    Also at the Pueblo of Laguna education has always been a 
top priority. At Laguna we have three systems. We have the 
elementary system that is operated by the Bureau of Indian 
Affairs. The Pueblo of Laguna operates the middle school 
program, and the State public school systems operate the high 
school program. We are currently in the process of trying to 
seek funds to rehabilitate the existing in elementary school. 
We need additional funding to help support the operations of 
our middle school program. Our high school is currently better 
than 30 years old, and we need a new facility.
    I thank you very much for your attention.
    Mr. Regula. Thank you.
    [The information follows:]

[Pages 155 - 158--The official Committee record contains additional material here.]


                                           Thursday, March 6, 1997.

                        BUREAU OF INDIAN AFFAIRS

                         INDIAN HEALTH SERVICE

                               WITNESSES

WILLIAM WALKS ALONG, NORTHERN CHEYENNE TRIBE
REGINALD KILLSNIGHT, SR., NORTHERN CHEYENNE TRIBE

    Mr. Regula. Northern Cheyenne Tribal Council.
    Mr. Walks Along. Mr. Chairman and members of the committee, 
I would like to thank you for this opportunity to present 
testimony on behalf of the Northern Cheyenne Tribe. My name is 
William Walks Along. I'm president of the Northern Cheyenne 
Tribe of Montana. Accompanying me is Mr. Reginald Killsnight, 
tribal council from the Muddy District.
    I feel fortunate to be able to be here today to advocate 
for the interests of our tribal membership at a time when the 
social, economic, and political issues that rage around us are 
fundamental questions that challenge our most basic 
sensibilities. And on behalf of my people, I call upon the 
United States Congress to focus on your values that shape 
politics, which may in turn enhance a growing realization that 
there is hope in a society suffering through a perceived crisis 
of leadership. The mass media daily fills our minds with images 
of mounting problems and concerns that many Americans feel are 
somehow connected.
    Our first Cheyenne leaders came to the Nation's capital in 
October of 1851 to visit the Great White Father in Washington 
City, and they were shown military forts, the naval yards, the 
arsenal, and they developed a perspective on the emerging 
military might of the American Government. It gave them 
perspective with what they were dealing with. Today my 
presentation of a few of the substantive needs of the Northern 
Cheyenne Tribe reflects my tribe's commitment to perspective 
based on partnership and a commitment to dialog.
    As we all know, many crises facing organizations and 
governments today always come packaged in economic terms first. 
But I have a vision that we need to reconnect politics to our 
best values of compassion, community, diversity, hope, and 
service. I believe that this lies at the core of my initial 
request for dialog to address some of----
    Mr. Regula. Okay, now you don't have a lot of time, so 
you'd better tell us what you need.
    Mr. Walks Along [continuing]. The needs of the Northern 
Cheyenne Tribe, and it's a starting point.
    Mr. Regula. Okay.
    Mr. Walks Along. The first item that we support is $5.5 
million to the Tongue River Dam funding, as part of our 
Northern Cheyenne Indian Reserved Water Rights Settlement Act 
of 1992.
    Mr. Regula. Okay.
    Mr. Walks Along. Second is the fire protection. We 
currently don't have a structural fire truck and quick-
responder vehicle. Our tribe request $200,000.
    The same as other tribes, the juvenile detention facility, 
we feel it's important to have our children in our community, 
but a separate facility to separate them apart from adult 
prisoners, some who have been convicted of sex crimes in our 
own tribal court. I've been given a figure of projected cost of 
$3 million.
    Mr. Regula. Okay, this is in your testimony, I'm sure.
    Mr. Walks Along. That's right.
    Mr. Regula. What else do you need?
    Mr. Walks Along. The third is some funds to complete the 
construction of our tribal headquarters, estimated at $1.4 
million.
    Mr. Regula. Okay.
    Mr. Walks Along. Fourth is the additional funding for our 
tribal court. We've instituted a separation of powers which 
requires additional key staff positions, the figure of 
$881,000.
    And No. 5 is an additional $2.6 million for an Indian 
Health Service health center, which burned last year, and they 
projected we will be needing an additional 60 positions; also, 
a need for 15 extra living quarters.
    But, in summary, I know that there's an overall intent to 
cut spending in the Bureau of Indian Affairs and the Indian 
Health Services operations, and I know that there's a 
commitment to balance the budget, but I don't think that 
relieves the Federal Government from fulfilling treaty and 
trust responsibilities to the Indian nations. I also realize 
that what I mentioned here is only a portion of the need on the 
Northern Cheyenne reservation and other tribes, and I'd just 
like to call upon your committee to acknowledge the perspective 
that we come from. We're cognizant of that. We're cognizant of 
the request for our funding on the part of Clinton's budget and 
both Houses of Congress, as part of your prioritizing of 
domestic programs, but in the tradition of many of our tribal 
leaders that have come here, we just respectfully appeal to 
your body to consider some of the funding requests in the 
Fiscal Year 1998 budget. That's simply all we ask----
    Mr. Regula. We're going to do the best we can.
    Mr. Walks Along [continuing]. And hope we have dialog.
    Mr. Regula. Thank you for coming.
    Mr. Walks Along. Thank you.
    [The information follows:]

[Pages 161 - 164--The official Committee record contains additional material here.]


                                           Thursday, March 6, 1997.

                            INDIAN PROGRAMS

                               WITNESSES

KEN POYNTER, NATIVE AMERICAN FISH AND WILDLIFE SOCIETY
ARTHUR ``BUTCH'' BLAZER, NATIVE AMERICAN FISH AND WILDLIFE SOCIETY

    Mr. Regula. Native American Fish and Wildlife Society, Mr. 
Poynter.
    Mr. Poynter. Mr. Chairman, I'd like to thank you and the 
committee for supporting the Society in the past and providing 
this opportunity to briefly discuss our efforts at the Native 
American Fish and Wildlife Society. I have with me today our 
president, Butch Blazer, who would like to say a few words.
    Mr. Regula. Okay.
    Mr. Blazer. Thank you, Mr. Chairman. As a member of the 
Mescalero Apache Tribe and president of the Native American 
Fish and Wildlife Society, we're here today to request funding 
at $488,000. This is at the same level as our Fiscal Year 1997 
request.
    The Native American Fish and Wildlife Society basically 
works with our 136 member tribes and other tribes that have not 
yet become members of our organization to try to fill the unmet 
need. As you're hearing today from various tribal chairmen that 
have come before you, there is a tremendous unmet need in the 
area of managing tribal natural resources. What the Society is 
trying to do is to bring in outside resources where tribes 
don't have to totally rely----
    Mr. Regula. Do you cover the whole United States?
    Mr. Blazer. Yes.
    Mr. Regula. And where's your central point?
    Mr. Poynter. Colorado.
    Mr. Blazer. Our national office is in Colorado.
    Mr. Regula. So a tribe that's in Minnesota that has some 
problems in managing their fish and wildlife resources could 
call upon you to send out experts to help them?
    Mr. Poynter. Provide technical assistance, correct----
    Mr. Regula. Yes.
    Mr. Poynter [continuing]. And training.
    Mr. Blazer. For example, we have a Great Lakes region. We 
have two boards of directors from the Great Lakes region that 
they would contact.
    Mr. Regula. Do they pay you an annual fee to be part of 
this association?
    Mr. Poynter. The tribes don't, no.
    Mr. Blazer. No.
    Mr. Regula. How do you finance it then?
    Mr. Poynter. Primarily through the funding we receive from 
the Bureau.
    Mr. Regula. So it's mostly Federal funds then that operate. 
All Federal?
    Mr. Blazer. Could I have Mr. Poynter go over a foundation 
that was recently created?
    Mr. Regula. Okay.
    Mr. Poynter. Very briefly, because I know our time is 
short, we came to Congress a couple of years ago. Our 
organization is actively working to become self-sufficient and 
get off the Federal dole.
    Mr. Regula. Okay.
    Mr. Poynter. We created a foundation. We are currently 
incorporated in the State of Colorado and have an IRS tax-
exempt status 501(c)(3), and we're currently recruiting 
trustees. We have seven Native trustees now, and we're 
recruiting six, primarily non-Native people, high-profile 
people. We have people like Ted Turner, et cetera.
    Mr. Regula. Right, right.
    Mr. Poynter. We're getting that in place this year. Our 
goal is to raise $10 million, at which time we will get the 
Federal dole and actually create a small grants program and 
start giving tribes money and resource management.
    As mentioned in our testimony, we view this organization as 
an investment by Congress at this time, offering a return in 
the future via the small grants program.
    Mr. Regula. I assume that some tribes have a lot more--we 
heard from one in Minnesota that has fishing, a lot of fishing 
activities. So you have varying degrees of usage probably?
    Mr. Blazer. Right.
    Mr. Poynter. Yes.
    Mr. Regula. Is the management you provide to assist them in 
having non-tribal members use their resources or is it pretty 
much for their own use?
    Mr. Blazer. Both.
    Mr. Poynter. Both.
    Mr. Regula. Does the U.S. Fish and Wildlife Service 
participate with your group?
    Mr. Blazer. That's one of the things that our organization, 
we find ourselves doing more and more, is playing a 
facilitation role, where we bring other Federal agencies, 
private industry, help them develop a positive communication 
with the tribes where, again, the tribes can find ways to meet 
that unmet need that they have.
    Mr. Regula. So you might work with the Fish and Wildlife 
Service, U.S. Fish and Wildlife, to help a tribe?
    Mr. Blazer. Yes, sir.
    Mr. Regula. And you're sort of a catalyst or broker?
    Mr. Blazer. Yes, sir.
    Mr. Regula. Okay, thank you. That sounds very interesting.
    Mr. Poynter. Thank you for your time.
    Mr. Regula. You don't have a large budget, so you must 
stretch it pretty well. [Laughter.]
    Mr. Poynter. We do.
    Mr. Blazer. We try very hard.
    Mr. Regula. Thank you.
    Mr. Poynter. Thank you.
    Mr. Blazer. Thank you.
    [The information follows:]

[Pages 167 - 170--The official Committee record contains additional material here.]


                                           Thursday, March 6, 1997.

                            INDIAN PROGRAMS

                                WITNESS

ROBERT NYGAARD, CHIPPEWA/OTTAWA TREATY FISHERY MANAGEMENT AUTHORITY

    Mr. Regula. Chippewa/Ottawa Treaty Fishery Management 
Authority.
    Are you part of this group that just testified?
    Mr. Nygaard. Yes, we're a member.
    Mr. Regula. Okay. But you deal directly with your Chippewa/
Ottawa problems; is that right?
    Mr. Nygaard. Right, right.
    Mr. Regula. Where are you located?
    Mr. Nygaard. Michigan.
    Mr. Regula. Okay, do you get non-Natives that use the 
resources that you manage?
    Mr. Nygaard. Yes, it is jointly regulated through the State 
of Michigan.
    Mr. Regula. Does the State give you some money?
    Mr. Nygaard. No, they provide their own--as part of the 
agreement, they provide officers and----
    Mr. Regula. They help you?
    Mr. Nygaard. Yes.
    Mr. Regula. And you have to have a State license--an 
individual has to have a State license to use your facility?
    Mr. Nygaard. Yes.
    Mr. Regula. Okay. Well, if you'll summarize for us anything 
else that we should know----
    Mr. Nygaard. Sure. My name is Bob Nygaard, and I'm with the 
Sioux Ste. Marie Tribe of Chippewa Indians which is a member of 
the Chippewa/Ottawa Management Authority.
    Mr. Regula. Right.
    Mr. Nygaard. And, also, we have the Bay Mills Indian 
community and the Grand Traverse Band of Ottawa and Chippewa as 
members. We're in our thirteen year of a 15-year agreement with 
this consent order of the treaty. It will expire in the year 
2000.
    What we're requesting is the same amount as appropriated in 
1996, which----
    Mr. Regula. Do you develop facilities for commercial 
fishing or is it just sportsfishing?
    Mr. Nygaard. It's commercial fishing. We have 125 licensed 
commercial----
    Mr. Regula. Commercial fisheries?
    Mr. Nygaard. Yes.
    Mr. Regula. You must be on a pretty good size lake then to 
support that much activity.
    Mr. Nygaard. Oh, yes, we have 17,000 square miles of water.
    Mr. Regula. In northern Michigan?
    Mr. Nygaard. Yes, in three lakes: Lake Superior, Lake 
Heron, Lake Michigan.
    Mr. Regula. So your tribal members would market fish to the 
city markets?
    Mr. Nygaard. Oh, yes. Our primary markets are Chicago and 
Detroit, and the value is about $5 to $7.5 million.
    Mr. Regula. Oh, that's very interesting.
    Okay, is there anything else you want to tell me?
    Mr. Nygaard. I just wanted to touch upon the components. 
Administration, of course, is for the meetings and for the 
State and Federal efforts to coordinate the fishery.
    We also have access site development. The treaty fisheries 
are--a lot of the fishermen are trailering their own rigs, and 
so they're not allowed--they can't go really far into the 
lakes. So they have to drive to a site, and access is the 
critical point. So we are building sites to incorporate with 
county, State, and Federal----
    Mr. Regula. These access points are on tribal lands?
    Mr. Nygaard. No, they aren't. They're on county, State, 
Federal parks----
    Mr. Regula. Oh, I see. So your tribal members go off the 
reservation to do their commercial fishing?
    Mr. Nygaard. That's correct.
    And we also have conservation enforcement. We have to 
enforce the 17,000 square miles. And then that's done in 
conjunction with the State of Michigan.
    Mr. Regula. Are there 17,000 square miles in your 
reservation?
    Mr. Nygaard. No, no. We have--we're on the outer peninsula. 
The Bay Mills is 20 miles west of us, and the Grand Traverse is 
in lower Michigan. Within that area, the water----
    Mr. Regula. So you use Lake Michigan then, too; is that 
right?
    Mr. Nygaard. That's correct.
    Mr. Regula. Okay, all right. Anything else?
    Mr. Nygaard. We also have a conservation court, of course, 
that's necessary. Education--we have a biology component which 
is necessary to set the quotas, make sure we don't over-fish, 
and, of course, the environmental component which is--we have 
molten problem with the foreign species: spinal water fleas and 
white perch; we have problems----
    Mr. Regula. Do you get help from the State on dealing with 
those problems?
    Mr. Nygaard. Well, we sit on joint commissions and boards 
that address that issue.
    Mr. Regula. Okay.
    Mr. Nygaard. Other than that, we'd also like to mention 
that we also support the InterAmerican Fish and Wildlife 
Service and their efforts and their proposals.
    Mr. Regula. Right. Okay, thank you very much.
    [The information follows:]

[Pages 173 - 176--The official Committee record contains additional material here.]


                                           Thursday, March 6, 1997.

                        BUREAU OF INDIAN AFFAIRS

                         INDIAN HEALTH SERVICE

                               WITNESSES

STANLEY HERRERA, ALAMO-NAVAJO SCHOOL BOARD
BURTON APACHE, ALAMO-NAVAJO SCHOOL BOARD
    Mr. Regula. The Alamo-Navajo School Board, Marcel Kermans.
    Mr. Herrera. Good afternoon, Chairman and committee 
members. My name is Stanley Herrera, president of the Alamo-
Navajo School Board. I will be testifying on behalf of Marcel 
Kermans, our executive director, who was called home for a 
family emergency.
    Mr. Regula. Okay.
    Mr. Herrera. And I've got with me board member Burton 
Apache, school board members with me, too.
    The Alamo School Board does more than operating the school. 
Since our 10-square-mile reservation is isolated on the south-
central New Mexico border, away from the big Navajo 
reservation, the Alamo-Navajo community has learned and 
practiced self-sufficiency on a daily basis. The Navajo Nation 
Council and the Alama chapter, a political subdivision of the 
Navajo Nation, has authorized the school board to be the 
central service organization for all education, health, roads 
maintenance, and community programs serving the 1,800 residents 
of the Alamo reservation.
    The Bureau of Indian Affairs, school operations: each year 
Congress provides ISEF funding for our instructional program. 
But we are not able to use the ISEF monies only for 
instruction. The chronic shortage of our accounts to support 
school operations force us to use a large amount of ISEF 
dollars, making up these shortages.
    For example, student transportation at our school costs us 
$180,000 annually, and we get reimbursed for only $136,000.
    Mr. Regula. Yes, we've looked at your testimony. Let me 
just ask you some questions. Your school is apparently 
isolated; is that correct?
    Mr. Herrera. Yes.
    Mr. Regula. Is this 12 grades?
    Mr. Herrera. Yes, from K through 12.
    Mr. Regula. And you have to transport over some distance, I 
assume--to get the students to the school?
    Mr. Herrera. Yes.
    Mr. Regula. And do any of them live in residential areas or 
do they all commute by bus?
    Mr. Herrera. They all commute by bus.
    Mr. Regula. So they're all close enough that they can stay 
in their homes, in their residences?
    Mr. Herrera. Yes, in their homes.
    Mr. Regula. Yes. And you need assistance, I notice in your 
testimony, for transportation and administrative costs, health 
services----
    Mr. Herrera. Yes and facilities management and especially 
on the other schedule, the last part, on this BIA fire 
protection. Three years ago, a lot of media attention was 
focused on the lack of fire protection on BIA schools of the 
Navajo reservation. They did some studies and we were very poor 
on that, on our fire protection. We just have an old----
    Mr. Regula. Are your people scattered some distances?
    Mr. Herrera. Yes. Yes, they're scattered.
    Mr. Regula. What do most of them do for their livelihood? 
Do they farm or do they work in the local communities?
    Mr. Herrera. Yes, like the school board is mostly the main 
employee of about 150, and there's some areas that--some 
commute to Albuquerque; some commute to Sequoria that work, but 
they live off the reservation, but during the weekends they 
come back.
    Mr. Regula. So they go off the reservation and work in the 
communities and then they come back to the reservation over the 
weekends?
    Mr. Herrera. Yes, very few of them, yes.
    Mr. Regula. Okay, well, we understand----
    Mr. Herrera. Like on this one, Alamo still has a 25-year-
old truck I was talking about----
    Mr. Regula. Yes.
    Mr. Herrera [continuing]. That only has 500 gallons of 
water, and this is in poor shape. Our reservation is the size 
of the District of Columbia, and with one vehicle to protect 
the $25 million of Federal facilities, and we have to protect 
about 1,800 homes, and with this poor fire truck we can't do 
nothing.
    Mr. Regula. Okay, well, thank you for coming. We understand 
the problem.
    Mr. Herrera. I'd just like to thank you, the committees. We 
appreciate testifying.
    Mr. Regula. Thank you.
    Mr. Herrera. Yes.
    [The information follows:]

[Pages 179 - 181--The official Committee record contains additional material here.]


                                           Thursday, March 6, 1997.

                         INDIAN HEALTH SERVICE

                               WITNESSES

ANNE WALKER, ALASKA NATIVE HEALTH BOARD
LINCOLN BEAN, ALASKA NATIVE HEALTH BOARD
    Mr. Regula. Alaska Native Health Board.
    Ms. Walker. Thank you, Chairman Regula. My name is Anne 
Walker. I'm the executive director for Alaska Native Health 
Board. Accompanying me is Chairman Lincoln Bean of the Alaska 
Native Health Board. He's also chairman of the Southeast Alaska 
Regional Health Consortium.
    Mr. Regula. Is this for the whole State?
    Ms. Walker. Alaska Native Health Board is for----
    Mr. Regula. So you're in Juneau, I presume?
    Ms. Walker. Anchorage.
    Mr. Regula. Oh, Anchorage. And you're responsible for the 
State?
    Ms. Walker. State health programs.
    Mr. Regula. And you interface with the Indian Health 
Services?
    Ms. Walker. Yes. We're in the process right now of 
implementing or actually getting ready for negotiations for our 
fourth year of the Alaska Tribal Health Compact, in which about 
200 tribes participate in Alaska.
    Mr. Regula. So that the 200 tribes look to you for 
leadership----
    Ms. Walker. In the area of health care.
    Mr. Regula [continuing]. In health care resources? Do you 
manage the facilities or do you just give them technical 
assistance?
    Ms. Walker. We manage, all the board members and their 
health directors manage, all of the facilities with the 
exception of the Alaska Native Medical Center, which is the 
purpose of my testimony here today.
    Mr. Regula. Okay, do you want to summarize it for us?
    Ms. Walker. Yes. We've been coming before this committee 
for the past, I believe it's been, five years now requesting 
appropriations for the construction of this facility. On June 
2, Indian Health Service will see its first patient in the 
facility. I've recently toured it. It's the state-of-the-art 
facility in the Nation.
    Mr. Regula. Where's this located?
    Ms. Walker. It's located in Anchorage.
    Mr. Regula. And so anyone that uses it has to come in by 
bus or by plane, probably plane.
    Ms. Walker. There are no roads. So it's by plane.
    Mr. Regula. No roads, all by plane?
    Ms. Walker. And we can triage from the smallest village 
into Anchorage. We're very proud of our system. We utilize 
community health aides that are not licensed by the State of 
Alaska.
    The issue that I have is that this administration has 
reduced our second year operations funding increase to manage 
the hospital from $11.3 million to $6.5 million. The direct 
impacts on that are going to be a restriction in the planned 
use of our dental facilities, including field services, a 50 
percent reduction in our medical and computer equipment. We're 
not going to be able to implement a tele-radiology program that 
is a major part of our ability to see whether patients should 
be triaged into Anchorage.
    Mr. Regula. So what you're saying is that out in the 
clinics, maybe at 100 or so of these clinics, they will have 
television connections with the main central point in 
Anchorage, and they can discuss whether or not this patient 
should be brought to Anchorage; is that correct?
    Ms. Walker. Actually, what tele-radiology is, it's over the 
phone modems where you can run an x-ray through a fax machine--
--
    Mr. Regula. Okay.
    Ms. Walker [continuing]. And then be read in Anchorage to 
see whether that patient needs to be flown into Anchorage.
    Mr. Regula. So you're connected to all of the clinics?
    Ms. Walker. Yes--well, that's our plan. We aren't yet.
    Mr. Regula. But you're working on that?
    Ms. Walker. Yes. We currently have a demonstration tele-
radiology project----
    Mr. Regula. It seems to me that would be effective and 
maybe you can expand it to other areas of medical needs.
    Ms. Walker. Absolutely. We have a grant with the National 
Library of Medicine for a telemedicine demonstration project to 
hook-in----
    Mr. Regula. That's very interesting.
    Ms. Walker [continuing]. To four of our major hospitals and 
20 village clinics to do such a thing, because we believe we 
can deliver health care services more cost-effectively using 
telemedicine and today's technology and reducing our need for 
patient travel, which was our biggest issue.
    Mr. Regula. What do you have, a pair of medics in these 
clinics?
    Ms. Walker. We have community health aides. They're non-
licensed paraprofessionals, and they are the first contact, the 
first primary care service provider.
    Mr. Regula. So the only way they get to a physician would 
be at Anchorage.
    Ms. Walker. No, they are triaged from surrounding villages 
to a regional hospital, which is more like a primary care 
facility.
    Mr. Regula. How many regional facilites do you have?
    Ms. Walker. We have seven; we have five hospitals.
    Mr. Regula. So there's a two-step process?
    Ms. Walker. Yes.
    Mr. Regula. Clinic?
    Ms. Walker. Hospital, primary care facility----
    Mr. Regula. Primary care, and then the medical center.
    Ms. Walker. And then the medical center.
    Mr. Regula. Okay.
    Ms. Walker. And we believe that with this medical center 
our true goal of being able to run high-quality cost-efficient 
health services will come to fruition.
    Mr. Regula. So what you need is help on the medical center?
    Ms. Walker. Yes, the second year funding increase to get us 
going.
    Mr. Regula. Yes.
    Ms. Walker. Because we're just going to see our first 
patient this year, and for some reason we're not understanding 
why the administration's not requesting that.
    Mr. Regula. I'm not, either.
    Ms. Walker. Because I believe that we can come to you and 
say we have done this; this is cost-effective----
    Mr. Regula. You've done your part. It's up to us to do 
ours.
    Ms. Walker. Yes, absolutely.
    Mr. Regula. That's what you're telling me?
    Ms. Walker. Right.
    Mr. Regula. Okay.
    Ms. Walker. The other issue is sanitation, water, and 
sewer. You know, we continually to come before you. We're very 
happy that Congress is working with the States on making sure 
that there's a joint effort.
    Several years ago, we brought to the attention of Congress 
that it took 27 regulating agencies, Federal and State, for a 
single village in Alaska to get permits to build a water and 
sewer facility. So most of the money was used up trying to 
get----
    Mr. Regula. Bureaucracy, we're trying to get rid of some of 
that.
    Ms. Walker. Yes, jumping through hoops in order to qualify 
to build a facility.
    Mr. Regula. Are these Federal hoops or State hoops?
    Ms. Walker. Both. And so we asked a Federal and State joint 
field operations committee to come together to lessen the 
bureaucracy.
    Mr. Regula. Good for you. We'll try to help.
    Ms. Walker. Okay.
    Mr. Regula. Thank you for coming.
    [The information follows:]

[Pages 185 - 188--The official Committee record contains additional material here.]


    Mr. Regula. The committee will stand in recess until 1:30.
                                           Thursday, March 6, 1997.

                        BUREAU OF INDIAN AFFAIRS

                         INDIAN HEALTH SERVICE

                               WITNESSES

WALLACE TSOSIE, GREASEWOOD SPRINGS COMMUNITY SCHOOL, INC.
RONALD GISHEY, GREASEWOOD SPRINGS COMMUNITY SCHOOL, INC.

    Mr. Regula. We'll reconvene the committee.
    Greasewood Springs Community School.
    For those who might not have been here before, your 
statements will all be made a part of the record. We'll 
appreciate it if you'll summarize. You each have five minutes.
    Mr. Tsosie. Thank you, Mr. Chairman, members of the 
subcommittee. My name is Wallace Tsosie. With me is Ronald 
Gishey, the board of directors' president. I'm the vice 
president for the board of directors.
    Mr. Chairman, we are here on behalf of Greasewood 
requesting additional funding for a gymnasium which has already 
been slated with $3.14 million in this year's Fiscal Year 
budget. The additional request that we're requesting is in the 
amount of $206,000 to cover the cost that was incurred when the 
BIA did a demolition. The gymnasium that we're talking about is 
going to be sitting where a dormitory used to sit, and that 
dormitory has been demolished, and it cost us a lot of money. 
In fact, it cost us $356,000, and that amount is going to be 
taken out of the $3.14 million. So that will bring the amount 
down to very--to the point where we would not have enough to 
cover the total cost of the gym.
    Greasewood is a grant school under Public Law 102-97. We 
recently became a grant in July 1996.
    Mr. Regula. Where is it located?
    Mr. Tsosie. Greasewood is located about 110 miles northeast 
of Flagstaff, Arizona on the Navajo reservation.
    Mr. Regula. Is this a 12-year, kindergarten----
    Mr. Tsosie. It's a K-to-8 school.
    Mr. Regula. K to 8?
    Mr. Tsosie. Yes.
    Mr. Regula. Okay.
    Mr. Tsosie. So the other thing that we want to include in 
our request is $125,600 to cover the design that we want that 
BIA has determined that we do not need on certain elements, 
like a pitched roof, but this is very much needed in our area 
because of the climate. Also, we requested for a wooden floor 
rather than a tile floor. We also requested to include--in the 
surroundings, we want to pave the parking lot, and also we want 
to do some landscaping. So additional requests will cover that 
much. Mr. Chairman, we are requesting for $231,600 to be added 
to this $3.14 million that's already in the budget at this 
time.
    Mr. Regula. Okay. Well, we'll take this under consideration 
and put your statement in the record.
    Mr. Tsosie. Okay.
    Mr. Regula. Thank you for coming.
    [The information follows:]

[Pages 191 - 194--The official Committee record contains additional material here.]


                                           Thursday, March 6, 1997.

                        BUREAU OF INDIAN AFFAIRS

                         INDIAN HEALTH SERVICE

                                WITNESS

ROBERT THOMAS, NARRAGANSETT INDIAN TRIBE

    Mr. Regula. The Narragansett Indian Tribe, Randy Noka, 
first councilman.
    Mr. Thomas. Good afternoon. Mr. Chairman and members of the 
subcommittee, my name is Robert Thomas. I'm a council member of 
the Narragansett Tribe which is located in Rhode Island.
    I served on the council for 12 years and I've had an 
opportunity to see the tribe blossom with regards to all the 
achievements since its Federal recognition in 1983. For six 
years, we have been coming here before the committee as far as 
what we'd like to see as far as having a health clinic open on 
our reservation. We realized a goal less than four months ago; 
we dedicated our facility.
    Mr. Chairman, our needs for 1998 are very simple. We need a 
million dollars to operate and staff with equipment the clinic 
that we have. Our IHS funding has not increased since 1994. We 
also ask Congress to fund IHS for medical and also mandatory 
pay increases.
    For 12 years we've had no clinic. We've had to refer our--
--
    Mr. Regula. So you have your clinic now? It's open?
    Mr. Thomas. Yes, we do.
    Mr. Regula. And you're just asking for money for staff?
    Mr. Thomas. Absolutely, and for equipment that's needed, 
and any shortfalls that come about in regards to health----
    Mr. Regula. In other words, the clinic is not fully 
operational in terms of equipment; is that correct?
    Mr. Thomas. Right; correct. Again, in 1996 our contract 
health referral services alone cost $700,000. That is 60 
percent of our program is budget. We worked for years to obtain 
private funds to build a clinic. We received 90 percent 
guarantee loan with the BIA, and with that it helped us with 
the local bank to help the clinic into construction. Soon we'll 
be opening the doors for our out-patient health facility. Right 
now we have a primary health clinic, community health program, 
behavioral health, and family services, and administrative 
services. We're $1 million short of what we need. Our existing 
budget will allow us only to fill 17 of the 27 positions there, 
leaving 30 percent of our staffing needs unmet.
    We felt we could count on the IHS to help us out, but as we 
learned when we met with Dr. Trujillo in February, there is no 
dollars, no money, in IHS to support our clinic and additional 
funding needs would have to come before Congress, as was 
conveyed to us.
    Mr. Regula. Surely IHS, when they helped you build--well, 
you built it yourselves; is that correct?
    Mr. Thomas. Correct.
    Mr. Regula. Did they commit that they were going to help 
you with staffing?
    Mr. Thomas. Well, they led us to believe that they would be 
helping us because they indicated that we could not revise what 
we had, which led us to believe that when it was complete and 
we had a clinic onsite, then they would come in and give us 
that support, and it never materialized.
    Mr. Regula. Okay, well, we'll look into it.
    Mr. Thomas. Even more troubling is the fact that IHS does 
not view our clinic as an expanded program that would allow us 
to tap into the existing IHS dollars.
    We have cut our contract health referral budget by more 
than 50 percent to provide money for staff, but we still fall 
short. Without additional funds, we cannot hire a nurse 
practitioner or an LPN, social workers, a psychologist and 
psychiatrist. If we could just afford a pharmacy and a 
pharmacist, then our funds, of course, would be reduced by 40 
to 50 percent. That is a savings of $75,000 right there, which 
would allow us to have a physician.
    We are getting help from the University of Rhode Island. 
We're certainly seeking out into the community and also getting 
help from the Rhode Island College as far as getting student 
help.
    Mr. Regula. Does your tribe have a reservation or are you 
just living in the community?
    Mr. Thomas. Well, we have a reservation. It's located in 
the Washington County area. There are five counties within the 
State, and as it stands right now, Washington County is one----
    Mr. Regula. So most of the members live off the 
reservation?
    Mr. Thomas. Fifty percent.
    Mr. Regula. Yes.
    Mr. Thomas. Yes.
    Mr. Regula. Okay. Anything else you want to say? We're out 
of time here in a minute.
    Mr. Thomas. Okay. The only thing I would indicate here is 
we certainly want to focus in regards to one of the biggest 
things here as far as the Narragansetts, diabetes is 
debilitating and, if not monitored, a potentially deadly 
illness. It affects sight, the limbs, the entire body.
    Mr. Regula. Oh, sure.
    Mr. Thomas. It certainly affects our pocket, which is of 
considerable concern there. With nearly 40 percent of our tribe 
are unemployed, that presents a serious health risk.
    Mr. Regula. Right.
    Mr. Thomas. Of the last 10 cases we discovered, 8 of them 
were uninsured. I say that only because, again, I've contacted 
diabetes myself in the past 10 years, 12 years, and I have lost 
my father from diabetes; I've lost two from my family. Our 
Chief Sachem just passed away in December with diabetes 
complications. And what we need to do is help educate the 
people. With the appropriations for 1998, it could be a big 
help to us.
    Mr. Regula. We'll look into it. Thank you very much for 
coming.
    Mr. Thomas. Thank you.
    [The information follows:]

[Pages 197 - 200--The official Committee record contains additional material here.]


                                           Thursday, March 6, 1997.

                        BUREAU OF INDIAN AFFAIRS

                                WITNESS

TERRY CROSS, NATIONAL INDIAN CHILD WELFARE ASSOCIATION

    Mr. Regula. National Indian Child Welfare Association. Mr. 
Gross is it?
    Mr. Cross. Cross.
    Mr. Regula. Cross. Oh, yes, I'm sorry.
    Mr. Cross. Mr. Chairman, I'm Terry Cross, director of the 
Indian Child Welfare Association. Our organization is a 
membership organization of tribal programs and urban Indian 
programs serving Indian children and families across the United 
States.
    Mr. Regula. So where are you headquartered?
    Mr. Cross. In Portland, Oregon.
    Mr. Regula. Okay, but you serve tribes throughout the 
United States?
    Mr. Cross. Right, and our services include training, 
community development, and policy analysis.
    Mr. Regula. I assume you're 100 percent federally-financed?
    Mr. Cross. No, we're only about 30 percent federally-
financed.
    Mr. Regula. Where's the balance?
    Mr. Cross. We're a private nonprofit. We raise our own 
funds. We make a lot of our own money with fees-for-service and 
that sort of thing.
    I'm here to testify on two aspects of the Bureau of Indian 
Affairs' budget: the Indian Child Welfare Act, Title II, 
program that supports tribal child welfare programs and the 
Indian Child Welfare Act, Title II, off-reservation program. 
I'm here to support the administration's budget under Tribal 
Priority Allocations that's calling for a 90 percent increase 
over the 1997 levels for tribal programs. I want to talk about 
how essential those programs are to protect Indian children 
from abuse and neglect, and provide them homes and the sense of 
parency and belonging in their own communities, because these 
funds are the only real steady child welfare funds the tribes 
have. We do have access to only one other Federal child welfare 
funding base, and that's title 4(b), but the amounts under 
those grants are so small; for some tribes it's less than 
$1,000. So the ICWA title II is really the only viable source 
of funds for tribal child welfare programs at this point.
    And it's only been since 1993 that those have been 
consistent. Before that, there wasn't enough money to go 
around, and there was a competitive process. So it's very 
important that those programs be supported. Tribes have made a 
tremendous increase in the way that they are able to support 
child welfare programs.
    I do want to express concern about the way the Bureau of 
Indian Affairs determines the need when they're projecting the 
budget. They have almost no information about what the need is 
out there. Under the Tribal Priority Allocations process, 
tribes often--it's like a block grant. They have to--if they 
have to spend extra money on some other crisis, that means they 
can't spend it on child welfare. Well, what the Bureau does 
then, it says in their budgeting process, well, it must be they 
didn't need it because they didn't spend it; they prioritized 
it other places. Well, if your tribal center burns down or your 
roads wash out or you have people die who need to be buried, 
you can't spend that money on children, and so it gets moved to 
other places.
    Mr. Regula. So they move around within their accounts is 
what you're saying?
    Mr. Cross. Right, right.
    Mr. Regula. You're saying they short the child welfare 
program in the process?
    Mr. Cross. And especially they short it in the Bureau's 
calculation of how much tribes need, because if you only looked 
at what they used, you don't know anything about what it is 
that they need.
    Mr. Regula. Well, we are trying to look at the Bureau and 
see if we can improve the administration. I suspect your 
concern is saying it's poorly allocated.
    Mr. Cross. Right.
    The other issue is the--I'm here to ask Congress to restore 
the $2 million that historically has been spent on off-
reservation programs. These off-reservation programs have been 
essential in helping implement the Indian Child Welfare Act and 
helping----
    Mr. Regula. When you say, ``off-reservation,'' does this 
mean in private facilities?
    Mr. Cross. The urban Indian programs.
    Mr. Regula. Yes, right, where they get treatment in a non-
Indian hospital?
    Mr. Cross. Well, primarily----
    Mr. Regula. Is that subject to reimbursement?
    Mr. Cross [continuing]. Those are family service kind of 
programs where a State may take a child into custody, but not 
have any Indian foster homes or urban Indian urban program, 
might work with the State to help that new home.
    Mr. Regula. Okay, and we fund that in part.
    Mr. Cross. You have funded it in the past at $2 million a 
year. This year it was left out of the administration's budget. 
They just zeroed it out.
    Mr. Regula. I wonder why they did that? Okay, thank you 
very much.
    Mr. Cross. Thank you for your time.
    Mr. Regula. We learned a lot of new information here today.
    [The information follows:]

[Pages 203 - 214--The official Committee record contains additional material here.]


                                           Thursday, March 6, 1997.

                        BUREAU OF INDIAN AFFAIRS

                                WITNESS

PAUL ROOKS, OGLALA SIOUX TRIBAL PUBLIC SAFETY COMMISSION

    Mr. Regula. Oglala--is that right?
    Mr. Rooks. Yes, sir.
    Mr. Regula. Public Safety. You're the chief of police?
    Mr. Rooks. Yes, sir.
    Mr. Regula. Have you got your firearm with you?
    Mr. Rooks. No, I sure don't.
    Mr. Regula. You can't get through the door with that, can 
you?
    Mr. Rooks. That's one of the reasons why I'm here to talk 
to you. [Laughter.]
    Mr. Regula. I didn't do anything wrong. [Laughter.]
    Mr. Rooks. Good afternoon, sir. I'm here primarily to 
request support for the TPA budget under the current 
administration, because about $46.6 million is what they----
    Mr. Regula. So you figure if they get more, you'll get 
more?
    Mr. Rooks. Sure. In fact, we figure we'll get approximately 
about $450,000 of that which we need. I think in 1995 we lost 
that amount. So we currently have about 36 police officers 
under the Bureau contract, and thanks to you gentlemen, we have 
62 police officers in the justice department. So, to us, we're 
very thankful for that.
    Mr. Regula. You got some extras, then, under that police 
program.
    Mr. Rooks. Yes, sure. So we have approximately 98, but 
under the Bureau's standards we should be getting about 150 
people.
    Mr. Regula. How many people are you policing?
    Mr. Rooks. Approximately about 50,000 people on the Pine 
Ridge Indian Reservation.
    Mr. Regula. Where are you located?
    Mr. Rooks. Pine Ridge in the southwest corner of South 
Dakota.
    Mr. Regula. So you're a rural area?
    Mr. Rooks. Yes, quite--there's about 4,800 acres that we--
--
    Mr. Regula. You have 50,000 people spread over a pretty big 
area then?
    Mr. Rooks. Yes.
    Mr. Regula. Are most of these on reservations?
    Mr. Rooks. Yes, this is a reservation, Pine Ridge Indian 
Reservation.
    Mr. Regula. And you're the chief of police for the whole 
reservation?
    Mr. Rooks. Yes. So, generally, that's what we're saying, if 
we can get them on, like you alluded to earlier, the weapons 
and that sort of thing, that's one of the things that, through 
a BIA study, we're finding we need more----
    Mr. Regula. Has crime increased?
    Mr. Rooks. Crime itself has increased overall like 
dangerous weapons and that sort of thing. The only thing I 
think we've put a handle on is homicides, but generally the 
rest of it is--you know, like you say, it's----
    Mr. Regula. How about juvenile crime? Is that an issue?
    Mr. Rooks. Juvenile, that's rising a little bit. We need to 
have controls.
    Mr. Regula. Do you have your own court system?
    Mr. Rooks. Yes, as well as we utilize the Federal court 
system, too.
    Mr. Regula. Where do your people work? Where do they get 
their employment, agriculture, or what?
    Mr. Rooks. Generally, unless it's under the tribal or 
Federal programs, really without too much other economy type 
things----
    Mr. Regula. Do you have a DARE program?
    Mr. Rooks. We do have the DARE program. However, we have 
one police officer currently; we hope to get about five more to 
go to other schools, but we do have one person that is working 
all the schools.
    Mr. Regula. So you do work in the education area as much as 
you can?
    Mr. Rooks. Yes, sir.
    Mr. Regula. An ounce of prevention is worth a pound of 
cures.
    Mr. Rooks. Sure. In fact, we have been working with mostly 
all the schools and trying to identify behavioral issues.
    Mr. Regula. Okay. Anything else you want to tell me?
    Mr. Rooks. Well, the only other thing I was going to say 
was, if we can restore this approximately $450,000 which has 
been lost since 1995, I think we can help to employ or maintain 
the permanent status of officers, and if we can get an increase 
with the next couple of years, we hope to take care of this----
    Mr. Regula. One question: are your officers trained in any 
police academy facilities?
    Mr. Rooks. Yes, sir, they are trained at the Federal Law 
Enforcement Training Center in Artesia, New Mexico.
    Mr. Regula. So you have people that understand their 
responsibilities?
    Mr. Rooks. Sure, not only through the Federal system, but 
culturally also.
    Mr. Regula. Does the State help you some?
    Mr. Rooks. The State, whenever we have a chance, we send 
some officers over there.
    Mr. Regula. Do you ever send anybody to Quantico?
    Mr. Rooks. Quantico, we have sent several, but since then--
--
    Mr. Regula. The FBI.
    Mr. Rooks. Yes. Most of them, we send our investigators to 
the Federal Law Enforcement Training Center in Glenco, Georgia.
    Mr. Regula. I see. Okay. Thank you very much.
    Mr. Rooks. I appreciate it.
    Mr. Regula. Very interesting.
    [The information follows:]

[Pages 217 - 220--The official Committee record contains additional material here.]


                                           Thursday, March 6, 1997.

                        BUREAU OF INDIAN AFFAIRS

                               WITNESSES

JIMMIE C. BEGAY, ROCK POINT COMMUNITY SCHOOL
REXLEE JIM, ROCK POINT COMMUNITY SCHOOL
JUSTIN JONES, ROCK POINT COMMUNITY SCHOOL

    Mr. Regula. Rock Point School, Jimmie Begay.
    Mr. Jimmie Begay. Good afternoon, sir.
    Mr. Regula. How are you?
    Mr. Jimmie Begay. We're fine.
    My name is Jimmie C. Begay, school director for Rock Point 
Community School.
    Mr. Regula. What is this, a K-12?
    Mr. Jimmie Begay. It's a K-12 school system located in 
northeast Arizona.
    To my right is Rex Jim. He's our board president.
    Mr. Regula. Okay.
    Mr. Jimmie Begay. And to my left is Justin Jones, also a 
board member for the school.
    First of all----
    Mr. Regula. Do most of your kids come in by bus?
    Mr. Jimmie Begay. We are a day school. Yes, all the 
students come by bus.
    Mr. Regula. No residentials?
    Mr. Jimmie Begay. No residentials.
    Mr. Regula. But you do a lot of busing, I'm sure.
    Mr. Jimmie Begay. We do a lot of busing, yes.
    Mr. Regula. How big an area? How many members in the tribe 
that are served?
    Mr. Jimmie Begay. We just have one tribe. We have 544 
students at the school, K-12.
    Mr. Regula. Okay.
    Mr. Jimmie Begay. What we'd like to say is, first of all, 
thank you to this committee and also Congress for appropriating 
$10 million to replace a junior high and high school complex at 
60,000 square feet. We opened up in November of 1996, and the 
kids are really enjoying the building and they learn a lot. We 
updated a lot of things----
    Mr. Regula. Good teachers, I used to be a school teacher.
    Mr. Jimmie Begay. Good, okay.
    Mr. Regula. Teachers are what count.
    Mr. Jimmie Begay. That's right.
    Mr. Regula. The building is nice, but you need good 
teachers.
    Mr. Jimmie Begay. Yes, that's right. We have that, too, 
yes.
    Mr. Regula. That's good.
    Mr. Jimmie Begay. What, also, we have is a local autonomy 
under Public Law 93-638, whereby all the decisionmaking is done 
by the board. We have parental involvement, which is a plus in 
our school.
    Mr. Regula. That's good.
    Mr. Jimmie Begay. We really gear to that. The parents have 
a lot of say-so in the curriculum, and this is how it should 
be, not where----
    Mr. Regula. Do you get some of your young people who go 
beyond the high school?
    Mr. Jimmie Begay. Yes, that is another plus, where you see 
to my left and to my right, these two have went through the 
school system, graduated from high school. They went on to 
college at Princeton and Stanford, came back, and now they're 
board members, but they have their own jobs, and we continue to 
do so now where our young graduates are in colleges; they're 
coming back and we have at least 10 that came back and are now 
certified teachers in elementary and high school.
    Mr. Regula. So you have your own, many of your own group, 
your own tribe, are coming back to teach the work and serve on 
the school board----
    Mr. Jimmie Begay. Yes.
    Mr. Regula [continuing]. And work in the system?
    Mr. Jimmie Begay. Right, that's right.
    Mr. Regula. That's terrific.
    Mr. Jimmie Begay. And we continue to do so at this level at 
this time with our students, which is a plus, and we feel that 
with the many, many needs that we have, and also the funding 
level, that we did an adequate job, and we continue to do so.
    Mr. Regula. I assume you're here wanting a little extra 
money.
    Mr. Jimmie Begay. That is, we'd like to close the gaps in 
certain areas, yes.
    Mr. Regula. Somehow I figured that out.
    Mr. Jimmie Begay. Yes, that is a catch also. We run day 
buses, and the high percentage, at least 75 percent, of our 
roads are dirt roads, and adverse weather conditions----
    Mr. Regula. But you never get any mud out there, do you? 
[Laughter.]
    Mr. Jimmie Begay. Oh, no, no, not really.
    Mr. Regula. I wouldn't think so. It's pretty dry, isn't it?
    Mr. Jimmie Begay. No, we had a heavy snow this winter, 
heavy rain----
    Mr. Regula. Oh, did you?
    Mr. Jimmie Begay [continuing]. And we usually get our buses 
stuck there----
    Mr. Regula. Do you have mountain areas at all?
    Mr. Jimmie Begay. Excuse me?
    Mr. Regula. Any mountain areas?
    Mr. Jimmie Begay. We're a low flatland, but maybe 30 miles 
away we have mountains, mountain areas.
    Mr. Regula. Okay, we've got a couple of minutes yet, if 
there's something else you want to tell us about besides 
needing money. [Laughter.]
    Mr. Jimmie Begay. Well, that's one of them. Also, the other 
thing we just want to be aware that we have 49 schools that are 
still run by the Bureau of Indian Affairs.
    Mr. Regula. You'd rather run your own, wouldn't you?
    Mr. Jimmie Begay. We run our own schools. What I'm saying 
is that those 49 schools will eventually convert to a contract 
grant school basis, and the money is there for--the 
administrative cost monies are needed. Once you convert to a 
grant or contract, then the administrative costs and the 
support funds kick in. Like for all the contract rent schools, 
we have--last year got 100 percent funding. This year it's only 
94 percent.
    Mr. Regula. Are your schools located in different areas, 
like grade schools, or are they all concentrated in one 
location?
    Mr. Jimmie Begay. We are concentrated in one area.
    Mr. Regula. Okay. So the K through 12 is all at the same 
place?
    Mr. Jimmie Begay. Right, yes.
    Mr. Regula. Okay, thank you for coming.
    Mr. Jimmie Begay. Thank you.
    [The information follows:]

[Pages 224 - 227--The official Committee record contains additional material here.]


                                           Thursday, March 6, 1997.

                        BUREAU OF INDIAN AFFAIRS

                               WITNESSES

FAYE BLUE EYES, SHIPROCK ALTERNATIVE SCHOOLS, INC.
GENEVA YAZZIE, SHIPROCK ALTERNATIVE SCHOOLS, INC.
JULIETTE LARGO, SHIPROCK ALTERNATIVE SCHOOLS, INC.

    Mr. Regula. Shiprock Alternative Schools, Inc., Faye Blue 
Eyes and Juliette Largo; is that right? And Geneva Yazzie; is 
that right?
    Okay, is this a K through 12?
    Ms. Blue Eyes. Yes, it is.
    Mr. Regula. Located where?
    Ms. Blue Eyes. Shiprock, New Mexico.
    Mr. Regula. Okay, how many students do you have?
    Ms. Blue Eyes. About 400 students from--actually, we have a 
child care development center also. So we serve 6 weeks to 4 
years old with that.
    Mr. Regula. Do you have a school board----
    Ms. Largo. I'm the school board president.
    Mr. Regula. You're the president of the board. And you're?
    Ms. Yazzie. Geneva Yazzie, student council president.
    Mr. Regula. Okay, you're a student then. What are you, a 
junior, senior?
    Ms. Yazzie. I'm a senior, sir.
    Mr. Regula. A senior?
    Ms. Yazzie. Yes.
    Mr. Regula. And you're?
    Ms. Blue Eyes. I'm the executive director.
    Mr. Regula. So you're the superintendent, in effect, of the 
school.
    Ms. Blue Eyes. Yes, sir.
    Mr. Regula. Okay. I presume you need some additional 
funding.
    Ms. Blue Eyes. Well, what we're mainly here to say is to 
let you know that we need new school facilities.
    Mr. Regula. Are your buildings all at one location for the 
whole system?
    Ms. Blue Eyes. Yes, it is. Yes. And they're 50-year-old 
dormitory buildings whose interior walls were knocked out to 
convert them to classrooms.
    Mr. Regula. So you have resident students then?
    Ms. Blue Eyes. No, we don't.
    Mr. Regula. Oh, they're not.
    Ms. Blue Eyes. No.
    Mr. Regula. Then why did you say dormitories?
    Ms. Blue Eyes. The buildings were dormitories originally.
    Mr. Regula. Which are now converted?
    Ms. Blue Eyes. Yes, we just knocked down the interior 
wall----
    Mr. Regula. Okay.
    Ms. Blue Eyes [continuing]. And then it became a classroom.
    Mr. Regula. But you bus all your students in?
    Ms. Blue Eyes. The majority of them. There's another 
separate program on our campus who provides the residential for 
about 50 of our students.
    Mr. Regula. Okay.
    Ms. Blue Eyes. And what we're mainly here for, like I said, 
is our need for new school facilities. We are on the new school 
construction priority list. We got on it in 1993.
    Mr. Regula. With BIA?
    Ms. Blue Eyes. Yes, sir. And, currently, we would say we're 
probably sixth on the list, and we were very disappointed in 
the BIA that they requested for one funding for the school that 
was before us, and so we're asking----
    Mr. Regula. So they did get down to No. 5?
    Ms. Blue Eyes. No, we would be at six if that one is 
funded, which is Many Farms. So we're asking that the committee 
two priority projects on the list, so we would get our new 
school in three years.
    Mr. Regula. There are limits on the priority list, and you 
want yours on, too, is that it?
    Ms. Blue Eyes. No. On the new school construction list, 
there originally were like six, ten schools added, and we got 
added in 1993 at No. 12. Since then, those schools above us 
have been funded. So when we take them off the list, we're like 
about sixth.
    Mr. Regula. So you're getting closer.
    Ms. Blue Eyes. Yes.
    Mr. Regula. We assume you have a problem?
    Ms. Blue Eyes. Yes, we do, and some of the examples of our 
problems is, like I said, our buildings are almost 50 years 
old. We have numerous fire code violations. We no handicapped 
accessibility. We have asbestos underneath our building and in 
the walls. Our water pipes are rusted that we have to provide 
bottled drinking water for students and staff. We have numerous 
leaking roofs, and we have no gymnasium facilities. We have no 
cafeteria. So we have to use the service of another 
organization on our campus who provides that, and it's very 
unsecure.
    But what we'd like to tell the committee is, despite our 
buildings' conditions, we have an innovative instructional 
program that meets the needs of the students at the elementary 
and the high school, and we feel like we're running a 
successful program.
    Mr. Regula. Do some of your students go on to college or 
technical programs?
    Ms. Blue Eyes. Yes, they do, or the armed services.
    Mr. Regula. Do you get some of them that come back as 
teachers?
    Ms. Blue Eyes. Not as teachers yet, but as a member of the 
staff they have come back.
    Mr. Regula. Do you want to be a teacher?
    Ms. Yazzie. Yes, sir.
    Mr. Regula. Good. Good. It's a good profession.
    Ms. Yazzie. Thank you.
    Mr. Regula. You're a senior. So where will you go to 
college?
    Ms. Yazzie. San Juan College.
    Mr. Regula. Is that nearby? Can you live at home?
    Ms. Yazzie. It's not too nearby; it's 30 miles away.
    Mr. Regula. Okay. Is that a residential college you would 
go?
    Ms. Yazzie. No.
    Mr. Regula. So you'd live at home and commute to this 
school?
    Ms. Yazzie. Yes.
    Mr. Regula. Is that a four-year college or a two-year?
    Ms. Yazzie. It's a junior college, yes.
    Mr. Regula. A junior college.
    Okay. Anything else? We've got about half a minute yet.
    Ms. Blue Eyes. Okay, I'll let her have some time.
    Mr. Regula. Okay.
    Ms. Yazzie. Good afternoon, Mr. Chairman and members of the 
subcommittee. My name is Geneva Yazzie. I am a senior at 
Shiprock Northwest High School. I am also the president of the 
student council.
    Two years ago, I chose to attend Shiprock Northwest, even 
there were fancier and newer high schools around the area. Our 
school may be older and run-down, but it offers something else: 
the smaller class size and the one-on-one instruction really 
makes a difference. The teachers know us and they care about 
us. Do you know how important that can be?
    Mr. Regula. Absolutely.
    Ms. Yazzie. The teachers know that many of us have made 
mistakes in the past, and they make us believe that we can 
still learn and become a productive part of society. Many of my 
fellow classmates did not have a choice. Shiprock Northwest 
High School was their last chance, and we know a lot of us are 
making it.
    We desperately need this style of alternative education on 
the Navajo reservation. Without it, the United States could 
lose a whole generation of youth. Please provide us with the 
school facilities that we need. Thank you.
    Mr. Regula. Thank you. So you had an option to go to 
another school other than your own?
    Ms. Yazzie. Yes.
    Mr. Regula. And you chose to stay with this?
    Ms. Yazzie. Yes.
    Mr. Regula. I hope you'll go back there as a teacher.
    Ms. Yazzie. Yes, I will.
    Mr. Regula. Thank you.
    Ms. Blue Eyes. Thank you very much.
    [The information follows:]

[Pages 231 - 234--The official Committee record contains additional material here.]


                                           Thursday, March 6, 1997.

                         URBAN INDIAN PROGRAMS

                                WITNESS

RONALD D. MORTON, SAN DIEGO AMERICAN INDIAN HEALTH CENTER

    Mr. Regula. Three Affiliated Tribes, Ft. Berthold 
reservation, Mr. Mason, the chairman. They're not here. Okay.
    United Tribes Technical College.
    San Diego Indian Health Center, Ron Morton.
    Mr. Morton. Does that mean I get their time, too? 
[Laughter.]
    Mr. Regula. No, they just advised us they're on the way. So 
we'll get it on the tail-end.
    Mr. Morton. I'm here to represent the urban Indian health 
programs in the country. We have 36 urban Indian health 
programs right now. As this committee has learned in prior 
years, IHS funds us to approximately 25 percent of our need.
    Mr. Regula. You're in San Diego?
    Mr. Morton. I'm in San Diego.
    Mr. Regula. But you serve the country?
    Mr. Morton. Well, I'm speaking for all the urban programs 
in the country.
    Mr. Regula. Oh, but you deal directly with the San Diego 
problems?
    Mr. Morton. Right, right.
    Mr. Regula. Okay.
    Mr. Morton. And we've always had a tremendous need in terms 
of trying to meet the needs of the communities that we serve. 
We serve primarily Indian folks in the urban centers. We also 
serve non-Indians who come into our clinics.
    Mr. Regula. You serve them with clinics----
    Mr. Morton. That's right.
    Mr. Regula [continuing]. And they enter a hospital 
facility?
    Mr. Morton. No hospital facilities at all.
    Mr. Regula. Just clinics?
    Mr. Morton. Just clinics.
    Mr. Regula. Where do they go if they need something beyond 
the clinic?
    Mr. Morton. To the county.
    Mr. Regula. To a facility operated by the county, which in 
San Diego would be----
    Mr. Morton. Right. It would be UCSD hospital in San Diego.
    Mr. Regula. Do you pay for that service then?
    Mr. Morton. No, we don't receive any funding at all to do 
that.
    Mr. Regula. So the county absorbs the cost?
    Mr. Morton. Right, right, which is one of the points that I 
wanted to bring up. I believe that putting money into urban 
programs at this point is an investment in terms of allowing us 
to hook-up with the third party reimbursement programs that can 
offset our costs. What I'm asking for here, like everybody 
else, I'm asking for money, also thinking that it's probably 
not going to happen, but I feel like I have an obligation to 
the other programs for it.
    We need money to improve our infrastructure. Many of our 
facilities and buildings are very, very old. We have--my 
clinic, in particular, in San Diego, we're in an 80-year-old 
building.
    Mr. Regula. You get your funding from IHS?
    Mr. Morton. We get 25 percent of our funding from IHS.
    Mr. Regula. Where does the other 75 come from?
    Mr. Morton. We get--well, that's the problem. We get 
funding, some funding, through the State, and we also get FQHC 
reimbursement. But we usually operate at a deficit. If we can 
even make ends meet, a lot of the improvements that we need to 
make in terms of keeping up the pace with managed health care, 
we can't do. We manage to keep our doors open and provide 
services, but now we're faced with a situation where we have to 
bring our facilities up to JCAHO and Knox-Keene standards. We 
don't have the money to do that.
    This year IHS has recommended a budget increase of a 
million dollars.
    Mr. Regula. That is for yours?
    Mr. Morton. For urbans, right. Just for urbans, just for 
urbans countrywide.
    The National Indian Health Board recommended an increase of 
$4 million for urban Indian programs, and we appreciate their 
attention to our needs in that respect. We need this money to 
reach certification standards. We don't have--many of our 
programs are not certified under the Americans with 
Disabilities Act.
    Mr. Regula. So you're speaking really for all the urban 
Indian health centers?
    Mr. Morton. For all 36----
    Mr. Regula. They all have problems similar to yours?
    Mr. Morton. Right. And I would say probably 80 percent of 
them serve populations in the cities where they reside that 
aren't Indian as well.
    I don't want to take up a whole lot more time other than to 
recognize that this committee has helped us out in the past, 
and we appreciate that. We see a burgeoning need. We want to 
compete. We want to become self-sufficient, and the way for us 
to do that is to expand our facilities.
    I want to make another point real quickly. We could access 
volunteers and interns and get reimbursement for those services 
if we had the room, if we had the space.
    Mr. Regula. You don't even have that?
    Mr. Morton. We don't even have the space.
    Mr. Regula. Thank you.
    Mr. Morton. Thank you.
    [The information follows:]

[Pages 237 - 239--The official Committee record contains additional material here.]


                                           Thursday, March 6, 1997.

                        BUREAU OF INDIAN AFFAIRS

                         INDIAN HEALTH SERVICE

                                WITNESS

RUSSELL ``BUD'' MASON, THREE AFFILIATED TRIBES, FT. BERTHOLD 
    RESERVATION

    Mr. Regula. I understand the Three Affiliated Tribes are 
here. Mr. Mason.
    Mr. Mason. Thank you, Mr. Chairman. I'm Bud Mason, chairman 
of Three Affiliated Tribes in Ft. Berthold reservation in North 
Dakota. I have submitted my formal presentation----
    Mr. Regula. Yes.
    Mr. Mason [continuing]. But there are some concerns I have, 
Mr. Chairman, that, as you know, the northern States, 
especially North Dakota and Montana, we've really had one of 
the severest winters that we've had in 30, 40 years. We have a 
couple of concerns.
    One of the concerns is the lack of participation in 
emergency responses by Indian Health Services and the BIA. The 
response was zero.
    Mr. Regula. You mean to these disaster-type situations?
    Mr. Mason. Right, exactly. And, you know, that leads me to 
the other concern with Indian Health Services. On my way flying 
out here I was reading a report that they had for a design for 
a new IHS. It tells about how it's going to improve services.
    The problem I have, Mr. Chairman, is that the initiative 
that was put forth by Indian Health Services and their Indian 
health design team cannot be translated into additional 
services. Even though I think the Congress has been generous in 
increases, at the reservation level our services have 
deteriorated. There's been a lack of resources. Our tribe has 
had to provide dollars for transportation of patients to 
contract hospitals. We've had to, in many cases, provide 
glasses for our elderly.
    My personal experience on two occasions was a week before 
November, when I had a tooth problem, I called the IHS dental 
office and they said, ``Come back January 10th and we'll get an 
appointment for you.'' So, you know, if that happens to me as 
the chairman, you can imagine the number of people that have to 
go through the same thing.
    We've been waiting for, we're entitled to, two doctors up 
there. We've been waiting for two years for their recruitment 
of an additional doctor. We've had visits from Assistant 
Secretary Lee. We've had visits from Dr. Trujillo's office, Mr. 
Doug Black, Dr. Ben Wagon, that produced zero.
    During this period of the disaster that was declared by the 
President, we had some problems. The tribe had to transport 
dialysis patients and got no response by Indian Health 
Services. Also, there was no response in this whole disaster 
situation by the Bureau of Indian Affairs. So, you know, 
anything that the Indian Health Services or BIA can proclaim as 
far as their successes, unless it can be translated into 
additional services or resources for us, it's meaningless.
    Mr. Regula. You want dollars.
    Mr. Mason. Exactly, we want the resources, and we can 
manage the resources. We have the capabilities. We've been 
waiting for two years for our tribal share of the 638 contract. 
About 19 entities of the Bureau of Indian Affairs----
    Mr. Regula. And you do represent three tribes?
    Mr. Mason. Three Affiliated Tribes, yes.
    Mr. Regula. And they collectively deal with the health 
service problems?
    Mr. Mason. Yes, they do.
    Mr. Regula. And the IHS, then, theoretically funds this 
central point?
    Mr. Mason. Right.
    Mr. Regula. Do you have physicians or do you just have the 
clinics?
    Mr. Mason. We have the clinic. We don't have a hospital. We 
have a clinic, but we have one physician, where the tribe is 
actually entitled to two.
    Mr. Regula. Do you have three clinics, one for each tribe, 
or what?
    Mr. Mason. No, one single clinic.
    Mr. Regula. So the tribes are closely affiliated?
    Mr. Mason. Right, they've been together since the middle 
1800s.
    Mr. Regula. Oh, I see, the reason, the tribes live on one 
reservation?
    Mr. Mason. Right, exactly.
    Mr. Regula. Oh, I see, and so you basically share 
everything.
    Mr. Mason. It's really a sad situation because we can go 
four miles into New Town itself to a non-Indian clinic and we 
are able to see a physician, those of us that have insurance, 
within 20 minutes, but if you go to Indian Health Services, 
you're lucky if you get an appointment; if you do, you're going 
to sit there for three or four hours.
    All of these initiatives that I see coming out from the 
Bureau or Indian Health Services means zero to us.
    Mr. Regula. I hear you.
    Mr. Mason. I think if they could manage their resources a 
lot better or allow us to manage those resources, we could do a 
heck of a lot better job than they could.
    Mr. Regula. I hear you. Thank you very much.
    Mr. Mason. Thank you.
    [The information follows:]

[Pages 242 - 245--The official Committee record contains additional material here.]


                                           Thursday, March 6, 1997.

                        BUREAU OF INDIAN AFFAIRS

                                WITNESS

DAVID M. GIPP, UNITED TRIBES TECHNICAL COLLEGE

    Mr. Regula. The United Tribes Technical College, Mr. Gipp, 
president.
    Mr. Gipp. Thank you, Mr. Chairman.
    Mr. Regula. Yes, sir.
    Mr. Gipp. We request that our testimony be made a part of 
the record.
    Mr. Regula. It will be, all of the testimony today is part 
of the record. Go ahead.
    Mr. Gipp. I'll be brief and to the point, Mr. Chairman.
    Mr. Regula. That's good.
    Mr. Gipp. Our request concerns United Tribes, which is 
located in Bismarck, North Dakota, and it is an intertribal 
post-secondary vocational institution that's been in operation 
since 1969.
    Mr. Regula. Okay.
    Mr. Gipp. And we're requesting in the Fiscal Year 1998 
budget an additional $728,000 to the request already made by 
the Bureau of Indian Affairs, which is about $1.8 million, for 
basic operations of the institution and for services to the 
children and families, adults, that we serve on the United 
Tribes campus.
    We operate on an old military fort that was built around 
the turn of the century.
    Mr. Regula. Is it a two-year program?
    Mr. Gipp. It's one- and two-year programs that we provide.
    Mr. Regula. Do you give any transfer credits or are they 
all terminal?
    Mr. Gipp. We have both terminal and some transfer programs.
    Mr. Regula. How do you get along placing your students? Do 
you do pretty well?
    Mr. Gipp. We have an 81 percent placement rate right now.
    Mr. Regula. That's pretty good.
    Mr. Gipp. That's not our total statistics for the past 
Fiscal Year or for the past year, but it averages at least 80 
percent or better.
    Mr. Regula. You just serve the tribal members?
    Mr. Gipp. We serve up to 40 different tribes from our own 
United States.
    Mr. Regula. Oh, I see.
    Mr. Gipp. We have--obviously, most of the students and 
families come from North Dakota, South Dakota, and Montana.
    Mr. Regula. And you're funded with Federal funds? Do you 
ever have any tuition?
    Mr. Gipp. We're funded with Federal funds and we do have a 
tuition. So we offset some of those costs through our tuition 
rates.
    Mr. Regula. Do you have residential? You must have 
residential, then, if they come from----
    Mr. Gipp. Right. We're on a 205-acre campus. It's an old 
military fort.
    Our problem is we don't have enough housing because our 
average waiting list can be anywhere from 175 to 200 at any one 
time.
    Mr. Regula. Yes. How many students do you have?
    Mr. Gipp. About 310 adults on average on a 12-month basis 
and about 200 children, 216 children this year.
    Mr. Regula. How do you get children? I thought this was 
post-high school.
    Mr. Gipp. Well, we are post-secondary and we're vocational, 
but we serve American Indian families principally. In other 
words, they come with their families. So we do kind of a 
comprehensive set of training and education for both the 
children and the adults.
    Mr. Regula. Does that take the place of the regular school 
curriculum or is this in addition?
    Mr. Gipp. No, no, in addition to--through our budget, we 
provide, for example, two early childhood centers, a nursery 
and a pre-school, and then we have other funds available for a 
K-through-8 elementary school right on that campus. So it's 
pretty well--environmentally, we try to keep the whole family 
together, and we try to rebuild a lot of those not only skills, 
but try to, I think, reinforce the family values.
    Mr. Regula. I assume by having the facility for children it 
allows some of the younger parents to get some training 
themselves.
    Mr. Gipp. Oh, absolutely, especially single-parent 
mothers----
    Mr. Regula. Yes, right.
    Mr. Gipp [continuing]. And single-parent fathers--maybe one 
or two children, small infants, and a lot of times we're taking 
care of the children or doing things curriculum-wise with their 
children while the adults are pursuing their vocational skills.
    Mr. Regula. It sounds like a good program.
    Mr. Gipp. So it's a good, comprehensive program, Mr. 
Chairman.
    Mr. Regula. Yes.
    Mr. Gipp. In any case, that is our request, and we have 
detailed each of the particulars. I just want to add that the 
Bureau has only increased us by 1.6 percent from the period 
1990 to Fiscal Year 1997. So we are in great need of some kind 
of equitable kind of increase. Our staff and faculty, in terms 
of what we pay them, we're anywhere from $5,500 to $8,800 less 
than the average faculty member at a public institution.
    Mr. Regula. Do you get Indians who come back to be on your 
faculty?
    Mr. Gipp. Oh, yes. In fact, my academic dean is a former 
graduate. There are a number of graduates that----
    Mr. Regula. That's good.
    Mr. Gipp [continuing]. Go back to the other tribes for 
various kinds of either employment or that sort of thing.
    Mr. Regula. Good. Thank you very much.
    Mr. Gipp. Thank you, Mr. Chairman.
    [The information follows:]

[Pages 248 - 251--The official Committee record contains additional material here.]


                                           Thursday, March 6, 1997.

                        BUREAU OF INDIAN AFFAIRS

                         INDIAN HEALTH SERVICE

                               WITNESSES

BILL STERUD, PUYALLUP TRIBE OF INDIANS
MIKE TURNIPSEED, PUYALLUP TRIBE OF INDIANS

    Mr. Regula. We have the Puyallup Tribe of Indians.
    Mr. Sterud. Puyallup.
    Mr. Regula. Puyallup, okay, I'm getting a lesson in 
pronunciation today.
    Mr. Sterud. Mr. Chairman, my name is Bill Sterud, tribal 
chairman. My council and its many members who are with me today 
thank the committee for their past support of many tribal 
issues and the interest in today's testimony. We would like to 
share our thoughts and concerns and request assistance in 
reaching objectives of significance to the Congress, to the 
tribe, and the 20,000-plus Indians in our urban service area.
    But, first, let me introduce ourselves, who we are. For 
many thousands of years, my people lived in a small part of the 
great Pacific Northwest. We are the people of the water. The 
oceans and the rivers are our friends.
    Mr. Regula. You're in Washington?
    Mr. Sterud. The State of Washington.
    Mr. Regula. Yes.
    Mr. Sterud. Our reservation encompasses portions of the 
city of Tacoma, all of the port of Tacoma, the cities of Feif, 
Puyallup, Milton.
    Mr. Regula. So you have people living on-reservation and 
off-reservation both?
    Mr. Sterud. Correct. There's a wide range of peoples that 
live within our reservation boundaries.
    Over the years much of our land has been lost. History 
notes the loss of our lands, our homes, and our villages.
    Mr. Regula. Lost by purchase?
    Mr. Sterud. Theft, some purchases, congressional acts. This 
was taken care of in a major land settlement in 1988, and we've 
gotten portions back. So we're working with the good people of 
the different jurisdictions in our area.
    Mr. Regula. Okay.
    Mr. Sterud. The natural environment of our reservation 
still remains tainted and poisoned by a host of wastes. We have 
a major superfund site within our reservation boundaries.
    Mr. Regula. Are we working on it, we, the government?
    Mr. Sterud. We as a government are moving on it really 
hard. We have spent tens of thousands of dollars, along with 
the other governments, in cleaning up our reservation.
    Mr. Regula. It doesn't sound like you're making much 
progress. I've got a superfund site in my district, and about 
all we've gotten is lawyers and consultants and engineers, and 
not much cleanup. I'll bet you've had the same problem.
    Mr. Sterud. We have the same problem.
    Mr. Turnipseed. We have the same problem.
    Mr. Regula. Yes, all right, that's what I figured.
    Mr. Sterud. I guess I have things written here, and maybe--
--
    Mr. Regula. Just tell me, What do you need?
    Mr. Sterud. Okay. Well, we have--our headquarters was built 
in 1924. It was an Indian hospital. It's----
    Mr. Regula. Tribal headquarters?
    Mr. Sterud. Tribal headquarters. It's been totally--it's 
been--what's the word?----
    Mr. Turnipseed. Condemned.
    Mr. Sterud [continuing]. Condemned. A winter storm could 
blow it down. We have close to 200 employees that work in it. 
The problem with it is it's fully tainted with asbestos.
    Mr. Regula. So you need money for a new headquarters?
    Mr. Turnipseed. To tear down the present building, which 
is, like he said, full of asbestos, and to rebuild, and the 
thing that's the most disturbing, Mr. Congressman, is the fact 
that everybody is passing the buck here. It was originally 
built by the BIA, and they now say it's a Department of Indian 
Health problem. Of course, Indian Health says, no, it's not our 
problem; we had nothing to do with it. EPA says, yes, you have 
a very serious problem; you have asbestos; your building is 
condemned, but they at the same time have nothing that they----
    Mr. Regula. Okay, you need a headquarters. What else do you 
need?
    Mr. Sterud. We have a big tribal college. It's a college 
that we've had for three years that is totally funded by the 
Puyallup Tribe from our enterprises and our taxes, and we'd 
like some help possibly from the Federal----
    Mr. Regula. No Federal money?
    Mr. Sterud. No Federal money whatsoever.
    Mr. Regula. Is this a post-high school facility?
    Mr. Sterud. Yes. Yes, it is.
    Mr. Regula. Two-year? Four-year?
    Mr. Turnipseed. Two-year.
    Mr. Regula. Two-year? How's your placement? Do you get your 
students, graduates, jobs?
    Mr. Turnipseed. Yes. We've had--last year was our first 
graduation. We had three graduating members. They all graduated 
in science. They're now all three attending the University of 
Washington. Our most difficult aspect is the fact that we don't 
have funding to actually make the school work. We have to work 
with Pierce College out of Tacoma, Washington, and through 
that, they are a recognized community or accredited community 
college. We were in the process of our accreditation and then 
they changed the laws on us. So we're in a catch-22: we can't 
get funding because we're not accredited; we can't get 
accredited until we have funding. So if we could help somehow 
get that----
    Mr. Regula. We'll take a good look at it.
    Mr. Sterud. Okay. I understand everything you're up 
against. Like I said, I really appreciate your sitting here and 
listening to our concerns.
    Our law enforcement, we live in an area that's highly 
organized and with the gangs problem and----
    Mr. Regula. Yes, I understand.
    Mr. Sterud [continuing]. We're overtaxed. We have local law 
enforcement agreements with the various governments and stuff.
    I guess, sir, I can tell that you're awfully busy, and I 
appreciate your listening to us. We have our written testimony, 
which goes into depth and detail and the numbers, attached.
    Mr. Regula. Okay. We're scheduled until 4:40 this 
afternoon. So we do have quite a lineup here.
    Mr. Sterud. Thank you very much.
    Mr. Turnipseed. Thank you.
    [The information follows:]

[Pages 255 - 258--The official Committee record contains additional material here.]


                                           Thursday, March 6, 1997.

                        BUREAU OF INDIAN AFFAIRS

                         INDIAN HEALTH SERVICE

                               WITNESSES

GERALD J. JONES, PORT GAMBLE S'KLALLAM TRIBE
MARIE HERBERT, PORT GAMBLE S'KLALLAM TRIBE
SHERYL SCOTT, PORT GAMBLE S'KLALLAM TRIBE

    Mr. Regula. Port Gamble S'Klallam--it's the second time on 
that one. Maybe the third time I'll get it right. [Laughter.]
    Okay, Mr. Jones.
    Mr. Jones. Port Gamble S'Klallam, yes.
    Mr. Regula. Port Gamble S'Klallam. Okay, tell us your 
problems.
    Mr. Jones. Good afternoon, Mr. Chairman. I'm here today 
with the tribal secretary, Marie Herbert, and our tribal 
education coordinator, Sheryl Scott. We appreciate the 
opportunity to present testimony on the Fiscal Year 1998 
budget.
    Our highest priority is that Congress fund an additional 
$415,000 to construct a tribal education center and library 
expansion. This project will benefit the whole north end of the 
Kitsap County. Little Boston Branch was the first county 
library in the State to be built on an Indian reservation.
    Mr. Regula. You need more for the library?
    Mr. Jones. We need more for the expansion of it. We have a 
little library now, but we need----
    Mr. Regula. Is the library connected to a school?
    Mr. Jones. We don't have a school. That's why we're putting 
in for a construction fund.
    Mr. Regula. Where do your students go?
    Ms. Scott. Public school.
    Mr. Regula. Public school, and then they get reimbursed?
    Mr. Jones. Yes.
    Mr. Regula. And you want a library for just the tribe----
    Mr. Jones. We have the library.
    Mr. Regula. But you want to expand it?
    Mr. Jones. We just want to expand it. We don't have enough 
space for--any computers or anything like that that we want to 
add to it, we don't have any space for that.
    Mr. Regula. Okay.
    Mr. Jones. We need just to expand that.
    Mr. Regula. I see you have a court system, a fisheries 
commission, Indian health--you have a number of things here to 
consider.
    Mr. Jones. That's true, yes. We'd like to support those, 
too.
    Marie is going to talk a little bit about the expansion of 
the county library.
    Mr. Regula. County library? Does this serve more than just 
the Indian tribes?
    Ms. Herbert. Yes, it does. It serves the north end of the 
Kitsap peninsula----
    Mr. Regula. Then does the county put in some money?
    Ms. Herbert. Yes, they do.
    Mr. Regula. And the State?
    Ms. Herbert. Not----
    Ms. Scott. I would assume through the county.
    Mr. Regula. Through the county? You want some money to 
enhance what they do there?
    Ms. Scott. Right.
    Mr. Regula. Okay.
    Ms. Herbert. Nearly 25 years ago, the Port Gamble S'Klallam 
Tribes and the joint----
    Mr. Regula. Tell me about it; don't read it.
    Ms. Herbert. Okay. They joined a cooperative effort with 
the Kitsap County regionwide area in Washington State in 
constructing a library on the reservation, and it was one of 
the first in the State. This library has become a valuable 
resource not only to our tribal people and our students, but to 
the north end, the residents, surrounding residents.
    Mr. Regula. So non-Indians use it?
    Ms. Herbert. Correct.
    Mr. Regula. Do you work there?
    Ms. Herbert. I don't. I work at the tribe as a cultural 
resources director, and I use it myself.
    Mr. Regula. You use it and you probably direct your folks 
to use it. Are you folks computerized? Or are you still using 
stacks?
    Ms. Scott. The computer.
    Mr. Regula. The computer; I thought so.
    Ms. Herbert. Yes, and this project will include an addition 
which will expand the library and join it to the new education 
center.
    Mr. Regula. Have you made an application to BIA for some 
money?
    Ms. Scott. We receive self-governance funds, and what we've 
done with those is to expand certain services for the tribal 
members K through 12, as well as post-secondary. And so we went 
from $30,000 to $150,000, and that money is still stretched 
with the staff that we've got. We provide an education clinic, 
post-secondary funding. We provide junior high as well as 
elementary, and that $150,000 doesn't go very far.
    Mr. Regula. It sounds to me like you've stretched it pretty 
much, if you're doing all those things.
    Ms. Scott. We have some very dedicated people.
    Mr. Regula. You must have people who care.
    Ms. Scott. Yes, we do.
    Mr. Regula. That's what makes anything successful; you've 
got to care.
    Well, we'll try to do what we can. I can't make any 
promises. We have a pretty tight budget this year.
    Mr. Jones. And we have a reservation-based higher education 
program also. We found out that our tribal members wasn't 
getting to college, so we brought the college to the 
reservation, and that seemed to work out real good.
    Mr. Regula. Good. Okay.
    Mr. Jones. We're getting more college graduates now than we 
ever had before.
    Mr. Regula. And that makes the library important.
    Ms. Scott. Yes, it's very important.
    Mr. Regula. Thank you very much.
    Mr. Jones. Yes. Thank you, Mr. Chairman.
    Mr. Regula. Do you get volunteers to help you in the 
library?
    Ms. Scott. Actually, we get volunteers to help us with the 
tutoring as well.
    Mr. Regula. Oh, is that right?
    Ms. Scott. We access all the resources that we can----
    Mr. Regula. That's wonderful.
    Ms. Scott [continuing]. But still we need more space.
    Mr. Regula. So you do some tutoring in the library?
    Ms. Scott. Well, most of the tutoring occurs within the 
tribal center.
    Mr. Regula. Oh, that's a separate building?
    Ms. Scott. Right, we're right next to the library.
    Mr. Regula. Yes. Right. So it's a consolidated center.
    Ms. Herbert. Yes.
    Ms. Scott. The tribe built the library building.
    Mr. Regula. That's wonderful. Okay, thank you for coming.
    Mr. Jones. If you can do it, we'd appreciate it.
    Mr. Regula. I understand.
    Mr. Jones. Thank you.
    [The information follows:]

[Pages 262 - 264--The official Committee record contains additional material here.]


                                           Thursday, March 6, 1997.

                        BUREAU OF INDIAN AFFAIRS

                               WITNESSES

BILL FRANK, JR., NORTHWEST INDIAN FISHERIES COMMISSION
JAMES ANDERSON, NORTHWEST INDIAN FISHERIES COMMISSION
BOB KELLEY, NORTHWEST INDIAN FISHERIES COMMISSION

    Mr. Regula. Okay, Swinomish.
    Okay, who's here from Swinomish? No one? [Laughter.]
    Well, at least I had some help on the name back here. 
[Laughter.]
    Okay, I wouldn't know how to pronounce it anyhow. So we'll 
go down to Sauk-Suiattle.
    They're not here?
    Hoopa Valley Tribal Council. There we go. Let's see, you 
were scheduled at 2:40. Do you want to wait for Mr. Riggs?
    Ms. Sherman. That would be fine.
    Mr. Regula. Okay, if you don't mind, he'd asked if he could 
introduce you. Then he'll, of course, become an advocate for 
you. So I think that would be a good idea. [Laughter.]
    Okay, Jamestown S'Klallam. Hey, did I get it right? 
Wonderful. But they're not here? They will be, okay.
    Northwest Indian Fisheries. Okay, that was an easy one.
    Mr. Frank. Good morning, Mr. Chairman. My name is Billy 
Frank, and with me today I have Jim Anderson, executive 
director, Northwest Indian Fisheries Commission, and on my 
right is Bob Kelley.
    Mr. Regula. Northwest? Is this Oregon? Washington?
    Mr. Frank. No, the State of Washington.
    Mr. Regula. The State of Washington.
    Mr. Frank. Puget Sound and along the Pacific Coast there.
    Mr. Regula. Okay, do you serve several tribes?
    Mr. Frank. Twenty tribes.
    Mr. Regula. Twenty tribes.
    Mr. Frank. Yes.
    Mr. Kelley. Some are the last few that you just mentioned.
    Mr. Frank. Yes, some of our member tribes are in the 
building.
    Mr. Regula. Okay. You supervise the fishing----
    Mr. Frank. We coordinate with the tribes, and we all come 
in and kind of speak as one voice in fisheries management.
    Mr. Regula. Okay. Does this include sport as well as 
commercial?
    Mr. Frank. It includes all of the fishery in the State of 
Washington. We're co-managers with the fishery in the State of 
Washington.
    Mr. Regula. You work with the State?
    Mr. Frank. Yes, side-by-side with the State and the Feds.
    Mr. Regula. Does the U.S. Fish and Wildlife Service get 
involved with you?
    Mr. Frank. Right, yes. We've got a three-part management. 
It's the Federal, the State, and the tribes.
    Mr. Regula. And what are you asking for now?
    Mr. Frank. Well, we're just here asking for our funding 
to--we'll just hit on a little bit of the funding, but since 
1983--or 1973 or 1974--when the decision came down, it 
clarified the treaties of the Northwest. Well, it formed the 
Northwest Indian Fish Commission, and all of our tribes. We got 
the infrastructure from the Congress to put our management in 
gear, and this is why we're----
    Mr. Regula. Does your commission have members from 
different tribes?
    Mr. Frank. Yes. Yes, we have 20 tribes within Puget Sound 
and along the Pacific Coast.
    Mr. Regula. And you are the head of the commission?
    Mr. Anderson. Executive director, and Billy is the 
chairman.
    Mr. Regula. Yes.
    Mr. Frank. Yes.
    Mr. Regula. You deal with salmon?
    Mr. Frank. Yes.
    Mr. Anderson. Yes.
    Mr. Regula. And some of the problems that go with that?
    Mr. Frank. Right.
    Mr. Anderson. Unfortunately.
    Mr. Frank. We have several hundred rivers and tributaries 
into the Puget Sound----
    Mr. Regula. Is that right?
    Mr. Frank [continuing]. And along the Pacific Coast, Strait 
of Juan de Fuca.
    Mr. Regula. It's all done by the State, I assume. I mean, 
the right to fish, you have to get a fishing license from the 
State?
    Mr. Anderson. No.
    Mr. Regula. Not the Indians, but the non-Indians?
    Mr. Frank. The non-Indians, yes.
    Mr. Regula. Yes.
    Mr. Frank. And we coordinate that fishery with the State, 
all of the fisheries----
    Mr. Regula. Do you control lands or waters on which non-
Indians fish?
    Mr. Frank. We have on-reservation and off-reservation. The 
area is mostly all of Puget Sound and along the Pacific Coast. 
We work side-by-side with the State of Washington in all----
    Mr. Regula. Is fishing an important part of your economy in 
terms of jobs and--?
    Mr. Frank. Yes, fishing and shellfish and timber--you know, 
all of our natural resource out there, and that's kind of 
where----
    Mr. Regula. So you're involved in timber as well as 
fishing?
    Mr. Frank. The tribes are.
    Mr. Regula. But your commission is not?
    Mr. Frank. Well, we have initiatives that we take forward 
through the commission, the timber, fishing, wildlife, 
initiative that brings the industry together and the tribes 
together, and set out initiatives to take care of the habitat 
on a sustainable forest. You know, we want to keep everybody 
there.
    Mr. Regula. So you have responsibility for managing the 
habitat to ensure that you're going to have game and fish in 
the future?
    Mr. Anderson. That's right.
    Mr. Frank. Everything. And, you know, we've depended upon 
the Congress to do our funding. Like you, I live on the mouth 
of the Mesquale River, and we've just in through a 500-year 
flood, and you've got a 500-year flood right now.
    Mr. Regula. It's the other end of the State from me, but 
we're hearing about it.
    Mr. Frank. That's right. But we've got everything pretty 
well laid out for the committee. We're back here every year 
trying to support our problems----
    Mr. Regula. I assume you're here for some additional 
funding?
    Mr. Frank. Yes. And, Bob, do you want to----
    Mr. Kelley. The Northwest Indian Fish Commission is, once 
again, seeking your help in designation $400,000 of the BIA 
jobs-in-the-woods funding for tribal/State wild stock 
initiative, and the current budget is $3 million. The monies 
are basically used to document current habitat conditions in 
each of our watersheds. Again, there's several tribes involved 
here.
    These stock and habitat assessments will help form the 
development in habitat protection and restoration strategies 
that will be related to the State's response to the Endangered 
Species Act----
    Mr. Regula. Will you be happy with what you had last year?
    Mr. Frank. Yes.
    Mr. Kelley. Yes.
    Mr. Regula. I think Mr. Dicks will be a strong advocate for 
you.
    Mr. Kelley. Okay.
    Mr. Anderson. He's a strong advocate for everything. 
[Laughter.]
    Mr. Regula. He's not a shrinking violet. [Laughter.]
    Mr. Frank. You and him have been working together a long 
time.
    Mr. Regula. Yes, Norm and I get along very well.
    Okay, does that kind of cover it?
    Mr. Kelley. Yes, that covers it.
    Mr. Regula. Okay, thank you very much.
    Mr. Anderson. I have one thing I'd like to address.
    Mr. Regula. Okay.
    Mr. Anderson. In addition to the wild stock monies earmark, 
there are some housekeeping items that need to be corrected, 
and one of those there have been some errors in the Pacific 
Salmon Treaty funding and the implementation monies. In the 
calculations of those monies there's been some shifting 
around----
    Mr. Regula. Who does that, though? I don't know that we do.
    Mr. Anderson. It's within the administration's book, and 
what happened is that their numbers are wrong and they need to 
be corrected.
    Mr. Regula. But how do we do that, though, since that's 
their action, not ours?
    Mr. Anderson. I don't know if you can do a technical 
correction or some sort--it's not--if you asked them, it's not 
a deliberate reduction; it was a mistake on their part.
    Mr. Regula. Well, do they contemplate correcting it, since 
they admit it?
    Mr. Anderson. We are talking to them----
    Mr. Regula. Okay.
    Mr. Anderson [continuing]. And wanted the committee to be 
aware of the particular situation.
    Mr. Regula. I suggest you talk to Mr. Dicks, and he, of 
course, in turn, will interface with them.
    Mr. Anderson. Yes, okay. Thank you.
    Mr. Regula. Okay.
    Mr. Frank. Mr. Chairman, we have two tribes that want us to 
at least support them on their funding. One is at the lower end 
of Hood Canal, the Skikomish Tribe, and they want their funding 
to keep putting their watershed together and address some of 
the hydroelectric--one hydroelectric project down there. And 
then the Elwha Tribe up at the end of----
    Mr. Regula. Of the dam?
    Mr. Frank. Yes, two dams.
    Mr. Regula. That's a tough one.
    Mr. Frank. Yes, it's a tough one, and we have--but we're 
looking out into the future putting our watersheds back in 
shape and restoring our salmon runs, and so on.
    Mr. Regula. That's essential to your fishing programs.
    Mr. Frank. Yes, yes.
    Mr. Regula. Is there an overall diminution of salmon in the 
area?
    Mr. Frank. Yes, but we work very proactive in all of our 
initiatives that we put forward, and we try to work with our 
neighbors and everyone on the watershed.
    Mr. Regula. Good.
    Mr. Frank. Thank you very much, Mr. Chairman.
    Mr. Regula. Okay, thank you.
    [The information follows:]

[Pages 269 - 272--The official Committee record contains additional material here.]


                                           Thursday, March 6, 1997.

                        BUREAU OF INDIAN AFFAIRS

                         INDIAN HEALTH SERVICE

                               WITNESSES

DAVE W. WHITENER, SQUAXIN ISLAND TRIBE
ANDY WHITENER, SQUAXIN ISLAND TRIBE
DAVE BURNETT, SQUAXIN ISLAND TRIBE

    Mr. Regula. Squaxin.
    Okay, you're located where, what State?
    Mr. Dave Whitener. The State of Washington.
    Mr. Regula. We've got a lot of State of Washington here.
    Mr. Dave Whitener. Yes. We're right on the southern end of 
Puget Sound, end of the line.
    Mr. Regula. End of the line.
    Mr. Dave Whitener. I have with me the treasurer, Andy 
Whitener, and Executive Director Dave Burnett.
    Mr. Regula. You're interested in health issues, I gather?
    Mr. Dave Whitener. Yes, we have TPA issues, health issues, 
trust responsibility, shellfish management, and contract 
support that we'd like to talk to you about.
    As far as TPA is concerned, we think there's some 
possibility of what's been referred to as means testing that's 
on the horizon. There's been an attempt to tie tribal funding 
to income-producing activities like----
    Mr. Regula. You don't think we should do that?
    Mr. Dave Whitener. I don't think you should do that, not 
for us. For the casino, we have----
    Mr. Regula. Oh, you have a casino?
    Mr. Dave Whitener. Right, we have a small casino, and----
    Mr. Regula. How small? How much does it produce for the 
tribe?
    Mr. Dave Whitener. Nothing.
    Mr. Regula. What's that?
    Mr. Dave Whitener. It's nothing. We're just breaking even, 
and we're actually----
    Mr. Regula. You're just providing entertainment and no 
profit; is that it?
    Mr. Dave Whitener. A little of----
    Mr. Burnett. A hundred jobs.
    Mr. Regula. A hundred, oh, okay. Do you run it yourself?
    Mr. Burnett. Yes.
    Mr. Regula. Okay. Well, that's significant then.
    Mr. Dave Whitener. There's about 400 employees. That 100 
jobs represents roughly a third of the employment and it 
represents also about $2 million in salary to the tribal 
families.
    We'd like you to consider the fact that the balance of it 
benefits non-tribal members in the local community.
    Mr. Regula. There may be talk of means testing, but I don't 
think that's coming in the near future.
    Mr. Dave Whitener. Okay, that's good.
    Mr. Regula. That's my impression anyway.
    Mr. Dave Whitener. With trust responsibility, we're 
interested in this new Office of Trustee. It looks a little bit 
like----
    Mr. Andy Whitener. Paul Holman.
    Mr. Dave Whitener [continuing]. Paul Holman, Office of 
Special Trustee.
    Mr. Regula. Staff advises me he will be in for a hearing 
with us.
    Mr. Dave Whitener. Today?
    Mr. Regula. No, not today.
    Mr. Dave Whitener. Three weeks from now? Well, we're a 
little concerned that there hasn't been very much put into 
this, and the worst part to us is that it includes more than 
just an individual needing money and loaning stuff.
    Mr. Regula. So you have some concerns about it?
    Mr. Dave Whitener. Yes, it sounds a little bit like a back-
door approach determination to us.
    Mr. Regula. Okay. If you have some questions you'd like us 
to ask him, why, if you get them to us, we will.
    Mr. Dave Whitener. Okay.
    Mr. Regula. It might be useful to you to find out exactly 
what's intended by this move. That's news to me. You know, I'm 
not aware at this point. That's why we're having the hearing.
    Mr. Burnett. And then he's talking about setting up like a 
banking enterprise that oversee all trust assets for tribes 
across the Nation, and it's just kind of--we're just not really 
sure what this is.
    Mr. Regula. I think what's happening is that we've had 
problems in the management of the BIA historically, and we're 
trying to figure out how we can make this more effective in 
providing the services, get the money on the ground where the 
people are, and not so much in bureaucracy.
    Mr. Burnett. And I think the concern of other tribal 
leaders would be simply along the lines of--because management 
of IAM sounds great, and if he's talking about making loans to 
tribes, I'm sure we'd line up with applications in our hand. 
But the thought of having a bank managing for us in fisheries 
resources and----
    Mr. Regula. You don't want somebody in Washington taking 
over your responsibility is the bottom line.
    Mr. Burnett. Right.
    Mr. Dave Whitener. Realty doesn't seem like a good thing to 
put in a bank.
    Mr. Regula. Well, we'll pursue these when we have a trustee 
here.
    Mr. Dave Whitener. We're one of the tribes that was 
involved in the U.S. v. Washington, 1974, and so we have had 
our shellfish and fishing rights upheld, and we'll continue to 
do that. The recent shellfish decision expanded our management 
needs, and we manage for about 150 shellfish gatherers. We want 
to see the continued funding.
    We also would like to say that we're supportive of any kind 
of mediation that might occur, so that actually the longer you 
can stay out of court, the better we like it. It's going to go 
to the Ninth Circuit if we don't get a mediation. But we still 
will need expanded management funding. So that's one of our 
needs.
    Mr. Regula. You have all this, I think, in your statement.
    Mr. Dave Whitener. We want to tell you a success story 
about Indian health.
    Mr. Regula. Okay.
    Mr. Dave Whitener. We contract with Indian Health Services. 
Because of that, we're able to expand our delivery of service 
to tribal members. Because of some creative funding, we've been 
able to negotiate a long-term loan for a really nice new 
building, and we actually tripled our patient operation----
    Mr. Regula. Do you have it pretty well staffed?
    Mr. Dave Whitener. It is pretty well staffed, but we're 
still in the process of getting another nurse and a full-time 
dentist, I believe it is.
    Mr. Burnett. And, actually, we thought we had a full-time 
staff until we opened up, and the numbers shot up, and we're 
thinking right now we probably need another at least part-time 
care provider.
    Mr. Regula. Are you providing beds?
    Mr. Burnett. No, it's an outpatient clinic.
    Mr. Dave Whitener. Contract health services is all.
    Mr. Regula. Right, right. Okay, anything else?
    Mr. Dave Whitener. We just have one more thing, and that, 
and that's contract support funds. For some reason or another, 
we never get the full amount and we never can get the Bureau of 
Indian Affairs to come up with a response that somehow will 
provide that for us.
    Mr. Regula. Well, I might suggest you have Mr. Dicks talk 
to the BIA because, you know, we don't get involved in 
management decisions; we obviously can't. Therefore, it becomes 
important that you have somebody intercede for you on your 
peculiar local situation.
    Okay, thank you very much.
    Mr. Dave Whitener. Thank you very much.
    [The information follows:]

[Pages 276 - 279--The official Committee record contains additional material here.]


                                           Thursday, March 6, 1997.

                        BUREAU OF INDIAN AFFAIRS

                         INDIAN HEALTH SERVICE

                                WITNESS

JAMES D. ROBERTS, SAUK-SUIATTLE INDIAN TRIBE

    Mr. Regula. Sauk-Suiattle Indian Tribe, Mr. Roberts, 
chairman. Your statement's part of the record, and we'll 
appreciate it if you'll summarize. You've got about five 
minutes.
    Mr. Roberts. Okay. I'm James Roberts. I'm chairman of the 
Sauk-Suiattle Indian Tribe with the State of Washington. I 
appreciate this opportunity to present our testimony before 
this subcommittee today. I'll just kind of summarize our tribal 
priorities.
    We're requesting $190,000 increase in our tribal base 
budget for operations from BIA TPA tribal government account. 
Due to oversight failure of their Portland area office, the 
Suak-Suiattle Tribe was not funded at the minimum level as a 
small and needy tribe designation in 1995 and 1996. The support 
infrastructure needs a core staff and include a planner/grants 
writer and business development/management assistant and office 
equipment.
    Our No. 2 priority is an increase to $75,000 in the IHS 
budget for small and needy tribes, and we need a designation 
status also.
    Mr. Regula. What's the size of your tribe?
    Mr. Roberts. Two hundred members.
    Mr. Regula. Do you use public schools?
    Mr. Roberts. Yes.
    Mr. Regula. And do you have a reservation?
    Mr. Roberts. Yes.
    Mr. Regula. Do you live there?
    Mr. Roberts. Yes.
    Mr. Regula. I see. And you use contract health services 
then?
    Mr. Roberts. Yes.
    Mr. Regula. And your people, their jobs are working around 
in the economy in the area; is that correct?
    Mr. Roberts. Yes, we live in a timber-depressed community.
    Mr. Regula. So the job base is in the timber industry then; 
is that right?
    Mr. Roberts. Yes, but it's basically nonexistent.
    Mr. Regula. Yes, you're in trouble right now. Okay. 
Anything else you want to tell us?
    Mr. Roberts. Our third priority is an increase of $200,000 
in our law enforcement to secure office space, hire and 
purchase equipment for two officers, a probation/truant 
officer, and a short-term holding facility.
    Our next priority is an increase of $375,000 to develop 
economic enterprises in our tribal government account; $20,000 
increase in higher education scholarships; $150,000 is our 
sixth priority for our tribal base budget to support a tribal 
court prosecutor and public defender, a court clerk, and court 
operations.
    We're asking for an additional $75,000 to our tribal budget 
base for Indian child welfare. We currently have only one 
Indian child welfare--like with our law enforcement, we only 
have one person to do all the stuff. With our law enforcement, 
we have one person, and we have to contract with other 
facilities for detention, and that can take up to 16 hours to 
process somebody. So we go without law enforcement for long 
periods of time.
    And the same with our ICW worker; if they have to go do 
some counseling or set up things, they're gone, and if an 
incident comes up, it's a real problem.
    Of the $190,000, we are requesting an increase in tribal 
government staff. Retention of core management staff has been 
difficult, in large part due to the remoteness of where we are 
and an inability to be competitive with larger tribes----
    Mr. Regula. You're in a rural remote area?
    Mr. Roberts. Yes. It's 50 miles from any of the urban 
areas, one way. This problem was exacerbated in 1995 and again 
in 1996 when the BIA did not fund the tribe for a minimum 
amount under the small and needy tribes designation.
    The tribe desperately needs to fill the positions of a 
planner/grant writer or business development person to secure 
funds.
    Mr. Regula. Okay, well, we've got your testimony, and we'll 
take these into consideration.
    Mr. Roberts. Okay.
    Mr. Regula. Thank you for coming.
    Mr. Roberts. Thank you.
    [The information follows:]

[Pages 282 - 285--The official Committee record contains additional material here.]


                                           Thursday, March 6, 1997.

                        BUREAU OF INDIAN AFFAIRS

                               WITNESSES

ELBRIDGE COOCHISE, NORTHWEST INTERTRIBAL COURT SYSTEM
DONNA STARR, NORTHWEST INTERTRIBAL COURT SYSTEM

    Mr. Regula. Northwest Intertribal Court Systems, Judge 
Coochise.
    Okay, Judge, tell us, ``intertribal,'' does this mean you 
serve more than one tribe?
    Mr. Coochise. Eleven tribes in the Northwest, western 
Washington State.
    Mr. Regula. You have a court system--
    Mr. Coochise. A circuit court system.
    Mr. Regula. For the 11 tribes?
    Mr. Coochise. For the 11 tribes.
    Mr. Regula. Okay, and it's funded by the BIA?
    Mr Coochise. Correct, under their TPA base budget.
    Mr. Regula. I assume you need some more funding.
    Mr. Coochise. Correct. We're requesting an additional 
$150,000 for the intertribal court system to help with 
operations and restaff for a position, a third judge.
    Mr. Regula. How many judges do you have?
    Mr. Coochise. We have currently two, and because of there's 
basically right now 26 days per month of the court being 
handled with two judges, and there's only 20 days available, we 
don't have enough judges to handle the court.
    Mr. Regula. You travel from community to community?
    Mr. Coochise. Yes, the court's at the tribal location; our 
administrative office is in Edmonds, kind of a middle of the 
State to the tribes. It's a two-hour average travel to the 
tribes one way. So it's generally a four-hour travel for the 
prosecutor and the judge.
    Mr. Regula. You have about one day a month in each of the 
areas?
    Mr. Coochise. No, between two and six days a month, 
depending on the caseload for the tribes.
    Mr. Regula. Right. If you find an individual guilty, where 
would they be incarcerated?
    Mr. Coochise. It depends on where the tribe has a contract, 
either with the county or the city facility.
    Mr. Regula. Okay. So the tribe has the ability to contract 
for those facilities?
    Mr. Coochise. Yes. None of our tribes have a jail facility 
on the reservation.
    Mr. Regula. I understand.
    Mr. Coochise. So they contract with the counties and the 
local cities for that service.
    Mr. Regula. But you have court reporters and you have all 
the people to support the system?
    Mr. Coochise. Well, we don't have court reporters, but we 
do record all the proceedings electronically.
    Mr. Regula. I see. Okay.
    Mr. Coochise. And then for appeals they're all transcribed 
for the appellate court.
    Mr. Regula. Where does it go for appeals?
    Mr. Coochise. It goes to the tribe's court of appeals. We 
also handle 20 of the other tribes in Washington State, Oregon 
on appeals at least one or two times a year for them a special 
appellate project.
    Mr. Regula. Are you appointed, then, as a judge?
    Mr. Coochise. There's both. There's appointed and elected 
within that structure, but generally it's appointed by the 
tribal councils.
    Mr. Regula. And that would be your case then?
    Mr. Coochise. Correct. And then the terms are, depending, 
from one year to four years.
    Mr. Regula. It's required you be a lawyer then?
    Mr. Coochise. No, it's not.
    Mr. Regula. It's not?
    Mr. Coochise. No. There's differences in requirements, but 
it's not required to be a lawyer.
    Mr. Regula. I see.
    Mr. Coochise. The other request is for really to--because 
of the cutbacks in the last few years, we just can't do the 
work--even from 1995 to 1996, we found better than a 64 percent 
increase in the caseload for just the member tribes. We do need 
additional funding to meet those needs.
    We've got another--which is everybody's problem now, I 
think--the Welfare Reform Act with the child support 
enforcement.
    Mr. Regula. Yes, right.
    Mr. Coochise. Without additional resources, it's going to 
be hard-pressed for the tribes to handle that. So we're asking 
within the $150,000 for restaffing those four positions: judge, 
prosecutor, law clerk, and another secretary prosecutor.
    Mr. Regula. Are you part of the team?
    Mr. Coochise. Yes, this is Donna Starr. She's our board of 
director for our system who sets policy for the consortia.
    Mr. Regula. Okay.
    Mr. Coochise. One of our requests nationally is, because 
we've got it in our testimony as an attachment--we're 254 
courts in Indian country today. There's only $10.4 million to 
operate. We're back, basically, to the Fiscal Year 1991 level, 
and we're requesting that $20 million be added to the TPA.
    Mr. Regula. The overall budget.
    Mr. Coochise. Yes, nationally, so that some of these new 
issues--certainly the welfare reform issues--can be addressed.
    Mr. Regula. Okay. Thank you for bringing this to our 
attention.
    Mr. Coochise. Do you have any questions that we'd be glad 
to answer?
    Mr. Regula. No, I think you've covered it. We probably 
could spend a lot more time, but we don't have it.
    Mr. Coochise. Okay. Well, thank you very much, Mr. 
Chairman.
    Mr. Regula. Yes. Thank you.
    [The information follows:]

[Pages 288 - 291--The official Committee record contains additional material here.]


                                           Thursday, March 6, 1997.

                        BUREAU OF INDIAN AFFAIRS

                         INDIAN HEALTH SERVICE

                                WITNESS

W. RON ALLEN, JAMESTOWN S'KLALLAM TRIBE; U.S./CANADA PACIFIC SALMON 
    COMMISSION; AND THE NATIONAL CONGRESS OF AMERICAN INDIANS

    Mr. Regula. The Sac and Fox Nation, Dora Young. She's 
apparently not here.
    The Jamestown Tribe. Oh, I see, okay, they were on earlier.
    Mr. Allen. Yes.
    Mr. Regula. Okay.
    Mr. Allen. Well, good afternoon, Mr. Chairman. I'm here 
actually in three capacities. One as the chairman for the 
Jamestown S'Klallam Tribe, my tribe, with our request that we 
have submitted before you. I'm also the tribal commissioner on 
the U.S./Canada Pacific Salmon Commission. So I've got a 
presentation to you on behalf of the 24 tribes, the Bulk 
decision area tribes, and also the Columbia River--Columbia 
decision tribes that participate in that forum. We have another 
presentation or testimony that we want to provide to you that's 
on its way up here right now from the National Congress of 
American Indians. In that capacity, I'm the president of the 
National Congress of American Indians.
    Mr. Regula. So you have five minutes to wear three hats.
    Mr. Allen. We've got to move fast and talk fast.
    Mr. Regula. You sure do.
    Mr. Allen. So my main concern is that, within CAI and the 
Pacific Northwest Treaty, we are basically going to submit that 
to you for the record and for review. We feel we can come back 
and talk to you about those issues.
    In the Pacific Northwest, the treaty for the salmon, as you 
know from the Northwest Fish Commission, is an important agenda 
for us, and that treaty is an important objective in terms of 
helping restore the fish. We want your support to get the full 
funding to allow us to continue to participate with the State 
and the Federal Government in that forum. We've had mixed 
results. It's been a real delicate and difficult arena, but we 
feel that our ability to contribute makes a big difference in 
that arena.
    With the tribe, we have essentially three primary requests 
that we're asking of you. Since we're one of the original self-
governance tribes, we have initiated this project from the 
beginning back in 1988, when there was a pilot project, and in 
1990, when it became a full-fledged project, and we're now 
moving into IHS as well. So we're really excited about this, 
this effort. We have a request to--because of some problems 
that we've had in terms of the difference in the way the Bureau 
treated self-governance versus other funds for like fisheries 
and fish and wildlife programs, we have received some cuts in 
the last couple of years that we feel are unfair to the tribe. 
So our request with regard to the BIA side is getting 
restoration of $182,000 to our self-governance compact that is 
outlined in that detail.
    The second issue is with regard to the IHS self-governance 
compact, and in that arena we were selected as one of two pilot 
tribes to conduct a new concept in contract health care 
management services. This program--we also were somewhat 
underfunded in taking on a whole new approach on how to deal 
with--or how to provide contract health care services. We feel 
it's a very good success and it's shown that we can maximize 
our dollars using the private sector, and we're very excited 
about it. So we're asking for a very modest increase in that 
budget to allow us to carry out and to implement this 
particular project.
    The other issue that's very important to us, we're a small 
tribe that was recognized back in 1981, and our tribe, when we 
were recognized, was not provided any kind of land base. So in 
1983 we were able to secure a small grant that provided us a 
small 2-acre piece of property that we had converted into 
reservation status. There is a 10-acre piece that's adjacent to 
it that we've been trying to acquire, and that 10-acre piece is 
something that's been hanging there and they've been wanting to 
sell to us, and we've been wanting to buy it----
    Mr. Regula. You need some money to do it?
    Mr. Allen [continuing]. And not having the resources. 
Basically, we feel it's going to cost us $600,000 to do that. 
With our reservation, we don't have people living on our 
reservation. Our people live off the reservation, but it's our 
reservation where we have our operations. It's where our 
facilities, all of our programs are managed, and that's where 
we basically conduct our tribal business, our community center, 
et cetera. So we're looking for assistance in that particular 
area.
    You'll see in our testimony that we are fully supportive of 
the Northwest Fish Commission, and as just presented to you, 
the Northwest Intertribal Court Systems. These organizations 
definitely serve us in the Northwest very, very well. Fisheries 
and habitat restoration is very important to us, and we think 
that those things are very important. The proposals that the 
President has submitted in his budget we think can address that 
matter, and we're hopeful that you'll be very supportive of it.
    The Northwest Portland Area Indian Health Board has also 
made some very strong and very good recommendations, as well as 
the National Indian Health Board, and we're very supportive of 
them as well.
    Mr. Regula. Okay.
    Mr. Allen. So there's a lot on our plate. We would hope 
that we can continue to work with you in providing further 
detail and backup why that we believe that these are 
meritorious requests that we're making.
    Mr. Regula. Okay. Thank you, and we'll put your testimony 
in the record then.
    Mr. Allen. Thank you very much.
    Mr. Regula. Thank you.
    [The information follows:]

[Pages 294 - 304--The official Committee record contains additional material here.]


                                           Thursday, March 6, 1997.

                        BUREAU OF INDIAN AFFAIRS

                         INDIAN HEALTH SERVICE

                               WITNESSES

HON. FRANK D. RIGGS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
JILL SHERMAN, HOOPA VALLEY TRIBAL COUNCIL
    Mr. Regula. We welcome our former colleague on this 
committee, Mr. Riggs, who's now educating this country.
    Mr. Riggs. It's good to join you, Mr. Chairman.
    Mr. Regula. Frank, we're happy to have you, and I 
understand you want to introduce your constituent here.
    Mr. Riggs. I very much do. With your permission, I think 
I'll come around on that side.
    Mr. Regula. Whatever you like.
    Mr. Riggs. No offense, Mr. Chairman. [Laughter.]
    Mr. Regula. No, no, we're happy to accommodate anything you 
like, Frank. If we can do Headwaters, we can sure do this. 
[Laughter.]
    Mr. Riggs. Well, put that in the record. [Laughter.]
    I just got an earful from Ed Hasting, who is the head of 
BLM for California. We'll have to talk.
    Mr. Regula. This is off the record.
    [Off the record.]
    Mr. Riggs. I appreciate, Mr. Chairman, you and Chairman 
Livingston raising, I think, some very legitimate concerns 
regarding that proposal, but that, I acknowledge, is a subject 
for another day.
    Mr. Chairman, this is Jill Sherman. You have met Jill 
before. She is an elected member of the Hoopa Valley Tribal 
Council in Hoopa Valley, Humboldt County, California, the 
largest and most important county in my congressional district. 
I've known Jill for a number of years, and actually before 
meeting Jill met her brother Dwayne who was an elected member 
of the tribal council. Jill sort of followed Dwayne on the 
council as he left the council to become the--I know he's 
involved in resources. He is the forest----
    Ms. Sherman. He is the tribal forest ranger for our 
forestry department.
    Mr. Riggs. Tribal forest ranger.
    And you may recall you've met Dale Risling, who is the 
chairman of the tribal council, now twice elected.
    The Hoopa Valley Tribe is a model for the rest of the 
country, and certainly for American Indians, because it's the 
largest self-governance tribe in California, one of the largest 
in the country.
    Mr. Regula. How many members?
    Ms. Sherman. About 2,200 members.
    Mr. Regula. Is this in a forested area?
    Mr. Riggs. Yes.
    Ms. Sherman. Yes.
    Mr. Regula. So your economy's based on forestry?
    Ms. Sherman. Based on timber, yes.
    Mr. Riggs. As you'll hear in her testimony, they are very 
dependent on the wise utilization of their resources, and 
they've done an outstanding job.
    Mr. Regula. You have timber on your own reservation?
    Ms. Sherman. Yes. We have about 89,000 acres in trust, and 
most of that being timber, primarily old-growth Douglas fir.
    Mr. Regula. Wow.
    Ms. Sherman. So that needs----
    Mr. Regula. Are you cutting some of those?
    Ms. Sherman. Yes, we are. We have a forest management plan 
that was recognized by the United Nations actually. About four 
years ago it was presented to them as a model for indigenous 
countries to use.
    Mr. Regula. Are you on a sustained yield?
    Ms. Sherman. Yes, we are. Yes, we are.
    Mr. Regula. So you're planting and then growing as fast as 
you're cutting?
    Ms. Sherman. Yes. We are on a--gosh, what is our sustained 
yield?--a 20-year sustained yield, and we also grow our own 
trees as well. We have imported greenhouses from Holland that 
we raise our trees----
    Mr. Regula. To be your nursery?
    Ms. Sherman. Yes.
    Mr. Regula. How long does it take? Do you replant with 
Douglas fir?
    Ms. Sherman. We have replanted with various species. We're 
trying to--like our Port Alfred cedar, we're trying to bring 
our Port Alfred cedar back up to a level that once existed on 
the reservation, but during the Bureau of Indian Affairs coming 
in and doing what I will just call, not politely, but raping 
our reservation basically, that we are trying to bring back 
various stocks.
    Mr. Regula. Do you get a lot of rainfall? Does it take long 
to regenerate, to get a tree to market-size?
    Ms. Sherman. Yes. Yes, it will take about a hundred years.
    Mr. Regula. Oh, really?
    Ms. Sherman. Yes. And you're looking at second growth, 
which is not as--economically, it's not as prime as old growth. 
So your pricing--your market value is less.
    Mr. Regula. Do you do thinning?
    Ms. Sherman. Yes, we do our own thinning release, and we 
have our own special deposits that we set aside to do that each 
year, up to 15 years into reforestation. So we do that.
    Right now we've been having a problem with bears.
    Mr. Regula. Oh, they eat them?
    Ms. Sherman. Well, apparently, bears learn to eat the sap. 
After they come out of hibernation, they'll come and they can 
really destroy 30 acres a night by just----
    Mr. Regula. Wow.
    Mr. Riggs. Jill, you might mention for the chairman how 
your fisheries management program, your timber management 
program, have become a sustainable source of jobs for tribal 
members and how important that is to the economy of not just 
the--well, the whole Hoopa Valley.
    Ms. Sherman. Oh, yes. Our fisheries program has probably 
been the largest program and it's grown----
    Mr. Regula. Fisheries in the Pacific or in lakes?
    Ms. Sherman. No, rivers.
    Mr. Regula. What about estuaries?
    Ms. Sherman. We have the Trinity River that is where we're 
located.
    Mr. Riggs. The Trinity/Klamath River system, and the 
Trinity River runs right through the reservation, tribal lands.
    Mr. Regula. So that's salmon?
    Ms. Sherman. Yes, salmon, steelhead.
    Mr. Regula. Is this sport or is it for market fish?
    Ms. Sherman. It's traditional. It's for subsistence 
fishing, and, of course, you know----
    Mr. Regula. For the tribes themselves or the tribal 
members?
    Ms. Sherman. The tribes themselves, yes. We haven't 
really--we've touched on commercial fishing, but that really 
hasn't been our way.
    Mr. Regula. Do you bring non-Indians on and charge them to 
fish on this area?
    Ms. Sherman. We haven't gone into that. We've left that, 
since we're a Public Law 280 State, the State primarily does 
those functions, but we're looking at expanding our law 
enforcement, which we've been doing continuously. We just--our 
law enforcement officers are cross-deputized with the State, 
and we just got a----
    Mr. Regula. So you cooperate with the State of California 
in the management of the streams----
    Ms. Sherman. Yes, we do.
    Mr. Regula [continuing]. And the rivers?
    Ms. Sherman. Oh, yes.
    Mr. Regula. Do your people do lumbering off the 
reservation, work in the timber industry?
    Ms. Sherman. Some of our people do. Our truck drivers, some 
of our fallers, those basic industry individuals do work with 
outside agencies.
    Mr. Regula. Well, we're going to get bogged down. This is 
interesting to me, but what do you need?
    Ms. Sherman. What's my spiel, huh?
    Mr. Skeen. Mr. Chairman, hello. How are you?
    Mr. Regula. Joe, have you got a few minutes? You're going 
to then help us out here?
    Mr. Skeen. Yes, sir.
    Mr. Regula. Wonderful.
    Mr. Skeen. They said that you needed relief, and I told 
them help is on the way, but I'm not sure whether it's any help 
or not. [Laughter.]
    Mr. Regula. Okay. You finish and then we'll let Mr. Skeen 
take over here.
    Mr. Riggs. Mr. Chairman, this is Jill Sherman, by the way, 
a very important constituent of mine. She's an elected member 
of the Hoopa Valley Tribal Council in Humboldt County, 
California.
    This is Joe Skeen.
    Mr. Skeen. You've got one of the best Members of Congress I 
know of.
    Ms. Sherman. Oh, we know that, too, believe me.
    Mr. Skeen. Keep sending him back.
    Ms. Sherman. We will. [Laughter.]
    Mr. Regula. She liked him so well, she wanted to wait for 
him to introduce her.
    Mr. Skeen. Does this count against politicians? [Laughter.]
    Ms. Sherman. Well, it might count against my time. 
[Laughter.]
    Mr. Riggs. He's also the chairman of the Agriculture 
Appropriations Committee as well as being a member of the 
Interior Subcommittee.
    Ms. Sherman. Oh, okay, if I wait a few more minutes, will 
somebody else come in? [Laughter.]
    Mr. Skeen. What are you looking for? [Laughter.]
    Ms. Sherman. More--more people to hear me.
    Mr. Regula. Joe, she's had her five minutes with me. So 
I'll let you take the Chair.
    Jill, you get a little extra time this way.
    Ms. Sherman. Oh, great. I won't say no.
    Mr. Riggs. Thank you, Mr. Chairman.
    Ms. Sherman. Thank you.
    Mr. Regula. Thank you.
    Mr. Skeen [presiding]. Excuse the interruption.
    Ms. Sherman. That's fine.
    Mr. Skeen. Please continue.
    Ms. Sherman. Okay. The first thing I need to say:
    [Ms. Sherman speaks briefly in her native tongue.]
    Good afternoon. I appreciate the opportunity to provide 
testimony today. It's an honor for me.
    I'm testifying on the Bureau of Indian Affairs budget, the 
Indian Health Service budget, and, of course, the Forest 
Service budget. Just real briefly, because I don't want to be 
hoggy----
    Mr. Skeen. Well, I can say it Navajo: ``Ya-te-he.'' 
[Laughter.]
    Ms. Sherman. Very good. Very good.
    We're asking for monies to be provided in the amount of 
$550,000 to the BIA budget for the implementation cost 
resulting from the Endangered Species Act listing of Coho 
salmon and steelhead. We're also asking that language be 
provided in the United States Forest Service budget that allows 
entering into a self-governance demonstration project with the 
Hoopa Tribe.
    We're also requesting an additional $1.4 million in the IHS 
budget for the California Youth Regional Treatment Centers, and 
we are asking for support--or we're supporting the request for 
funding for the California Indian Forest and Fire Management 
Council, sometimes referred to as CIFFMC, and the Klamath River 
Intertribal Fish and Water Commission.
    To kind of give a little narration of why we need $550,000 
for the costs that will result from the listing of the Coho 
salmon and steelhead, which are species that run in our river, 
is that we see that it's going to--already it has affected us 
as we began our harvest, net harvest monitoring on our winter 
and our spring fisheries. This is four months earlier than we 
normally would. It's going to open up our forest land 
management projects, our water and watershed development 
projects, housing development. Anything that impacts the 
fisheries, we're going to now have to make those kinds of 
considerations because----
    Mr. Skeen. It's your whole economic core?
    Ms. Sherman. Oh, yes. Oh, yes. And we're basically a 
timber-based tribe; that's where our money comes from. So even 
right now, we're managing for the spotted owl, and, of course, 
in order to get our timber sales prepared, we have to have two 
years' worth of wildlife management reports available for 
those, so that we can have that all identified. And then the 
darned owl will move on us. [Laughter.]
    So it takes a lot of effort.
    And the salmon, we're hoping that they won't jump out of 
the river, but we know that it's going to really impact us 
financially. So we're specifically asking for $150,000 earmark 
for Hoopa for the cost associated with dealing with the 
Endangered Species listing of the Coho salmon, and that will 
come out of the $550,000 that we're asking from the BIA.
    We're asking to have language provided in the U.S. Forest 
Service budget that would allow us to go into a self-governance 
demonstration project with the Forest Service. We've worked 
with the Forest Service simply because--not simply because, but 
because there are Forest Service lands that are next to us, 
neighboring us, and so we work with them on mutual aid fire 
protection assistance, wildlife management, tribal traditional 
collection sites for various materials such as basketry 
materials----
    Mr. Skeen. They're beautiful.
    Ms. Sherman. Thank you. We've also worked on recognizing 
cultural sites that exist on neighboring Forest Service lands. 
And they've been very receptive to the idea of going into a 
self-governance demonstration project with us, but they don't 
feel that they have the authority to do so. So we're asking 
that if language is provided in the budget, then we can work 
from our end to get that done. And this would just be done with 
funds that already have been appropriated, and we have a really 
good relationship with them.
    In terms of the monies that we're requesting for the 
California Youth Regional Treatment Centers, the IHS, Indian 
Health Service, has used regional treatment centers elsewhere 
in the United States, but for some reason, one reason or 
another, California Indian youth have been left out of that 
loop, and the money, the facilities, the personnel just haven't 
been there. A California tribal leaders' task force has been 
formed, and they're coming up with recommendations. Part of the 
recommendations is that we add additional sites. They have two 
sites identified with the monies that exist in the budget this 
year, but we're asking for additional monies.
    And then, of course, we're supporting the request for the 
California Indian Forest and Fire Management Council, which 
comprises 17 tribes in California that make up about 85 percent 
of the trust resources that exist in the State. So, in terms of 
developing tribal policies with Federal agencies, this is a 
group that would be very, very helpful for us to have, 
especially when we're trying to coordinate and not reinvent the 
wheel.
    And we're asking for the Klamath River Intertribal Fish and 
Water Commission to receive their funding request, and that's 
made up of local--basically, those tribes that exist on the 
Klamath and the Trinity Rivers, and that's Hoopa, Yurok, Karuk, 
and Klamath Falls.
    So that's basically our request. We have written testimony, 
and I won't take up any more of your time, although it was a 
pleasure.
    Mr. Skeen. Well, I'll just ask you one question. Do you 
propagate coyotes?
    Ms. Sherman. No, we don't, but I could give you a coyote 
story.
    Mr. Skeen. Well, I'd like to hear that. Does it end with 
the coyote being decimated? I'm in the sheep business. 
[Laughter.]
    Ms. Sherman. Well, no, but----
    Mr. Riggs. It's better for this occasion, Joe. [Laughter.]
    Ms. Sherman. No, but it's a story about how we came to be 
able to catch fish through coyotes----
    Mr. Skeen. With a coyote?
    Ms. Sherman. Yes. Coyote was always jealous----
    Mr. Skeen. They're pretty good at catching lambs, too. 
[Laughter.]
    Ms. Sherman. Well, he was always jealous of the fish, and 
he figured the fish had the best eyes in the water. So what he 
did was he conned fish out of her eyes, and he gave fish his 
eyes. So that's why to this day fish is able to be caught in 
our nets. It's because she has coyote's eyes, and coyote 
couldn't see very well.
    Mr. Skeen. Can I make a trade with you and get the eyes 
back in the coyote? [Laughter.]
    Ms. Sherman. I'll see what I can do with that.
    Mr. Skeen. We have a story in our part of the country of, 
when the world comes to an end and it burns to a cinder, there 
will be one species that survives, and that's the coyote.
    Ms. Sherman. I think we'd have to agree with that.
    Mr. Skeen. Yes, because he's got those fish eyes. 
[Laughter.]
    Thank you very much for your testimony.
    Ms. Sherman. Thank you very much.
    [The information follows:]

[Pages 311 - 314--The official Committee record contains additional material here.]


                                           Thursday, March 6, 1997.

                        BUREAU OF INDIAN AFFAIRS

                         INDIAN HEALTH SERVICE

                               WITNESSES

HENRY CAGEY, LUMMI INDIAN NATION
DARRELL HILLAIRE, LUMMI INDIAN NATION

    Mr. Skeen. Lummi Indian Nation, Mr. Darrell Hillaire.
    Mr. Hillaire. Hillaire.
    Mr. Skeen. Hillaire--I'll get it right. Welcome, sir.
    Mr. Hillaire. Good afternoon, Mr. Chairman. With me I've 
got Mr. Henry Cagey, our chairman of our Lummi Indian Nation.
    Mr. Skeen. You're well attended.
    Mr. Hillaire. And the vice chairman--we've got another 
councilman, Johnny Green.
    Mr. Skeen. Johnny's taking it easy back there. He's letting 
you folks do the hard work. [Laughter.]
    You're doing the heavy lifting today.
    Mr. Hillaire. That's right.
    Mr. Skeen. Please, your testimony will be taken in total. 
If you could abstract it, we'd appreciate it.
    Mr. Hillaire. Okay. Again, thank you for having us today.
    Mr. Skeen. Thank you for being here.
    Mr. Hillaire. Today we'd like to talk to you about some 
successes that we've had with the self-governance initiative, 
successes that have been realized with the support of this 
committee, both on the BIA side and the Indian Health Service 
side.
    With the BIA, it's been the ability for us to fund new 
programs, No. 1 being a veterans' office program that supports 
the ability of our veterans, of which there are about 800 that 
are either veterans or dependents of veterans, their ability to 
coordinate their benefits through the Veterans Administration. 
That program wasn't available under BIA or Indian Health 
Service, and now we're doing that.
    Another program--as a matter of fact, there are various 
programs that we were able to fund in the area of youth, 
particularly youth recreation. We are a rural community, and 
the ability for our children to get off-reservation to 
participate in the youth recreation programs off-reservation--
we're extremely hindered because of our location, but now, 
through self----
    Mr. Skeen. Was distance the problem?
    Mr. Hillaire. Yes, yes.
    Mr. Skeen. The terrain?
    Mr. Hillaire. Yes.
    Mr. Skeen. Just transporting.
    Mr. Hillaire. Yes, transport in general, yes. So that's 
been very beneficial for all of our children.
    Mr. Skeen. For your youngsters.
    Mr. Hillaire. That's correct.
    Mr. Skeen. About how many youngsters do you have?
    Mr. Hillaire. I think there's about 1,200.
    Mr. Skeen. Twelve hundred?
    Mr. Hillaire. Yes. So we're a very young nation.
    Mr. Skeen. Yes, sir.
    Mr. Hillaire. And then on the Indian Health Service side, 
we've been able to not have waiting lists for a lot of our 
basic health services, such as dental services, such as 
eyeglasses, such as providing care for our diabetics, which 
there are many.
    Mr. Skeen. How close is your Indian Health Service center?
    Mr. Hillaire. Our health clinic is right in the 
reservation.
    Mr. Skeen. On the reservation?
    Mr. Hillaire. Yes, yes.
    Mr. Skeen. We have a regional one in New Mexico, 
Albuquerque, but we have branches, and so forth, because we 
have so many scattered throughout the state and such a great 
distance between them. Yours is the ideal location, if you've 
got a hospital there. Is it a rather new one?
    Mr. Hillaire. It's an outpatient facility.
    Mr. Skeen. It's an outpatient facility.
    Mr. Hillaire. It's not a hospital.
    Mr. Skeen. I served with BIA at Zuni, and we had a health 
center there. I lived right across from the hospital. When the 
moon was full, that's when all the babies would arrive--and 
also all the crazies would show up at the full moon time. 
[Laughter.]
    Mr. Hillaire. Well, at least it isn't the other way around. 
[Laughter.]
    Mr. Skeen. Yes, I'm glad it happened that way.
    Please continue.
    Mr. Hillaire. Okay. I'd also like to talk to you about our 
funding priorities for the year, our funding request to you and 
to other Members of the Congress. No. 1 is we are in the middle 
of ground water negotiations with the State of Washington and 
the Federal Government.
    Mr. Skeen. That's always a very serious problem----
    Mr. Hillaire. It sure is.
    Mr. Skeen [continuing]. Between the Native Americans and 
the local communities.
    Mr. Hillaire. A constant battle.
    Mr. Skeen. In western States particularly.
    Mr. Hillaire. And we're right in the middle of it, and 
negotiations are ongoing. We realize for the coming year that 
we're going to need substantial more money than what we have to 
fund legal fees, to fund----
    Mr. Skeen. Where's your water source?
    Mr. Hillaire. Well, we have, actually, a couple of aquifers 
on our reservation.
    Mr. Skeen. Do you? You're pumping them out of aquifers, but 
do you have any running water?
    Mr. Hillaire. We have primary rights to the Nutsak River, 
which is----
    Mr. Skeen. The Nutsak River?
    Mr. Hillaire. Yes.
    Mr. Skeen. Oh, I see.
    Mr. Hillaire. It is the eastern boundary of the 
reservation, but that's not in question now. We're strictly 
ground water----
    Mr. Skeen. That's already adjudicated? It's ground water--
--
    Mr. Hillaire. No, it's not.
    Mr. Skeen. No, it is not?
    Mr. Hillaire. We're focusing on on-reservation water 
disputes first and then we'll address the off-reservation.
    Mr. Skeen. Oh, I see. All right, that's your priorities.
    Mr. Hillaire. That's right.
    So our second funding priority for the year is the need for 
a new school. In 1989, we had a tribal school, but the furnace 
blew up in it, and so the BIA funded some emergency facilities 
for us in the form of modulars, and that was eight years ago.
    Mr. Skeen. So you moved to modular units?
    Mr. Hillaire. Yes. So now the life expectancy of those 
modulars is 10 years, and this is the eighth year.
    Mr. Skeen. This is your eighth year?
    Mr. Hillaire. That's right. So we're either going to have 
to do some major repairs or replace them.
    Mr. Skeen. The rubber band's about to break? It's about to 
get to that point.
    Mr. Hillaire. And it runneth over, too.
    Mr. Skeen. And it runneth over?
    Mr. Hillaire. Yes. [Laughter.]
    Mr. Skeen. Okay.
    Mr. Hillaire. So, anyway----
    Mr. Skeen. You need help--big time. [Laughter.]
    Mr. Hillaire. Yes. Big time. So those are our major funding 
requests. The rest of the information is available in our 
testimony.
    Mr. Skeen. We certainly appreciate that.
    Yes, sir?
    Mr. Cagey. May I make a couple more points that the Lummi 
Nation would like to make, Mr. Chairman? We do support the 
recommendations coming from NCI and the Northwest Indian Health 
Board, as well as the Intertribal Court System. So we do 
support their testimony.
    Mr. Skeen. So you're on record as supporting those?
    Mr. Cagey. Yes, we are. Yes, sir.
    Mr. Skeen. Very good. Thank you all very, very much.
    Mr. Hillaire. Thank you very much.
    [The information follows:]

[Pages 318 - 321--The official Committee record contains additional material here.]


                                           Thursday, March 6, 1997.

                         INDIAN HEALTH SERVICE

                               WITNESSES

JOSEPH C. SAULQUE, CALIFORNIA RURAL INDIAN HEALTH BOARD, INC.
JIM CROUCH, CALIFORNIA RURAL INDIAN HEALTH BOARD, INC.
    Mr. Skeen. We need the California Rural Indian Health 
Board, Incorporated, Mr. Joseph C. Saulque. Is that pronounced 
correctly?
    Mr. Saulque. Pretty close.
    Mr. Skeen. Pretty close, huh? What's the correct 
pronunciation?
    Mr. Saulque. Saulque.
    Mr. Skeen. Saulque. Welcome.
    Mr. Saulque. I'm with the California Rural Indian Health 
Board as the chairperson, and the local health clinic at 
Toiyabe Indian Health Project, which is in Bishop, California. 
Up here with me is Jim Crouch, who's our executive director----
    Mr. Skeen. Glad to have you here, Jim.
    Mr. Saulque [continuing]. And we have a number of people 
from California. Stand up. California people, please stand up.
    Mr. Skeen. It's nice to have all of you here from 
California, those of you who haven't migrated back to New 
Mexico. [Laughter.]
    Mr. Saulque. And we do have Amos who's with the Yurok 
Tribe, which is the largest tribe in California----
    Mr. Skeen. In California?
    Mr. Saulque [continuing]. And it's also in Mr. Riggs' 
jurisdiction.
    Mr. Skeen. District?
    Mr. Saulque. District. It would have been nice for him to 
listen to them as well.
    Mr. Skeen. Yes, we have a joint interest in it because we 
have a lot of Native Americans as our constituency. We 
appreciate it.
    Mr. Saulque. Basically, I have five topics to discuss with 
you today.
    Mr. Skeen. All right, sir. We'll appreciate it if you'll 
abstract them, and they'll all be in the--your testimony will 
be wholly in the record.
    Mr. Saulque. Yes, sir.
    Mr. Skeen. Go ahead.
    Mr. Saulque. Okay. The five topics are regarding equity 
funding in health care, the contract support cost, smart 
facilities grant program, youth regional treatment center, and 
contract health services.
    The equity concept started a number of years ago when we 
had a lawsuit that was filed against the Indian Health Service 
called Rencon, which was for the purpose of showing there was a 
big equity in funding between California and other Indian 
Health Service area offices. And Indian Health Service was 
supposed to do an equity funding of the allocation, which they 
never did, and then Congress----
    Mr. Skeen. But there's a large disparity, inequity.
    Mr. Saulque. Yes.
    Mr. Skeen. All right, sir, I wanted to be clear.
    Mr. Saulque. And Congress came through and provided an 
equity fund that lasted for about four or five years, and that 
did bring us up to some equity, but it never brought us to 
some--what do you call it?--parity in funding within the Indian 
Health Service system.
    Currently, our clinics that we have in California receive 
less than $1,079 per patient visit. The average for Indian 
Health Service is about $1,500 per patient, and the private 
industry is about $2,450 per patient visit. Medical--Medicaid 
adds about $101 toward the active users. So we're still very 
much underfunded in the way of providing a comprehensive health 
care to our people in California. So we're looking for to 
continue some kind of an increase in health care.
    Mr. Skeen. So we want to move the parity list up just a 
little higher?
    Mr. Saulque. Just a little higher. We can't go all the way 
up where we need to be, but we need to go up a little higher.
    Mr. Skeen. But you've got to prioritize?
    Mr. Saulque. Yes.
    Contract support is another issue that is a problem for 
tribal 638 contractors, even compacters. That's the additional 
support cost to deal with the--manage a contract and a program. 
The GAO report, 1986, stated, ``Underfunding of contract 
support cost is the principal barrier to achieving the promise 
of true self-determination.'' As that falls behind and never 
catches up, especially with new and expanded contracts, we are 
still having problems in supporting the programs that we do 
have with the extra contract support cost that we need to run 
those programs. So we need that also to go up a little higher.
    Mr. Skeen. Are you talking about contracts on your 
reservation properties or----
    Mr. Saulque. Yes.
    Mr. Skeen. Within the borders of the reservation?
    Mr. Saulque. Contracts for tribal government operations----
    Mr. Skeen. Operations.
    Mr. Saulque [continuing]. That are usually on reservations 
or tribal organizations that support those tribal government 
operations.
    Mr. Skeen. Oh, I see.
    Mr. Saulque. For example, TRIV is the tribal organization 
that supports about 33 tribes and 11 health clinics in the 
State of California.
    The other issue is the small ambulatory facility grant 
program. That was a program that we needed as small projects. 
The Indian Health Service construction program and facilities 
was never in a system whereby they would ever allocate dollars 
for construction of clinics to real small projects, and since 
we felt we would never reach that criteria that Indian Health 
Service has established for construction, we requested Congress 
to establish this grant program, similar to community 
development block grants, to be able to provide funding to 
tribal governments throughout the United States in small 
clinics to be able to build new clinics, be able to renovate or 
repair the existing clinics. Congress did provide the 
authorization of that program in the Health Care Improvement 
Act in 1994 amendments, but no funds were ever budgeted or 
allocated to that line item. When they first did that, they 
hoped that Indian Health Service would put money in that line 
item, and Indian Health Service never did.
    So, in order to overcome that need, and as tribal 
governments, we have a government-to-government relationship 
with the United States, I guess we have to rely on Congress to 
put some of the money into that budget item, so that it would 
help the small tribes who don't normally get that.
    And in California building facilities, we had to do it on 
our own. We had to get buildings from other people to put 
together our own buildings. In Toiyabe we got old buildings 
from the China Lake Naval Base out of Ridgecrest----
    Mr. Skeen. That's fairly close to you, isn't it?
    Mr. Saulque [continuing]. And transported those up there 
and then put them together for a facility, and we started our 
facility. And other tribes have done the same thing in the 
State of California.
    Mr. Skeen. Do you have any tribal enterprises that generate 
income for you?
    Mr. Saulque. On the reservation that I represent, we only 
have one that does a gas station and a service station, but 
we're in a very isolated----
    Mr. Skeen. I understand that.
    Mr. Saulque. But other tribes have those in California that 
do that, and I can't really speak for them because I'm not sure 
what all they have.
    Mr. Skeen. I was just trying to get some kind of a gauge to 
what your economic base is.
    Mr. Saulque. Yes, well, for the reservation I represent 
there is no economic base.
    Mr. Skeen. There's none, huh?
    Mr. Saulque. Not even a gaming casino.
    Mr. Skeen. It's a bedroom community?
    Mr. Saulque. It's, yes, a bedroom community and very 
isolated as far as other people in the community.
    Mr. Skeen. So most of the people work off the reservation 
then?
    Mr. Saulque. Right, up to 40 to 50 miles away from the 
reservation.
    Mr. Skeen. So there's quite a bit of commuting?
    Mr. Saulque. Yes.
    Another issue that we have a problem with is the youth 
regional treatment centers. We have authorization for two of 
those to be placed in California.
    Mr. Skeen. Youth treatment----
    Mr. Saulque. Centers.
    Mr. Skeen. Okay.
    Mr. Saulque. And, to date, we have not one center operating 
in California.
    Mr. Skeen. How many children under the age of 18 do you 
have?
    Mr. Crouch. It must be over 20,000.
    Mr. Skeen. Twenty thousand?
    Mr. Crouch. There's 63,000 Indian people receiving health 
care services California-wide.
    Mr. Skeen. That's California-wide, yes.
    Mr. Saulque. And I'm referring to CRIHB.
    Mr. Skeen. Yes.
    Mr. Saulque. Now I assume we're looking at about 117,000 
rural population of California Indian people.
    We have two projects in California: the Toiyabe Indian 
Health Project that started basically a 12-bed group home that 
we're trying to expand to a 24-bed that may meet the criteria 
for that type of a center, as well as the Lassen Indian Health 
Project is trying to put together a project in an old Army 
depot that's close to them. But those are the only efforts that 
have been made in California, and Indian Health Service has not 
been able to pull anything together for those projects. What we 
really need is some additional dollars to the tune of about 
$750,000 to assist both of those projects in getting up online 
and being able to provide those services where they're needed 
for our youth. Most of our youth now are being even sent out of 
the State to facilities like in Utah and Oregon and as far away 
as Wyoming.
    Mr. Skeen. Is the tribe involved in agriculture of any 
kind?
    Mr. Saulque. The tribe I represent is not. Other tribes are 
involved in agriculture in California.
    Mr. Skeen. Other tribes do that. They operate up and down 
that valley?
    Mr. Saulque. Yes. But in our area, it used to be a big 
sheep industry a long time ago, in the early 1900s and into the 
1960s.
    Mr. Skeen. Sheep?
    Mr. Saulque. Sheep. And it has faded out, although we do 
have still a number of sheep owners coming out of Bakersfield, 
like Mandenboro and some others.
    Mr. Skeen. What are you doing with coyotes? [Laughter.]
    Mr. Saulque. They're all over the place. [Laughter.]
    Mr. Skeen. How do they taste?
    Mr. Saulque. Never had one. [Laughter.]
    Mr. Skeen. A cross between a bald eagle and----
    Mr. Saulque. Never had one.
    Mr. Skeen. Okay, your time is just about up.
    Mr. Saulque. Just about up?
    Mr. Skeen. Yes.
    Mr. Saulque. I have one last item, contract health 
services. In California we seem to always be short on contract 
health care service funding, and as an example, I guess, in 
1996, comparing to the Billings area with the California area, 
Billings has users of 62,395; California has users of 64,340. 
Yet, Billings will receive $524.42 per user, active user, and 
California gets $137.15 per active user. And Billings has 
Indian Health Service hospitals and we don't. And what CHS 
dollars are used for is to pay for those services that are 
referred out to specialty or surgery, or whatever, that can't 
be done in the clinic.
    Mr. Skeen. How far away is that facility?
    Mr. Saulque. For us in the valley, it's either Reno, Nevada 
or some action in a local hospital or down in Lancaster or Loma 
Linda.
    Mr. Skeen. So it's quite a chore, isn't it, just----
    Mr. Saulque. So you're looking at least four hours.
    Mr. Skeen. We thank you, sir.
    Mr. Saulque. Thank you.
    Mr. Skeen. We appreciate your testimony.
    Mr. Saulque. Thank you.
    [The information follows:]

[Pages 327 - 331--The official Committee record contains additional material here.]


                                           Thursday, March 6, 1997.

                         INDIAN HEALTH SERVICE

                               WITNESSES

LYLE EMERSON GEORGE, THE SUQUAMISH TRIBE
JOHN CROWELL, THE SUQUAMISH TRIBE

    Mr. Skeen. The Suquamish Tribe, Mr. Lyle Emerson George, 
chairperson.
    Welcome.
    Mr. George. Good afternoon.
    Mr. Skeen. Good afternoon, sir.
    Mr. George. How are you today?
    Mr. Skeen. Well, I was all right until I had to get up this 
morning. [Laughter.]
    Mr. George. I know the feeling, but it's a good time when 
we can all get up.
    Mr. Skeen. Well, thank you. The rest of the day turned out 
well.
    Mr. George. Good.
    Accompanying me today is our tribal elders chairman, Mr. 
John Crowell.
    Mr. Skeen. Welcome to both of you.
    Mr. George. And I also have seated behind members of our 
youth, and I would like to ask them to stand.
    Mr. Skeen. Yes, please stand. I'd like to see them.
    Mr. George. And members from our tribal council as well, 
and a former chairman.
    Mr. Skeen. That's a good-looking bunch back there, too.
    Mr. George. Thank you very much.
    We've just completed our first year under self-governance, 
and that allowed us to bring our elders and our youth back, and 
I've asked our youth to be a witness for today's historical 
events in the eyes of the Suquamish people, being here today 
testifying before this committee, and it's honor for me to be 
here today.
    I have three areas that I would like to discuss with you 
today. There are some national issues that I would like to 
begin with and some regional issues and issues of and for the 
Suquamish people.
    On the national issues side--and I think when I was 
preparing this oral testimony today, I labeled them all with 
A1, A2, A3, so I could keep it straight in my mind. And there's 
a story with that that came to me while I was preparing this 
testimony. 1A are the treaties and the agreements negotiated by 
your predecessors as well as our tribal ancestral leaders, all 
in good faith, one government to another. When I see the 
turnaround in Congress today, there are many new Members in 
Congress; I'm sure that the lion's share of those do not have 
Indian reservations within their districts, and when the issues 
come up that affect tribal reservations, we have tribes that 
would be more than willing to help educate Congress. We have 
tribally-sanctioned organizations that would also be actively 
participating in getting the education out. And then on the 
tribal side, we must also become smarter on how we maneuver in 
Washington. So the challenge is to both the Congress as well as 
tribes to be more effective, so we can be heard.
    Mr. Skeen. We appreciate both of your aims and objectives, 
the object of your effort, but the best way to handle 
Washington is to just come right straight out with it.
    Mr. George. You bet.
    Mr. Skeen. And we appreciate that.
    Mr. George. Another note that I made was seek tribal 
participation in tribal issues. Try to see things through our 
eyes on the reservation and not from the top of the Hill. You 
may get a different perspective----
    Mr. Skeen. Absolutely.
    Mr. George [continuing]. On what we're doing.
    I listed these all as ``A'' items this morning, and what 
does the ``A'' stand for in my mind? The ``A'' stands for 
action. There are no appropriated dollars associated with these 
actions, and I think the effect can be measured well beyond any 
dollar or cent we can apply to it. So please heed the words, 
and I appreciate the time.
    As far as priorities for the Suquamish people, we are 
descendants of Seattle, one of the great leaders in the Pacific 
Northwest.
    Mr. Skeen. The greatest chief.
    Mr. George. Thank you, sir.
    Mr. Skeen. Yes, sir, I've lived in Seattle. I graduated 
from high school in Seattle.
    Mr. George. Which high school?
    Mr. Skeen. O'Day.
    Mr. George. O'Day. North Kitsap used to play at O'Day.
    Mr. Skeen. Those Catholic kids are mean. [Laughter.]
    Mr. George. They are ornery, aren't they? [Laughter.]
    Mr. Skeen. Yes.
    Mr. George. They're good basketball players, too, by the 
way. [Laughter.]
    Mr. Skeen. Yes, they're great jumpers.
    Mr. George. You bet, they are.
    Have you ever visited traditional----
    Mr. Skeen. Yes, sir, I have.
    Mr. George. Have you been to the site of the Old Man House?
    Mr. Skeen. I don't--I can't tell you that I have, but I 
suspect so, because I was a fairly young lad when we got into--
--
    Mr. George. Probably 10 years ago?
    Mr. Skeen. No, this was quite a few more than that, and I'm 
not going to tell you how many. [Laughter.]
    Excuse me. Go ahead. I'm interfering with your work here.
    Mr. George. Thank you.
    There was an archeological dig at this site in 1974.
    Mr. Skeen. What are you referring to?
    Mr. George. The site of the Old Man House.
    Mr. Skeen. The Old Man House?
    Mr. George. The traditional home of the Suquamish people.
    Mr. Skeen. Oh, I see.
    Mr. George. The home was estimated to be up to 600 feet 
long. It was a traditional gathering place not only for the 
Suquamish, but tribes throughout the region. Early estimates on 
the age of the Old Man House puts it at 2,000 years old. So the 
Suquamish have been around for a long time.
    Mr. Skeen. Oh, yes.
    Mr. George. Currently, there were two lots that recently 
came for sale that adjoined a State park that sits at the heart 
of this site, and we're currently working with the State of 
Washington to revert this park back to the----
    Mr. Skeen. Tribal interests?
    Mr. George [continuing]. Tribal interests. We would also 
like to purchase two lots adjoining this. One has a house on 
it, and with that we would like to make that a gathering place 
for our youth. It would be a three-year term. The second year 
we would like to do a thorough excavation of the site and 
document the artifacts that are found there, and then the third 
year build an interpretative center that could be used--and we 
talked about education on the Hill--for education of folks 
throughout the region, so people could clearly understand the 
traditional life of the Native people in the Puget Sound 
region. We'd also build a replica of the Old Man House, not the 
full 600 feet, but a replica that would do its due.
    We're asking for a three-year period of $1.8 million----
    Mr. Skeen. One point eight million?
    Mr. George. Yes, sir. We're currently working with other 
agencies and other departments to see what we can do to 
minimize that effort. Like I say, it's the heart and the center 
of the Suquamish people's homeland.
    Mr. Skeen. I can understand the importance of it.
    Mr. George. Yes, sir.
    Second, in 1990 we were awarded a water contract, and in 
1993 that contract was approved as a mature contract under the 
638 programming. We worked collaboratively with other tribes in 
the region, other municipalities, States, utilities, and county 
governments, to identify the hydrology and the geology of our 
local aquifers, and that base funding for that particular 
program is $108,000. The Bureau in their infinite wisdom has 
yet funded that mature contract, and we continually strive to 
keep that very important and vital program alive for the 
Suquamish people.
    Mr. Skeen. So you have an ongoing appropriations for it?
    Mr. George. Yes, sir.
    Mr. Skeen. I see.
    Mr. George. Our third area, I don't know how alive and well 
the Bloods and Crips are back here on the East Coast, gang 
affiliations, but they're alive and well on our reservation. 
Because of the jurisdictional issues, our reservations are to 
come and be held harmless by all forms of lawlessness. With 
that, we've seen an increase in our juvenile crime. Our court 
systems have--rather than the positive youths that we brought 
with us today, the negative is out there, too, and we need to 
turn that around.
    Mr. Skeen. Well, they're a problem nationwide, but 
particularly in areas concentrated like yours.
    Mr. George. Exactly. We've seen an increase in juvenile 
crime. We've seen an increase in child support and custody 
cases. We've seen an increase in civil cases in our courts. We 
currently have a base budget of $66,000. We're requesting an 
additional $130,000 to sustain the cornerstone of our 
sovereignty, which is our court system, to keep our government 
in checks and balances. I don't need to explain to you how 
important courts are to a governmental structure.
    Mr. Skeen. Do you have a tribal court?
    Mr. George. Yes, sir, we do.
    Mr. Skeen. I see.
    Mr. George. We have a public defender, a part-time 
prosecutor, and two clerks, and a part-time judge. We use the 
Intertribal Court Systems as an appeal system----
    Mr. Skeen. I see.
    Mr. George [continuing]. As a check and balance.
    The third is--I'm sorry, the fourth is under a Bulk II 
decision, the shellfish case that recently was settled in the 
State of Washington. We have a base budget of our shellfish 
program of $30,000. We've currently added five new species that 
we need to co-manage with the State of Washington, and we're 
requesting an additional $228,000 to effectively manage that 
resource.
    And, finally, sir, I would like to address some regional 
issues and those would be: we support the testimony of the 
Northwest Indian Fisheries Commission, and particularly their 
request for shellfish management, which is an integral part of 
the way we manage that resource. And, as you know, the 
Northwest Indian Fisheries Commission supports 20 tribes from 
western Washington under Bulk II.
    We also support the commission's request on hatchery 
rehabilitation within the Bureau of Indian Affairs construction 
account. As we see a decline in the fish runs, natural runs, 
what we need to do is augment that fishery with hatchery-
supplied fish. The Suquamish Tribe at one time was fourth in 
the State as far as production of fish released into the 
systems. We've seen our fisheries decline over the years, based 
on overharvest, all user groups, habitat protection, and we 
support what the commission has requested as far as hatchery 
rehabilitation.
    We would also like to support recommendations and testimony 
of the Northwest Indian Area Health Board, and, also, we would 
like to support the Northwest Intertribal Court Systems.
    Mr. Skeen. Well, we thank you.
    Mr. George. One last thing, sir.
    Mr. Skeen. All right, one last.
    Mr. George. Finally, on a regional level, I earlier alluded 
to the fact that we need tribal participation in all facets of 
the government that affect tribal properties. There's currently 
a comprehensive energy review plan which will impact the 
Columbia River drainage, and that's where it comes to de-
regulation of the Bonneville Power Administration. I would ask 
that you seek tribal participation in that as well, sir.
    Mr. Skeen. I think that's an issue that you brought before 
us in the past.
    Mr. George. Thank you, sir.
    Mr. Skeen. We appreciate your tenacity.
    Mr. George. We appreciate your time.
    Mr. Skeen. All right. We appreciate your coming.
    Mr. George. Thank you very much.
    Mr. Skeen. Thank you.
    [The information follows:]

[Pages 336 - 339--The official Committee record contains additional material here.]


                                           Thursday, March 6, 1997.

                        INDIAN COUNTRY PROGRAMS

                                WITNESS

RICHARD M. DOYLE, PASSAMAQUODDY TRIBE OF PLEASANT POINT

    Mr. Skeen. Passamaquoddy, Lieutenant Governor Richard M. 
Doyle.
    Thank you all very much. Have a safe trip home.
    Mr. George. Thank you.
    Mr. Skeen. Welcome, Governor.
    Mr. Doyle. I inadvertently only gave you 18 copies. Here is 
an additional two copies of the written testimony.
    Mr. Skeen. Oh, all right. We can take care of that. We've 
got lots of paper around this place.
    Mr. Doyle. I just want to say good afternoon to yourself, 
Mr. Chairman.
    Mr. Skeen. Your presentation will be put in its entirety in 
the record. So if you'll abstract it, why, we'd appreciate it. 
So just go ahead.
    Mr. Doyle. Thank you, sir.
    Okay, I'd like to thank you for giving us time this 
afternoon. I'd like to try to highlight some of our current 
issues on the written testimony.
    Mr. Skeen. Very good. Very good.
    Mr. Doyle. I'm Richard Doyle, lieutenant governor, member 
of the Passamaquoddy Tribe. The tribe is located near Perry, 
Maine. We are a proud and strong people that inhabited an area 
referred to as Downey's Maine for time immemorial. 
Traditionally, the tribe has survived off the resources of the 
ocean, land, forests, and lakes, which the Creator has provided 
for us for our survival. Since the incursion of the European 
people, our traditional ways of life have been limited, and in 
some ways stymied, by laws and regulations set by the United 
States Government.
    I'm here today to tell you about the needs of our tribe 
with regards to the Bureau of Indian Affairs funding. It is the 
contention of my tribe that the Bureau either has not been 
receiving adequate funding to meet the needs of the tribe or 
that the Bureau's internal mechanisms have not been considerate 
of my tribe of those of other tribes east of the Mississippi 
River. As my tribe's written testimony defines, there is need 
for additional funding in many areas to responsibly carry out 
the work agreed to by contract between the tribe and the United 
States Government via the Department of the Interior, Bureau of 
Indian Affairs.
    Increased funding is needed by the Passamaquoddy people to 
adequately run programs that benefit the tribal elders, whose 
wisdom and knowledge are important and special to us; the 
children, who are our future; the tribal police and tribal 
court, who enforce our laws--with the goal in mind that we 
would like at some day in the future to be able to have 
jurisdiction to adjudicate all matters within our Passamaquoddy 
lands--to educate our children, so that they may be prepared to 
address the challenges of the future; funding to competently 
and respectfully manage our natural resources, so as to be in 
harmony with the Great Mother Earth; to be able to comply with 
such laws as the Indian Tribal Welfare Act and the Welfare 
Reform Act; to be able to provide recreational opportunities 
that serve as a positive alternative to the currently-rampant 
abuse of drugs and alcohol on our reservation; to fulfill our 
various municipal responsibilities such as fire protection, and 
meet our organizational requirements via the indirect cost 
pool, which is by statute required to be funded at 100 percent.
    The indirect cost pool funding is of particular concern to 
my people due to its history of constantly being underfunded. 
The underfunding of indirect is a cause of tribe hardship since 
we pay upfront 100 percent of indirect costs two years prior, 
only to be reimbursed at a later date at a lower level. In 
effect, the tribe is paying for the privilege to contract with 
the United States Government, who has a trust responsibility 
and contractual obligation to pay these costs.
    The tribe requests that Indian people be treated equally, 
such as defense contractors, university, and other government 
contractors who regularly receive 100 percent of their indirect 
costs and whose rates are considerably higher than my tribe's. 
Consider the fact that in the State of Maine we have a defense 
contractor named Bath Ironworks who build ships for the 
military, and if they were to not be funded on 100 percent of 
their indirect costs, it would drive them out of business, and 
you'd have all the Maine delegation down here putting up a fuss 
about that. But when it happens to an Indian tribe, we don't 
have the same concerns or the same level of interest.
    Currently, my tribe's indirect cost is determined by the 
Inspector General's office within the Department of the 
Interior, according to OMB circulars such as A-87. The 
Passamaquoddy Tribe is requesting a special appropriation in 
the amount $1,905,687 to fully compensate our tribe for 
shortfalls in indirect cost funding in previous years. The 
attachment to our document, our written testimony, is--we 
realize that it's not going to be part of the record, but we 
provide to the committee for clarification of our issue.
    In closing, the Passamaquoddy people stand ready to fulfill 
our end of the contracts that we enter into with the United 
States Government, and we ask that the Congress appropriate and 
allocate sufficient funds to Interior to allow the tribe to 
perform our contracts in a manner befitting our Passamaquoddy 
citizens.
    Mr. Skeen. And those contracts, what type of contracts are 
you----
    Mr. Doyle. We're talking about Public Law 93-638 contracts.
    Mr. Skeen. What's the product?
    Mr. Doyle. It's the Indian Self-Determination Act.
    Mr. Skeen. To contract services out.
    Mr. Doyle. It's contract--we contract with the Bureau of 
Indian Affairs to----
    Mr. Skeen. Oh, I see.
    Mr. Doyle [continuing]. Provide the services.
    Mr. Skeen. Okay, I understand then. Well, thank you very 
much. We appreciate your being here.
    Now I'm going to turn this back over to the chairman 
grande.
    Thank you, sir.
    [The information follows:]

[Pages 342 - 345--The official Committee record contains additional material here.]


                                           Thursday, March 6, 1997.

                        BUREAU OF INDIAN AFFAIRS

                                WITNESS

JONES BEGAY, ASSOCIATION OF NAVAJO COMMUNITY CONTROLLED SCHOOL BOARDS

    Mr. Regula [presiding]. Okay, where are we, Joe?
    Mr. Skeen. We're right at the top of the list there.
    Mr. Regula. 3:35.
    Thanks, Joe. I appreciate it.
    Mr. Miller [presiding]. The Association of Navajo Community 
Controlled School Boards, Jones Begay. Mr. Begay, welcome.
    Mr. Jones Begay. Thank you. Mr. Chairman and committee 
members, we are testifying for 13 schools. We have an 
association for members of contract and grant schools on the 
Navajo reservation. We'll be talking about five issues.
    The first one is on the student transportation, and we need 
an increase in this funding which funds our school bus systems. 
It's on a per-mile basis, but currently it's only $1.60 per 
mile. To give you an example, let me explain. We run our buses 
326 miles a day on unpaved or unimproved roads. They're all 
dirt roads. At the same time we incur costs on our bus drivers 
and field costs, and then maintenance and all that, which is 
higher than--the cost is higher than $1.60 a mile.
    The other thing, we run into a problem because of the 
moratorium on increases in the school bus rate charged by GSA 
which will soon be coming to an end, and we'll get a large 
increase in these lease rates. Funding for student 
transportation has never been sufficient all these years, and 
we have to get some scarce dollars from the funds you supply to 
fulfill our instructional programs to supplement the student 
transportation, and we have no choice. We just have to do this.
    We ask that you specifically increase the BIA budget 
request for student transportation to a level where we can use 
the national rate, which is at $2.92 a mile. I'm pretty sure 
the other schools from the Navajo Nation that were here before 
to testify on their school agree.
    And some of the things we heard is also on administrative 
cost grants which enables to exercise our self-determination 
rights guaranteed by Congress. It funds our indirect and 
administrative costs, and without this funding, the tribal 
school board wouldn't have funds to properly run their 
administration responsibilities.
    BIA has requested $2.5 million for indirect cost grants, 
but this doesn't mean that individual schools' administrative 
costs are increasing. Rather, BIA seeks to increase because--
requesting those increases because--12 more schools will 
convert from BIA operation to tribal operations in Fiscal Year 
1998-99 school year, and it will come out of the fund that's 
funded for Fiscal Year 1998 budget request. After that, the 
coming year, there will be 10 more schools that's going to be 
converted to tribal operations.
    We're not sure that the $2.5 million increase is enough to 
supply the administrative cost grants of the converted schools 
because BIA's budget does not explain how it was calculated. So 
we ask that you fund now enough, and please don't wait for us 
to come back to you and say we still don't have enough funds.
    Then the other one is the severance costs. When a school 
converts from BIA to the trial contract operation, there's two 
fundings. The first one is the school becomes eligible for an 
annual administrative cost grant, and then the second one is 
that it incurs a one-time severance cost for Federal employees 
who worked there. And these severance costs are paid even to 
former employees that were hired by the tribal school boards.
    The BIA budget justification does not identify the amount 
of severance costs that will incur or from which budget 
category they will be supplied. So the BIA law does not permit 
these severance costs to be paid from any other funds Congress 
supplies for school operations. The reason is school funds are 
intended for program and administrative costs of the schools, 
not for severance pay for former Federal personnel. And we ask 
you to include report language that reminds BIA it may not use 
the ISEF funds, administrative cost grant funds, and student 
transportation, or any other monies for employee severance pay.
    On facilities operation and maintenance, the Federal 
Government owns the buildings in the BIA school system. This 
means that Congress and BIA should be as interested as we are 
in making sure these buildings are maintained properly. Every 
year, the same thing, we don't get enough funds to provide 
operation and maintenance of our school buildings.
    Several years back, BIA was told to develop a formula, and 
it was done, but we just only received about two-thirds of that 
funding formula required. When this is happening, we're 
sacrificing building maintenance. We cannot cut our electric 
bills or water bill or heating bill, but we pay them in full. 
And then, at the same time, we need to maintain our boilers and 
our fire safety, and keeping the buildings clean. And then by 
doing this, we get very few dollars to do preventative 
maintenance and minor repairs. We ask that there be an increase 
in the school facility O&M budget by at least one-third to 
preserve the investment of the United States has made in these 
buildings.
    And the last one is teacher housing. As I mentioned, I'm 
from the area school up on the reservation, and we only have 
trailers up there. They won't last long, and by doing this, we 
could get qualified teachers up there, because when we 
interview them, they're always asking the condition in housing 
and all this. We would be grateful if Congress could establish 
a small revolving funding program for the housing construction, 
perhaps $1 to $2 million per year, and this would attract any 
employee interested in the welfare of the Indian children in 
the BIA school system.
    Mr. Miller. Thank you very much. That's exactly five 
minutes. Thank you very much for the timing of that. We 
appreciate it.
    Mr. Jones Begay. Thank you.
    Mr. Miller. We certainly appreciate your information. Thank 
you for coming to Washington for this.
    Mr. Jones Begay. Thank you.
    [The information follows:]

[Pages 348 - 350--The official Committee record contains additional material here.]


                                           Thursday, March 6, 1997.

                            INDIAN PROGRAMS

                                WITNESS

RICHARD BAD MOCCASIN, MNI SOSE INTERTRIBAL WATER RIGHTS COALITION, INC.

    Mr. Miller. Next we'll have Mr. Richard Bad Moccasin, who 
is with--I'll let you make sure I pronounce it right. Mr. 
Moccasin, welcome.
    Mr. Bad Moccasin. Thank you, Mr. Chairman. On behalf of the 
Mni Sose Water Rights Coalition, the Intertribal Water 
Coalition, I want to thank you, Mr. Chairman, and the members 
of the committee, for the opportunity to testify here today. I 
speak in behalf of the Missouri River Basin tribes on the need 
for continual financial assistance and congressional support 
for tribal water resource management and development in the 
Missouri River Basin. I'm Richard Bad Moccasin, executive 
director of the Mni Sose Coalition and an enrolled member of 
the Crow Creek Sioux Tribe.
    I'll summarize the testimony by just referring to the 
reason I'm here is to request an appropriation and outlined 
that on the last page of your document.
    The Missouri River Basin Tribe is requesting an additional 
congressional appropriation to the BIA for non-recurring 
programs, resource management, water management, planning and 
pre-development of $300,000 in Fiscal Year 1998 for water 
research and studies in the Missouri River drainage basin. The 
Missouri River Basin tribes request these funds for use to 
conduct water resource students and research related to Indian 
water rights claims in the Billings, Aberdeen, and Anadarko 
areas. In addition to studies and research, the funding will be 
utilized in training tribal natural resource personnel and 
tribal leaders in water resource management. The requested 
funding will also provide training to Missouri River Indian 
tribes in the development of water resource management systems. 
The lack of adequate funding is most severe for smaller tribes, 
who have yet to establish water resource programs.
    In a recent assessment conducted by the Mni Sose Water 
Rights Coalition, it was found that 12 of the 28 Missouri River 
Basin tribes lacked water resource programs to address 
management, water quality, and watershed protection. The tribes 
are requesting that the Federal Government respect their trust 
responsibilities and assist them in the protection, promotion, 
and development of their precious water resources.
    Second, the Missouri River Basin tribes request a 
congressional appropriation to the Bureau of Indian Affairs for 
central office operations, resource management, water resource 
of $250,000 in Fiscal Year 1998 for funding of field operations 
in the Billings, Aberdeen, and Anadarko areas to assist 
Missouri River Basin tribes. The BIA does not have the human 
resources available to fulfill their trust responsibilities to 
provide technical assistance to tribes in water resource 
management. The BIA has a mandate to develop and update a 10-
year plan for water resources with tribal input.
    The Missouri River Basin tribes also lack access to water 
resource information, technology, and expertise, and request 
that the Billings, Aberdeen, and Anadarko areas be provided 
funds to conduct field operations to provide these services 
through the Coalition. The Technical Services Center operated 
by Mni Sose will provide the water resource information, 
current water resources techniques and practices, and expertise 
by experienced professionals to assist tribes in water resource 
management and development. The Technical Services Center will 
serve as the foundation through which the tribal capabilities 
are developed and enhanced. The center is the infrastructure 
for the tribes to develop sustainable water management systems 
and water resource development strategies.
    I've provided copies as requested, sir.
    Mr. Miller. Thank you very much. We'll certainly, when we 
work through the appropriations process, consider it. Thank you 
very much. We appreciate your coming before us today.
    [The information follows:]

[Pages 353 - 358--The official Committee record contains additional material here.]


                                           Thursday, March 6, 1997.

                            INDIAN PROGRAMS

                                WITNESS

RUBEN McCLOSKEY, UNITED SIOUX TRIBES OF SOUTH DAKOTA DEVELOPMENT 
    CORPORATION

    Mr. Miller. Next we'll have Mr. Ruben McCloskey and 
Clarence Skye.
    You're one person, not two, I can tell.
    Mr. McCloskey. Yes, I am. Yes, sir. [Laughter.]
    I'm happy to be here. I'm glad that you let me here to 
testify.
    Mr. Miller. Thank you.
    Mr. McCloskey. My name is Ruben McCloskey, and I am the 
employment assistant director for the United Sioux Tribes 
Development Corporation in Pierre, South Dakota.
    My testimony here today is for the many Indians that are 
leaving the reservations and seeking employment in the urban 
areas. There is a great difficulty for them because they are 
being cut off of welfare; they're being cut off of general 
assistance, and there isn't any employment on the reservations 
in South Dakota that I know of. All we have is tribal programs. 
The Indian that wants to go to work is coming off the 
reservation.
    We've done the statistics, and 30 percent of the ones on 
the reservation are coming into the Rapid City, South Dakota 
area. We have approximately 17,000 to 20,000 Indians living in 
Rapid City at this time. Now, out of them, we found out that 
3,800 of them are homeless.
    Now what we do in our office, we see as far as 50 to 150 
people a day in our office seeking employment. I have a budget 
of $107,000 to work with. Out of that, I take $20,000 and use 
it for subsistence, and subsistence alone is the only thing I 
can do, and I'm averaging about a thousand dollars a person, 
and that is for shelter only. I would like to give them money 
for transportation. I would like to help them with their food. 
I would like to help them with their clothing. But I can't do 
it. I had to make a choice in the program: where is the most 
need? And the most need is for them to have housing.
    And back home, the housing runs from $500 for most of the 
families, and their deposit is $500, and they have to pay 
utilities. So it averages out about $1,000 a person. So right 
now I could only help twenty of them, and I've already helped 
about six, but since we've had the bad weather back up that 
way, there hasn't been too many, but they're coming in now that 
the weather is breaking.
    It's very frustrating. I know across the country they're 
talking about welfare reform, and here this program has been 
doing this for years. We're trying to get, just think, $1,000, 
I get an Indian off of welfare; he goes to work or she goes to 
work. And it really makes me feel good to see that. And here I 
understand that the State welfare spends thousands and 
thousands of dollars to get them off of welfare.
    So I'm here today testifying for them. I need more money to 
help them with their subsistence. Right now I'm in my new 
testimony. I'm asking for $100,000 more, and I could use a lot 
more, but I'm hoping, because of the budget cuts--and I'm very 
dissatisfied with the Bureau of Indian Affairs. It is their 
trust responsibility to take care of the Sioux because we 
signed treaties with them. It is their trust responsibility. I, 
for one, don't think that the Bureau of Indian Affairs should 
be let off the hook. I should think they should stay there, so 
they can protect us. That's the only protection that we have. I 
don't know about the other tribes, whether they have treaties 
with the Bureau of Indian Affairs, but I know back home that 
the Sioux Tribes don't want the Bureau of Indian Affairs 
dismantled, although we have certain tribes that do.
    So I'm asking today--and, for an example, I could use 
another $20,000 as of today, sir. I could really do that. I 
could put 20 more to work. They're coming off the reservation. 
The State has knocked them off of welfare. The Indian is caught 
between a rock and a hard place back home because, once he 
lives off a reservation, they forget about us. We go back home 
and ask for help, and they say, well, you live off the 
reservation now. They just barely take care of their own. So 
we're between a rock and a hard place, the urban Indians. We're 
trying to make it out there. We're trying to get off of 
welfare. We're trying to fit in the mainstream of society, pay 
our taxes. We were always taxpayers. Even when we were on the 
reservation we paid taxes. And you know that old stigma, that 
old feeling is, well, you get an Indian and you get a check 
every month. It's not so. We've always worked for what we got.
    We want to preserve our rights, and so I'm here asking for 
an additional $100,000. I could use a lot more. And I think 
it's the Bureau's responsibility. So I hope that this 
commission in some way can persuade the Bureau of Indian 
Affairs to give us another $100,000 in my contract, so I can 
help my people. They need help, and it's frustrating, like I 
say again, especially the homeless ones, we have a lot of them, 
and I anticipate more coming off the reservation. They're 
coming more and more off the reservation.
    So, again, here today I want to thank you for letting me 
come here and talk for the--and God only knows how many Indians 
in the State of South Dakota are homeless. I'm just talking 
about Rapid City. We've got them in Sioux Falls. We've got them 
in Aberdeen. We've got them in Water Town. Those are the four 
bigger cities in South Dakota. And I don't know how many out 
there are homeless, sir. They're having a rough way to go.
    And we are the only program that I know of in the country 
that does this, employment assistance. I am not a training 
program. I do not train people. We have the JTPA program that 
takes care of that.
    So I'm really grateful that I could be here. I hope you can 
be of some assistance, and I'm talking about the grassroots 
people back home; they need your help. So, again, I want to 
thank you today.
    Mr. Miller. Thank you very much for coming here today. We 
appreciate your testimony, and we'll certainly look at it and 
consider it. Thank you.
    [The information follows:]

[Pages 361 - 363--The official Committee record contains additional material here.]


                                           Thursday, March 6, 1997.

                            TRIBAL COLLEGES

                               WITNESSES

GERALD ``CARTY'' MONETTE, AMERICAN INDIAN HIGHER EDUCATION CONSORTIUM
VERONICA GONZALES, AMERICAN INDIAN HIGHER EDUCATION CONSORTIUM

    Mr. Miller. Next we'll have Veronica Gonzales, American 
Indian Higher Education Consortium.
    Hello there.
    Ms. Gonzales. Actually, we have Dr. Monette. He's the 
president of our organization.
    Mr. Monette. I'm not Veronica.
    Mr. Miller. You don't look like a Veronica; I can tell a 
Veronica. [Laughter.]
    Mr. Monette. My name is Carty Monette, and I'm the current 
president of the American Indian Higher Education Consortium. 
I'm also the president of Turtle Mountain Community College, 
which is a tribal college. It's located in North Dakota.
    I have been involved with the tribal college movement 
almost since its beginning. I became employed at the Turtle 
Mountain Community College in 1973, and Turtle Mountain 
Community College is one of the five charter members of the 
American Indian Higher Education Consortium.
    On behalf of the 31 tribal colleges that make up the 
consortium, I want to thank the subcommittee for allowing me to 
come and speak to you today and tell you about our needs, and 
express to you our appreciation for past support, but also I 
hope to make clear the need for additional support, so we may 
continue the fine work that the tribal colleges are doing.
    We request full funding for the Tribally-Controlled College 
Assistance Act, which is the legislation that provides 
operational dollars for the tribal college. We are requesting 
full funding for that act.
    We are also requesting this subcommittee to fully support 
and build upon the President's budget request of the $3 million 
increase for core operations. This year, for the first time as 
far back as I can remember, the administration has added some 
money to the budget for tribal colleges, and we would ask help 
in trying to maintain that in the budget, but also to go a 
little further and provide full funding as authorized under the 
legislation.
    I mentioned that the consortium was founded in 1972, and I 
think in your package you have a brochure. The brochure 
provides a map of the United States and the location of all the 
tribal colleges, and we serve many of the Indian reservations 
throughout the country and we serve many Indian people who are 
not native to the particular reservation where the tribal 
college is located. The tribal colleges reach out to a broad, 
broad representation of the Indian population.
    Some of the institutions are, as I mentioned earlier, 25, 
26 years old, and, nevertheless, throughout those years we have 
struggled, and we continue to struggle. You know, I was 
interested with the last presentation; the gentleman mentioned 
welfare reform, and I think in Indian country there are a lot 
of really good programs that are trying to address people who 
are on unemployment and people who need work.
    In that respect, the tribal colleges I think have been 
doing that since the very beginning, because that's what we do. 
We're taking the population of people who traditionally haven't 
enjoyed the benefits of American society, and in most cases 
haven't enjoyed a good lifestyle. The typical student at a 
tribal college is a GED graduate, and that means they haven't 
completed the traditional route to gain a high school diploma, 
but they've earned the GED after several years being out of 
school, sometimes dropping out in the early years of school.
    The student is single, has children, is female, and about 
31 years old, 30 years old is the average age, and unemployed, 
and of course there are cultural problems that the students 
face. There are language problems and problems with living a 
somewhat different culture than mainstream America, and that 
infiltrates into the classrooms, into the schools. So we're 
dealing with a really unique population group.
    I'll throw out this figure, although I somewhat hesitate to 
do that, but on the American College Testing mean score, ACT 
mean score, the average test score is 14. That's extremely low. 
In the State of North Dakota the mean score is 24. 
Nevertheless, we're taking these students into the institution 
and we talk about welfare reform, and I believe that the tribal 
colleges are performing a service in regard to welfare reform. 
I think as we bring--you know, we talked about the mean score, 
the ACT mean score; the academic preparation of these 
individuals requires us to provide a lot of attention to the 
student, so that they may succeed.
    We also offer programs to hundreds of individuals, pre-
college programs, to prepare them even for the GED. Now this is 
not a typical function of a college, but we have to do that 
because of the type of population we serve. So we are reaching 
down into the tribal communities and trying to nourish these 
people and build them up to a point where they can participate 
and enjoy the benefits of post-secondary education. We've been 
very successful in doing that.
    The problem that we're having, of course, is the funding is 
not adequate, and the history of our funding clearly 
demonstrates that the tribal colleges are doing a good job, but 
we're doing it with far less money than we actually ought to be 
getting to run the quality of education that we need to bring 
to our people.
    When the Tribal College Act was first authorized about 16 
years ago, the authorizers determined that there was a certain 
level of funding that was necessary to operate community 
colleges. Well, we've never enjoyed that appropriation. In 
fact, the first appropriation provided was a little over $2,800 
per student. That was less than half than what the authorizers 
had determined was necessary to run our tribal colleges. In the 
last decade and a half, appropriations per Indian student have 
not increased and never have met the tribal college basic 
operational cost.
    After 16 years, the tribal colleges currently receive an 
estimated $2,861 per ISC. In fact, because of recent funding 
history for tribal colleges with no increases in the budget to 
provide basic operational monies, funding has actually dropped 
by $317 per student. So compared to the original appropriation 
a decade and a half ago to the current funding that the tribal 
colleges are receiving, we've actually seen a decrease in 
funding per Indian student. This, of course, this small amount 
of money has to be applied to basic operations to keep pace 
with increasing costs. Of course, we're not even considering 
inflation in that. That would be a luxury to be able to 
consider that.
    At the same time, enrollment has increased by 230 percent. 
And I have another chart in this document that explains the 
enrollment patterns of the tribal colleges. I'd like to go over 
that just briefly with you.
    We're looking at 1981 to 1997, and the line here that goes 
up reflects the increase in enrollment at these institutions. 
We have two other lines here. This particular line reflects the 
appropriations from Congress per Indian student, and you can 
see that from the beginning of the Tribal College Act to the 
current Fiscal Year, there hasn't been a substantial increase 
at all. In fact, we've experienced several dips, a little 
increase, and back to a little less than where we started. The 
bottom line reflects a loss due to inflation.
    Mr. Miller. One thing that's good is your student 
population is increasing. That's good that you're getting more 
going to school. That's a positive. It's just that the money 
doesn't flow into it, I guess.
    Mr. Monette. That's correct. I believe, as again we'll talk 
about welfare reform, as these Indian people, Indian students, 
Indian community people, who are currently on welfare, turn to 
somewhere to get off of welfare, they're going to be turning to 
the tribal colleges. I think we present to them some hope, so 
that they can gain some needed education and training for 
employment, and we offer them the opportunity to gain the 
skills necessary to get off welfare. I think welfare reform is 
not just now becoming a topic, because the students that we 
served from the very beginning are the type of people who were 
on welfare, and our successful students, of course, would have 
been, had it not been for our institutions. So we really do 
appreciate any support that you can give to our institutions, 
and I think we're doing a good job.
    There are other justifications for----
    Mr. Miller. It's time you bring it to a conclusion because 
we are running behind, if you don't mind.
    Mr. Monette. Okay. The conclusions, I could just repeat 
what I've been saying thus far. The point is that we would 
appreciate more consideration, one, to sustain the money that 
we have and one to increase us to an appropriate funding level. 
Our institutions are operating at about half of what the 
similar State institution would operate under.
    And I thank you for your time and for listening.
    Mr. Miller. Thank you very much, Doctor. I appreciate your 
coming.
    [The information follows:]

[Pages 367 - 370--The official Committee record contains additional material here.]


                                           Thursday, March 6, 1997.

                              DOI PROGRAMS

                               WITNESSES

JIM SHORE, SEMINOLE TRIBE OF FLORIDA
AGNES B. MOTLOEE, SEMINOLE TRIBE OF FLORIDA

    Mr. Miller. We will have James Billie, who's a Floridan, 
the Seminole Tribe of Florida. I am from Sarasota/Bradenton in 
Florida.
    Mr. Shore. Yes, we know that very well.
    Thank you, Mr. Chairman.
    Mr. Miller. Thank you for coming today. You're going back 
to weather back home.
    Mr. Shore. Yes, I think we're going to get out of here in 
the nick of time. We're going to head out tomorrow morning. I 
hear it's 85 degrees back in Hollywood.
    Mr. Miller. Is that right? [Laughter.]
    Mr. Shore. Go from 20 to 85.
    Mr. Miller. It was nicer last weekend.
    Mr. Shore. Thank you for giving us an opportunity to appear 
on behalf of the Seminole Tribe of Florida. Chairman James 
Billie took ill and could not make it today.
    Mr. Miller. Oh, I'm sorry.
    Mr. Shore. My name is Jim Shore. I am the general counsel 
for the Seminole Tribe of Florida, and with me is Agnes 
Motloee, my administrative assistant.
    And we are asking for $1.2 million from the Department of 
the Interior to implement our Everglades restoration plan. The 
written statement that we have submitted for the record details 
our request, but I want to make a couple of general comments.
    The Everglades is a special place for the Seminole Tribe of 
Florida. If it was not for the Everglades--I mean, the 
Everglades provided a place of refuge for the Seminoles during 
the Seminole and United States conflict of earlier times, and 
if it was not for the Everglades, the Seminole Tribe may not be 
around today. So we have developed what we call Everglades 
restoration plan, and it is designed to preserve the natural 
resources of the Everglades and the livelihood of the Seminole 
farmers and ranchers, and we think these two goals can be 
accomplished, but we will need the cooperation and assistance 
from the Federal and the State government.
    And, in addition, the trend of Federal funding of Indian 
programs is at an alarming rate of decline. The Indian Health 
Service only provides 45 percent of Seminoles' medical needs, 
and the Seminole Tribe provides at least 75 percent of all of 
our Indian programs from early childhood to adult education. 
We're doing the best we can from the revenues generated from 
our gaming activities, but the basic needs for governmental 
services still remain. However, in that context, we urge 
Congress to find some ways of increasing the Federal funding 
for the Fiscal Year 1998, particularly the Tribal Allocation 
Program.
    And, with that, I want to thank the committee for hearing 
our request for funding the Everglades restoration plan and our 
general concerns on Indian programs. Again, thank you for 
allowing us to be here today.
    Mr. Miller. Thank you very much for coming. We appreciate 
it.
    Mr. Shore. Thank you.
    [The information follows:]

[Pages 373 - 376--The official Committee record contains additional material here.]


                                           Thursday, March 6, 1997.

                        BUREAU OF INDIAN AFFAIRS

                               WITNESSES

EARL HAVATONE, HUALAPAI TRIBE
MONZA HONGA, HUALAPAI TRIBE

    Mr. Miller. Mr. Earl Havatone. Welcome.
    Mr. Havatone. Thank you.
    Mr. Miller. The weather is not as nice here today, either. 
It's a little windy and cold out there.
    Mr. Havatone. Mr. Monza Honga is here with me also.
    Mr. Chairman, and members of the subcommittee, my name is 
Earl Havatone, chairman of the Hualapai Tribe. Our reservation 
is located in northwestern Arizona, 1 million acres on the rim 
above the Grand Canyon, adjacent to Grand Canyon National Park.
    I am here today to share with you the needs of my tribe, 
for which we are asking $13,000,322 from the Department of the 
Interior budget. Your past support has made it possible for the 
Hualapai Tribe to create--and implement--an aggressive, 
integrated tribal management process. As a result, the Hualapai 
Tribe today is far more progressive in delivering social 
services to our people. With the help you have given us, we 
have trained an impressive number of our young people in recent 
years. Our goal is sustainable community. The first concern is 
our people, especially our children, who are our future.
    Modern health care facilities and programs for the Hualapai 
are virtually nonexistent. We are asking today for your help in 
providing emergency health services: funding for medical 
screening and health maintenance for our children, and 
assistance in mental health programs.
    We are asking for funding for the environmental services 
that support the quality of life on the Hualapai reservation. 
It should be obvious to you, though, that our community's 
infrastructure still fails to serve the fundamental needs of 
our people in other ways. We are asking today for additional 
housing money, for a simple, one-time-only project that would 
provide our only community, Peach Springs, with an emergency 
back-up drinking water system, and for assistance in certain 
programs that would greatly improve the quality of life in that 
community: structural fire-fighting capability; welfare 
assistance, including vocational skills training; educational 
and youth and elderly programs, and help in law enforcement.
    Mr. Chairman, what resources we have we manage well. We 
manage for the future, as well as for current needs. First and 
foremost, we actively protect and honor our cultural resources. 
Our lands and waters are our economic core. We ask that you 
once again help us in moving forward with the training of our 
young people to manage these lands and the funding of programs 
to utilize these vast resources for the good of all of our 
people. We have asked for substantial funding for forestry, for 
wildlife, fisheries and parks programs, and for establishing 
water rights and utilizing the water we can harness now.
    The Hualapai do not wish to perpetually depend upon 
Congress and the Federal agencies for the tribe's well-being. 
We have demonstrated to this subcommittee over time that we 
have the human and natural resources to achieve a self-
supporting, economically and environmentally-sustainable nation 
within the bounds of our reservation.
    You have helped us, and, in turn, we have taken important 
successful steps toward self-determination. Our objectives are 
realistic, and with your help, these objectives will be 
reached.
    In behalf of the Hualapai Tribe, Mr. Chairman, I want to 
say thank you for the time you have allowed us today. Thank 
you.
    Mr. Miller. Thank you very much. Thank you for coming here 
today.
    [The information follows:]

[Pages 379 - 382--The official Committee record contains additional material here.]


                                           Thursday, March 6, 1997.

                            INDIAN PROGRAMS

                                WITNESS

A. BRIAN WALLACE, WASHOE TRIBE OF NEVADA AND CALIFORNIA

    Mr. Miller. Mr. Brian Wallace.
    Mr. Wallace. Good afternoon, Mr. Chairman.
    Mr. Miller. Good afternoon.
    Mr. Wallace. How are you?
    Mr. Miller. Good.
    Mr. Wallace. First of all, on behalf of the members of the 
Washoe Tribe, I would certainly like to thank you for all the 
courtesies the committee has extended to us in the past and 
this year. We really look at this as an opportunity.
    I think for the benefit of the committee, I won't go in 
detail through our written submission; I'll just highlight. I 
wanted to talk a little bit about some of our efforts to 
provide needed substance abuse and adolescent mental health 
services to not only our population, but to the greater Native 
population in western Nevada and eastern California, and also 
to bring greetings from Lake Tahoe, which is our ancestral 
homeland.
    What I've outlined is basically the introductory facts as 
to our current situation as a tribe, being in two States and 
having to work with five or six different county governments in 
subject matter jurisdictional issues, most particularly in the 
area of law enforcement; most recently, some of the work that 
we're doing with the attorney general in the State of 
California who has actually seen clear to submit to the 
legislature a special legislative initiative to codify in State 
statute the recognition of subject matter criminal jurisdiction 
of the tribe in that part of California, which I think will go 
a long ways in normalizing our relations and in the field more 
effective law enforcement efforts on behalf of the State, 
county, and the tribe. So that's something that is very 
affirmative.
    We do discuss in the testimony tribal courts, higher 
education scholarship needs, and then in the area of social 
services--and if I can concentrate on that, back in 1987 this 
committee authorized the establishment of regional treatment 
centers to provide needed substance abuse and after-care 
services in a residential modality for Indian children in 
Nevada. Actually, at that time there was a larger facility in 
Arizona. In 1992, I think the committee actually appropriated 
money for the engineering design of a facility which has yet to 
arrive. There was a couple of attempts made to establish this 
in western Nevada, and then in 1995 the tribes of Nevada passed 
resolutions and also the tribes in the Phoenix area, supporting 
that this facility be established as part of our overall family 
wellness effort there on the Washoe reservation. We were 
heavily involved in adolescent mental health at the time, and 
we still are, and, unfortunately, there's growing demand for 
these services.
    Where we're at right now is that we've been working to try 
to convince the Indian Health Service to reprogram these 
monies, and rather than get involved in an extensive design and 
engineering and construction process, which there's already 
limited resources for that type of effort, to allow us to 
reprogram that money and couple it with our existing adolescent 
mental health mission to provide these needed services. And the 
closing days of the 104th Congress, the Indian Health Service, 
Dr. Trujillo and the area director, made a commitment to you, 
like you and I at this table, that if we were successful in the 
Senate to get support for offering a floor amendment to the 
Conference Report at that time, that they would concur. Well, 
we did our work over the weekend, and we brought it to that 
point, and when the Senate called the Indian Health Service, 
they declined to support the effort. So we don't have a lot of 
confidence, or we're not inspired with a lot of confidence, in 
working with the area right now.
    Really what we're here to get your guidance on is how we 
can enshrine in conference some statutory language, direction 
of reprogramming these resources, because we've offered one of 
our facilities to give to this project, so we don't have to get 
into a very expensive capital construction process, and to get 
to deliver these services to Indian children, who literally--
I'm not being overly dramatic--are committing suicide in our 
part of the State of Nevada. Really there is literal pain and 
suffering that's going on without these very needed services.
    We believe that we have all the affirmative pre-conditions 
to do the job, and what we want to do is just reprogram what 
has already been appropriated--we're not asking for any 
additional money--and then work with the Indian Health Service 
on the presidential request for operational support, like they 
do other regional treatment centers, to get this going like 
right now.
    Short of being betrayed by the Indian Health Service, we've 
entered into a partnership with the Carson-Tahoe Hospital and 
their life stress unit to begin to try and address this need 
right now with our existing psychologists, and they have 
actually provided us privileges to their facility, but really 
what we're doing is trying to do twice as much with less.
    So we're really here today to see if we can somehow get 
your support in directing the Indian Health Service to do the 
right thing and reprogram this money, and then put it to direct 
use, rather than dilly-dallying around with engineering studies 
and going through this extensive planning effort, which I think 
was wasteful. We generally found them to be pretty slippery 
customers up until now, and I think with direction from you, I 
think we can begin to save children's lives.
    So, in the end, that's the primary purpose of my testimony. 
I don't want to diminish the importance of the other things 
that I did put in there, but this is an opportunity of many 
lifetimes, and we're some of the lucky few that can come here 
and really speak on behalf of those that can't. So we really 
look for your assistance.
    And then I guess, Do we work with staff, committee staff, 
in trying to accomplish report language?
    Mr. Miller. Right, right. The committee staff will follow 
up with this. As we deal with the Bureau of Indian Affairs, 
we'll look into it and see what we can do.
    Mr. Wallace. We really appreciate the time and help. If you 
can help us save these lives of these children, I would 
personally be very grateful.
    Mr. Miller. Thank you very much for coming here today. We 
appreciate it.
    [The information follows:]

[Pages 386 - 391--The official Committee record contains additional material here.]


                                           Thursday, March 6, 1997.

                        BUREAU OF INDIAN AFFAIRS

                                WITNESS

DENIS TURNER, SOUTHERN CALIFORNIA TRIBAL CHAIRMEN'S ASSOCIATION

    Mr. Miller. John Stevens. John Stevens from the Maine 
Passamaquoddy Tribe is not here.
    We'll proceed with Mr. Robert Smith. Is Mr. Smith here? Mr. 
Smith, good afternoon.
    Mr. Turner. Good afternoon, Congressman. I'm stepping in 
for Mr. Smith. My name is Denis Turner for the record. It's on 
the testimony sheet. Currently, Mr. Smith is back in 
California. He's a chief negotiator with the governor over a 
gaming compact, which has reached the stage of confrontations 
with the U.S. attorney's office, and can't be here today to 
make sure that our people do not get into a confrontation with 
the United States attorney's office. So he's asked me to be 
here.
    So, basically, again, I'd like to thank the committee in 
its past efforts to see that there is funding for small tribes 
throughout the United States.
    In my packet, as you will see--and I will just do a 
verbatim on it--is some of the figures on fundings that come to 
California. Certainly last year there was $4 million throughout 
the country. This committee made that happen. The small tribes 
throughout the United States are appreciative of that.
    As you know, the Bureau has a little problem adding and 
subtracting sometimes, and that's why we named this ``equal and 
equitable base level funding. As they've established now the 
Office of----
    Mr. Miller. Mr. Regula will take over now. Thank you.
    Mr. Regula [presiding]. Thank you. Okay.
    Mr. Turner. Thank you, Mr. Chairman. I just started to, 
again, thank the committee for the $4 million appropriations to 
small tribes last year, and continue that, hopefully, for this 
1998 budget.
    I was just admitting a little shortfall that the Bureau has 
in not being able to add and subtract once the money leaves the 
committee to go over to the Bureau of Indian Affairs, and I 
think this is really seen when you look at why we have an 
Office of Special Trust now, because it even gets more 
difficult when you're trying to divide these funds into over 
100 tribes, at least in California.
    But I think that the effort of this committee to assure 
small tribes funding has made tribes throughout the United 
States, and especially California, more grateful, in fact, that 
they can operate their tribal governments in a more 
professional, executive manner. So we want to continue that and 
at the same time thank you for it.
    The second part of my subject is tribal court funding for 
tribes in California. The reason I have added in the appendix--
and this is so thick, I'd like each one of the committee 
members for their libraries, and others on the committee, when 
they get a chance and have time to read, to look it over. It's 
really a history of what's happened in California.
    We have no tribal court funding other than for two tribes 
in the State. There's 103 tribes, and I provide a list of those 
tribes. Essentially, what happened is prior to the self-
determination--not the self-determination, but the IRA Act, we 
had the Determination Act and then we had the Self-
Determination Act, and what happened since then is that the 
tribes in California essentially lost their court system 
because Public Law 280 came into place. During those 40 years, 
the State of California felt like--it knew prior that we did 
have tribal courts; we had Indian police, but Public Law 280 
sort of took that away. So over the last 40 years, it's 
basically just been a big gray area, which has led us to a lot 
of lawlessness that happens on behalf of certainly----
    Mr. Regula. Okay, well, you want more funding for tribal 
courts for the small tribes?
    Mr. Turner. Right. Well, there is basically only two courts 
in this whole State of California with 103 tribes.
    Mr. Regula. Yes.
    Mr. Turner. Because we've sort of been left behind----
    Mr. Regula. Okay, well, we'll take that under 
consideration.
    Now you have the third item, the land purchase?
    Mr. Turner. Right. In several parts of California we have 
land, reservation land, like three or four thousand acres, and 
right in the middle of it is some non-Indian land that was 
either owned by a special agent and somehow he got it 
appropriated through Congress back at the turn of the century--
--
    Mr. Regula. You'd like to fill in those gaps?
    Mr. Turner. We'd like to do that. Many of the tribes 
throughout the country have done that. Certainly we have the 
support of our Congressman, Duncan Hunter, on this issue, and 
he couldn't be here today, but working with him and all the 
local groups to do that--there's nobody opposing it.
    Mr. Regula. You just need money?
    Mr. Turner. Exactly. And that's part of the record here. 
The chairperson from the Manzanita reservation, again, is 
hoping to make sure that there is not a confrontation in 
California over other issues, not that these tribes have the 
gaming and have the resources to buy these properties, but 
would like in some way to help this committee help them in 
doing an acquisition.
    Mr. Regula. Okay, well, thank you very much for coming.
    Mr. Turner. Thank you, Mr. Chairman.
    [The information follows:]

[Pages 394 - 397--The official Committee record contains additional material here.]


                                           Thursday, March 6, 1997.

                        BUREAU OF INDIAN AFFAIRS

                                WITNESS

DENIS TURNER, MANZANITA BAND OF MISSION INDIANS

    Mr. Regula. We have the Manzanita Band of Mission Indians. 
Is there anyone here?
    Mr. Turner. Excuse me, Mr. Chairman. That was the second 
part of my presentation.
    Mr. Regula. Oh, you're both?
    Mr. Turner. Right.
    Mr. Regula. You're wearing two hats today?
    Mr. Turner. Exactly. So in the bank portion of really the 
testimony today is my statement for the Manzanita Band.
    Mr. Regula. Okay, okay, very well.
    Mr. Turner. And that's a planned acquisition.
    Mr. Regula. I assume this is near San Diego then?
    Mr. Turner. Yes, it is. It's 45 miles east of San Diego, 10 
miles north of the Mexican border.
    Mr. Regula. And you're in Duncan Hunter's district?
    Mr. Turner. Yes, sir.
    Mr. Regula. I've talked with Duncan about it.
    Mr. Turner. Okay, thank you.
    Mr. Regula. Thank you.
    [The information follows:]

[Pages 399 - 401--The official Committee record contains additional material here.]


                           Thursday, March 6, 1997.

                        BUREAU OF INDIAN AFFAIRS

                         INDIAN HEALTH SERVICE

                                WITNESS

DARRELL DRAPEAU, YANKTON SIOUX TRIBE

    Mr. Regula. Yankton Sioux Tribe. Okay, tell us your 
problems.
    Mr. Drapeau. Okay. Mr. Chairman, my name is Darrell 
Drapeau. I'm the elected chairman of the Yankton Sioux Tribe.
    Mr. Regula. How big is your tribe?
    Mr. Drapeau. We're a little under 7,000 members, half of 
whom live on the reservation.
    Mr. Regula. And you're located in Arizona?
    Mr. Drapeau. South Dakota.
    Mr. Regula. South Dakota?
    Mr. Drapeau. Yes.
    Mr. Regula. Okay.
    Mr. Drapeau. I have submitted a more thorough document 
containing appropriation requests for the benefit of our 
reservation, and I would invite the committee's attention to 
that document.
    Today I will simply state that, for the benefit of the 
members of our tribe, I wish to make the following 
appropriation request:
    One, for construction and staffing of the Indian Health 
Service inpatient unit, we request a total of $15,644,631, 
which is for both construction and staffing.
    Two, for additional police----
    Mr. Regula. Do you have a priority in Indian Health 
Services for this? Have they supported it?
    Mr. Drapeau. It's not necessary.
    Mr. Regula. It's not necessary? Okay.
    Mr. Drapeau. The second would be for additional police and 
other necessities needed to handle the extra law enforcement 
responsibilities resulting from the recent recognition by the 
Federal courts of our original reservation boundaries. We are 
requesting $450,000 for an additional police and support.
    Mr. Regula. This would be on the reservation?
    Mr. Drapeau. Yes. Yes, sir.
    Mr. Regula. Okay.
    Mr. Drapeau. Third, for beefing-up our judicial services, 
for the same reasons, we are requesting an appropriation of 
$165,000.
    Four, for staffing of our new juvenile detention center, we 
are requesting an appropriation of $816,970.30. With this 
appropriation, however, we will be able to house juveniles from 
other reservations, which the BIA has estimated will bring in 
revenue to us in the amount of $1,673,000 annually. I might add 
that we were fortunate enough to have received a grant from the 
Justice Department to construct a new juvenile detention 
center. It will be a 60-bed facility. Once it is completed and 
staffed, we will no longer have to send our troubled juveniles 
to far-off reservations.
    Mr. Regula. Well, I don't follow it. You have that one; why 
are you asking for the $800,000?
    Mr. Drapeau. It's in the process of being built. We just 
got the grant probably about a month or two ago.
    Mr. Regula. From the Justice Department?
    Mr. Drapeau. Yes, yes.
    Mr. Regula. But I thought you asked for $800,000 to build a 
juvenile facility.
    Mr. Drapeau. Let's see. Yes, that's--this here would be for 
like the--that $1.3 million grant is for construction, and 
this----
    Mr. Regula. You're talking about operations?
    Mr. Drapeau. Yes.
    Mr. Regula. Okay. All right.
    Mr. Drapeau. We feel that we could do a better job of 
rehabilitating these young people if their families can be near 
them as they are processed through the system.
    I wish to thank the chairman and the members of the 
committee one more time for this opportunity to be here.
    Mr. Regula. Well, thank you for bringing this to our 
attention.
    [The information follows:]

[Pages 404 - 407--The official Committee record contains additional material here.]


                                           Thursday, March 6, 1997.

                            INDIAN PROGRAMS

                               WITNESSES

MARGARET DIAMOND, LAC COURTE OREILLES
MIKE ISHOM, LAC COURTE OREILLES

    Mr. Regula. Okay, we have the Lac Courte Oreilles group. I 
don't know how close that was.
    Ms. Diamond. Good afternoon, Mr. Regula. I thank you for 
your time. I want to also ask your forgiveness in having to 
read my summary, but our time is little and our needs are 
great.
    Mr. Regula. Okay.
    Ms. Diamond. On that unhoused elementary school for 
children on Courte Oreilles, we are requesting $7 million. The 
Courte Oreilles Elementary School was condemned by the 
Assistant Secretary of the Interior. The reason for the 
condemning was an emergency issue linked to health and safety 
deficiencies of the facility. The order was for the facility 
management and construction center out of Albuquerque to 
provide adequate space to meet the enrollment and educational 
program needs. The cost for this emergency was $9 million. The 
FMCC out of Albuquerque provided the Courte Oreilles Tribe with 
$2.1 million. The need is $7 million to complete this project.
    Our Headstart building, $800,000 request. In addition to 
the emergency with the unhoused elementary school students, we 
have a similar health and safety problem with our pre-school 
students and our Headstart. The building maintenance costs will 
continue to rise because of the ages of the facilities and they 
are much too small, resulting in severe overcrowding. We, in 
fact, must turn away kids from participating in our Headstart 
programs. We all know how important it is to provide an early 
educational experience for pre-school children, and our kids 
have been denied that critical experience because of poor 
conditions in these facilities.We need these funds to ensure 
that all our kids can receive a pre-school education.
    Our water and sewer system, we are asking $6.5 million. We 
lack adequate water and sewer systems in 15 of our communities. 
Most of the homes in these communities have drain fields which 
are failing and are now polluting the ground water. We can 
connect these homes to a nearby modern waste water treatment 
plant, but we need the funds to do so.
    Mr. Regula. Where are you located?
    Ms. Diamond. We're located near Hayward, Wisconsin, about 
80 miles south of Duluth.
    One community will not be able to connect economically to 
this treatment plant and will need its own system. This 
community also needs to remove the asbestos water pipes which 
were put in service over a decade ago. These infrastructure 
problems need to be taken care of before----
    Mr. Regula. Are these all on the reservation?
    Ms. Diamond. Yes, all on the reservation.
    We need to take care of them before we can begin to even 
help our people before more serious health problems arise.
    Mr. Ishom. On the Great Lakes Indian Fish and Wildlife 
Commission here, the Courte Oreilles Band supports the 
administration's proposed Fiscal Year 1998 funding level of 
$3,548,000 for the Intertribal Self-Regulatory Systems which 
implement off reservation hunting and fishing.
    Mr. Regula. Do you have fishing on your reservation as well 
as off?
    Mr. Ishom. Yes, we do.
    Mr. Regula. And do non-Indians use your reservation 
facilities?
    Mr. Ishom. Yes, they do.
    Mr. Regula. Do you charge them anything for this?
    Mr. Ishom. No.
    Mr. Regula. And is this all sportfishing?
    Mr. Ishom. With the non-Indians, yes.
    Mr. Regula. But for the Indians, do they do commercial or 
at least subsistence fishing?
    Mr. Ishom. No, we don't do commercial fishing, the Courte 
Oreilles.
    Mr. Regula. But you do subsistence fishing?
    Mr. Ishom. Right.
    Mr. Regula. And hunting, probably the same thing?
    Mr. Ishom. And, also, we just--in the Mille Lacs treaty 
case in Minnesota, we just won that case over there, and we'll 
be implementing treaty rights in Minnesota, and we want to go 
on record in support of the Great Lakes Indian Fish and 
Wildlife Commission's request for an additional--
    Mr. Regula. Did this case give you access to some more 
lands since it's--you said treaty rights?
    Mr. Ishom. We ceded--in the ceded territory, comprised of 
three States--Michigan, Minnesota, and Wisconsin--we've been 
implementing the treaty rights in Wisconsin and Michigan, but 
Minnesota is a different district.
    Mr. Regula. Okay.
    Mr. Ishom. And back then there were no States. So we want 
to be able--well, that was basically our case, that we can hunt 
and fish in the whole ceded territory, but we had to go to the 
different courts.
    Mr. Regula. Right.
    Mr. Ishom. So the add-on for that is $95,330 to help 
implement those rights.
    Ms. Diamond. The law enforcement, we're requesting $1.6 
million. Crime on our reservation has continued to rise and 
becoming intolerable. Yet, State and county funds continue to 
decline.
    Mr. Regula. Is this crime Indians or non-Indians, or both?
    Ms. Diamond. Our tribal members.
    Mr. Regula. Tribal members. Okay.
    Ms. Diamond. Drug use and availability is rampant, and gang 
violence has skyrocketed in the last five years, resulting in 
the tribe taking the only responsible action available, and 
that is retro-session. In order to combat crime on our 
reservation, we need to set up a staffed reservation law 
enforcement department to address crime against individuals, 
but crimes against our own environment as well. The tribal 
court must have a proper jurisdiction to properly handle these 
crimes, which means staff, ordinance development, and retention 
capabilities.
    Indian Health Service, we're requesting $500,000. Our 
contract health program is not currently providing the level of 
health care that has been promised to us through our treaties. 
We will need an additional $250,000 to keep our services at the 
current level, which is still not adequate to meet the needs of 
some of our seriously ill people.
    Recognizing that there is an opportunity to reduce future 
costs by using University of Wisconsin physicians, we are 
requesting $250,000 to be placed in our budget to start a tele-
medicine program. This program allows us to use current 
technologies to access specialists within the University School 
of Medicine to diagnosis and maintain treatment of our severely 
ill patients. This lowers costs by reducing outpatient visits 
and saves travel cost of seriously ill patients and their 
families.
    I thank you for your time.
    Mr. Regula. Thank you. We're especially glad to see you 
since you're last. [Laughter.]
    [The information follows:]

[Pages 411 - 414--The official Committee record contains additional material here.]


    Mr. Regula. We put in a long day.
    Well, if anyone needs to be heard for any reason--I think 
we've covered everyone who's at least on our list.
    [No response.]
    Okay, thank you all for coming. The tough challenge is to 
try to do all these things.
    The committee is adjourned.

[Pages 416 - 671--The official Committee record contains additional material here.]




                           W I T N E S S E S

                               __________
                                                                   Page
Adams, Bert, Sr..................................................   650
Akaka, Jeffrey...................................................    85
Allen, W. R......................................................   292
Anderson, James..................................................   265
Anderson, Marge..................................................   530
Apache, Burton...................................................   177
Apesanahkwat.....................................................   509
Atwine, Ruby.....................................................   545
Bad Moccasin, Richard............................................   351
Ballot, J. A.....................................................   653
Bean, Lincoln....................................................   182
Beans, R. L......................................................   669
Begay, J. C......................................................   221
Begay, Jones.....................................................   346
Ben, Robert......................................................   102
Billie, J. E.....................................................   373
Blackhawk, John..................................................   501
Blazer, Arthur ``Butch''.........................................   165
Blue Eyes, Faye..................................................   228
Books, Paul......................................................   215
Booth, Jack......................................................   588
Brower, Arnold, Jr...............................................   662
Brown, Robert....................................................    31
Brown-Schwalenberg, Patty........................................   600
Bulfer, Joseph...................................................    31
Bullard, Loretta.................................................   665
Burnett, Dave....................................................   273
Cagey, Henry.....................................................   315
Capoeman-Baller, Pearl...........................................   139
Cerno, Frank.....................................................   153
Chanar, M. A.....................................................   652
Charles, F. G....................................................   133
Coochise, Elbridge...............................................   286
Cross, Terry.....................................................   209
Crouch, Jim......................................................   322
Crowell, John....................................................   332
Cukro, George....................................................   638
Davenport, E. R..................................................   641
Davis, J. A......................................................   436
Diamond, Margaret................................................   408
Dickinson, K. F..................................................   655
Doyle, R. M......................................................   340
Drapeau, Darrell.................................................   402
Edmo, Lorraine...................................................    94
Ettawageshick, Frank.............................................   517
Forquera, Ralph..................................................   442
Fox, Mike........................................................     7
Frank, Bill, Jr..................................................   265
Garfield, D. M., Sr..............................................   493
George, L. E.....................................................   332
Gipp, D. M.......................................................   246
Gishey, Ronald...................................................   189
Gonzales, Veronica...............................................   364
Gottfriedson, Alison.............................................   624
Gurnoe, R. M.....................................................   522
Havatone, Earl...................................................   377
Heckert, Mark....................................................     7
Hepfer, R. N.....................................................   133
Herbert, Marie...................................................   259
Herrera, Stanley.................................................   177
Hillaire, Darrell................................................   315
Hoefferle, Terry.................................................   649
Honga, Monza.....................................................   377
Honyumptewa, Clayton.............................................    20
Hopson, Eben, Jr.................................................   654
Hourland, Gregg..................................................   505
Howard, Ruben....................................................   145
Ishom, Mike......................................................   408
Ivan, Owen.......................................................   661
Ivanoff, Larry...................................................   584
Jackson, Sam.....................................................   661
James, Gordon....................................................   573
Janger, S. A.....................................................   620
Jim, Rexlee......................................................   221
Jimmie, Alexie...................................................   652
Johnson, Julie...................................................    79
Johnson, R. E....................................................   153
Johnson, W. A....................................................   651
Jones, G. J......................................................   259
Jones, Justin....................................................   221
Kelley, Bob......................................................   265
Kibble, John.....................................................    14
Killsnight, Reginald, Sr.........................................   159
Kompkoff, Gary...................................................   596
Lankford, C. J...................................................   541
Largo, Juliette..................................................   228
LaRose, Louis....................................................     7
Locke, Gary......................................................   440
Lorretto, Leonard................................................    44
Mantineau, Ferdinand.............................................    56
Markishtum, Hubert...............................................    79
Mason, Russell ``Bud''...........................................   240
Maulson, Tom.................................................... 26, 61
Mayo, Randy......................................................   671
McCabe, Preston..................................................   102
McCloskey, Ruben.................................................   359
McCoy, J. R......................................................   150
McGeshick, J. C..................................................   526
McGruther, Faith.................................................   173
McMullen, Elenore................................................   604
Mejia, Margie....................................................   644
Mitchell, J. C...................................................   559
Monette, Gerald ``Carty''........................................   364
Morton, R. D.....................................................   235
Motloee, A. B....................................................   371
Murphy, Virgil...................................................   109
Naneng, M. P.....................................................   657
Nez, Renita......................................................   102
Norton, G. A.....................................................   557
Nygaard, Robert..................................................   171
Padilla, N. J....................................................   446
Pakootas, Joseph.................................................   569
Paul, Johnnie....................................................   670
Penney, S. N.....................................................   127
Pinkham, Jaime...................................................    38
Poynter, Ken.....................................................   165
Riggs, Hon. F. D.................................................   305
Roberts, J. D....................................................   280
Sabshin, Melvin..................................................    91
Saulque, J. C................................................. 322, 553
Scott, Sheryl....................................................   259
Secakuku, Ferrell................................................    20
Shaw, Frances....................................................   399
Sherman, Jill....................................................   305
Shields, Caleb...................................................    50
Shore, Jim.......................................................   371
Simone, J. J.....................................................   450
Siow, Virgil.....................................................   153
Smith, Norine....................................................   425
Starr, Donna.....................................................   286
Sterud, Bill.....................................................   252
Stevens, Daisy...................................................   668
Strong, Ted......................................................   565
Sutton, R. W.....................................................   630
Swaney, R. R.....................................................   541
Taylor, Lewis....................................................   513
Thomas, E. K.....................................................   659
Thomas, Robert...................................................   195
Ticknor, Winchell................................................   667
Tinno, Keith.....................................................     1
Tom, Young Jeff..................................................   634
Torres, Rebecca..................................................   500
Tripp, Maria.....................................................   450
Tsosie, Wallace..................................................   189
Turner, Denis................................................. 392, 398
Turnipseed, Mike.................................................   252
Valencia, R. F...................................................   145
Vizina, R. J.....................................................    14
Walker, Anne.....................................................   182
Walks Along, William.............................................   159
Wallace, A. B....................................................   383
Walz, Rosalee....................................................   442
Ward, Oliver.....................................................    79
Wawronowicz, L. J................................................    61
Whiston, David...................................................    69
Whitefeather, Bobby..............................................   537
Whitener, Andy...................................................   273
Whitener, D. W...................................................   273
Williams, Donald.................................................   666
Willis, Lorene...................................................    94
Wilmer, John, Sr.................................................   533
Wright, Mervin, Jr...............................................   121
Wynne, Bruce.....................................................   115
Yazzie, Geneva...................................................   228
Zacharof, Mike...................................................   592


                               I N D E X

                              ----------                              
                                                                   Page
Akiak Native Community...........................................   661
Alabama-Quassarte Tribal Town....................................   500
Alamo-Navajo School Board........................................   177
Alaska Legal Services Corporation................................   646
Alaska Native Health Board.......................................   182
Alaska Native Heritage Center....................................   612
Aleutian and Pribilof Islands Restitution Trust..................   592
American Dental Association......................................    69
American Dietetic Association....................................   421
American Indian Graduate Center..................................   630
American Indian Higher Education Consortium......................   364
American Psychiatric Association.................................    85
American Public Health Association...............................   417
Arctic Slope Native Association, Limited.........................   654
Assiniboine and Sioux Tribes.....................................    50
Association of Community Tribal Schools, Inc.....................   626
Association of Navajo Community Controlled School Boards.........   346
Association of Village Council Presidents........................   657
Bad River Band of Lake Superior Chippewa Indians.................   533
Bering Sea Fishermen's Association...............................   616
Black Mesa Community School......................................   638
Bristol Bay Area Health Corporation..............................   608
Bristol Bay Native Association...................................   649
California Rural Indian Health Board.............................   322
Central Council of Tlingit and Haida Indian Tribes of Alaska.....   659
Cheyenne River Sioux Tribe.......................................   505
Chippewa/Ottawa Treaty Fishery Management Authority..............   171
Chugach Regional Resources Commission............................   600
Close Up Foundation..............................................   620
Columbia River Inter-Tribal Fish Commission......................   565
Colville Confederated Tribe......................................   569
Confederated Salish and Kootenai Tribes of the Flathead Nation...   541
Confederated Tribes of Coos, Lower Umpqua and Siuslaw Indians....   557
Consolidated Tribal Health Project, Inc..........................   465
Council Annette Island Reserve...................................   588
Coyote Valley Tribal Health......................................   489
Five Tribes......................................................   576
Fond du Lac Band of Lake Superior Chippewa.......................    56
Fort Defiance Hospital Steering Committee........................   433
Greasewood Springs Community School, Inc.........................   189
Great Lakes Fish and Wildlife Commission.........................    25
Hoopa Valley Tribal Council......................................   305
Hopi Tribe.......................................................    20
Hopland Band of Pomo Indians.....................................   481
Hualapai Tribe...................................................   377
Indian Health Board of America...................................   425
Intertribal Bison Cooperative....................................     7
Intertribal Monitoring Association of Indian Trust Funds.........   641
Intertribal Timber Council.......................................    38
Jamestown S'Klallam Tribe........................................   292
Kawerak, Inc.....................................................   664
Kipnuk Traditional Council.......................................   670
Klamath Tribes...................................................   559
Kuigpagmiut, Inc.................................................   669
Lac Courte Oreilles..............................................   408
Lac du Flambeau Band of Lake Superior Chippewa Indians...........    61
Lac Vieux Desert Band of Lake Superior Chippewa Indians..........   526
Lake County Tribal Health Consortium.............................   477
Little Traverse Band of Odawa Indians............................   517
Lower Elwha S'Klallam Tribe......................................   133
Lummi Indian Nation..............................................   315
Lytton Rancheria/Lytton Band of Pomo Indians.....................   644
Makah Tribe......................................................    79
Maniilaq Association.............................................   653
Manzanita Band of Mission Indians................................   398
McGrath Native Village Council...................................   667
Menominee Indian Tribe of Wisconsin..............................   509
Mille Lacs Band of Ojibwe........................................   530
Mni Sose Intertribal Water Rights Coalition, Inc.................   351
Modoc Tribal Health Program......................................   473
Muscogee (Creek) Nation..........................................   429
Narragansett Indian Tribe........................................   195
National Congress of American Indians............................   292
National Indian Child Welfare Association........................   201
National Indian Education Association............................    94
Native American Fish and Wildlife Society........................   165
Native American Rights Fund......................................   496
Native Village of Barrow.........................................   662
Native Village of Fort Yukon.....................................   668
Native Village of Kotzebue.......................................   660
Native Village of Port Graham....................................   604
Native Village of Tatitlek.......................................   596
Navajo Area School Board Association.............................   634
Nez Perce Tribal Executive Committee.............................   127
Northern Cheyenne Tribe..........................................   159
Northwest Indian Fisheries Commission............................   265
Northwest Intertribal Court System...............................   286
Northwest Portland Area Indian Health Board......................   436
Norton Sound Health Corporation..................................   584
Nottawaseppi Huron Band of Potowatomi............................   519
Oglala Sioux Tribal Public Safety Commission.....................   215
Owens Valley Indian Water Commission.............................   553
Pascua Yaqui Tribe of Arizona....................................   145
Passamaquoddy Tribe of Pleasant Point............................   340
Pinon Community School Board.....................................   102
Port Gamble S'Klallam Tribe......................................   259
Pueblo of Jemez..................................................    44
Pueblo of Laguna.................................................   153
Puyallup Tribe of Indians........................................   252
Pyramid Lake Paiute Tribe........................................   121
Quinault Indian Nation...........................................   139
Red Cliff Band of Lake Superior Chippewa.........................   522
Red Lake Band of Chippewa Indians................................   537
Rock Point Community School......................................   221
Round Valley Indian Health Center................................   461
San Diego American Indian Health Center..........................   235
Sauk-Suiattle Indian Tribe.......................................   280
Sault Ste. Marie Tribe...........................................    14
Seattle Indian Health Board......................................   442
Seminole Tribe of Florida........................................   371
Shiprock Alternative Schools, Inc................................   228
Shoshone-Bannock Tribes..........................................     1
Sitka Tribe of Alaska............................................   666
Skokomish Indian Tribe...........................................   573
Sonoma County Indian Health Project, Inc.........................   458
Southern California Tribal Chairmen's Association................   392
Southern Indian Health Council, Inc..............................    31
Spokane Tribe of Indians.........................................   115
Squaxin Island Tribe.............................................   273
St. Croix Tribal Council.........................................   513
Stevens Village Council..........................................   671
Stockbridge-Munsee Community Band of Mohican Indians.............   109
Suquamish Tribe..................................................   332
Susanville Indian Rancheria......................................   446
Sycuan Medical/Dental Center.....................................   469
Table Mountain Rancheria.........................................   485
Three Affiliated Tribes, Fort Berthold Reservation...............   240
Toiyabe Indian Health Project, Inc...............................   454
Tulalip Tribes...................................................   150
Tule River Tribal Council........................................   493
United States-Canada Pacific Salmon Commission...................   292
United Indian Health Services, Inc...............................   450
United Sioux Tribes of South Dakota Development Corporation......   359
United Tribes Technical College..................................   246
United Villages, Inc.............................................   652
Upper Klamath Basin Working Group................................   562
Ute Indian Tribe.................................................   545
Wa He Lut Indian School..........................................   624
Walker River Paiute Tribe of Nevada..............................   549
Washington, Office of the Governor...............................   440
Washoe Tribe of Nevada and California............................   383
Winnebago Tribe of Nebraska......................................   501
Yakama Indian Nation.............................................   580
Yakutat Tlingit Tribe............................................   650
Yankton Sioux Tribe..............................................   402

                                <all>
</pre></body></html>
